<html>
<title> - HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 114-252]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-252

           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-065 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           November 18, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     3
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     3
    Prepared statement...........................................     5
Rounds, Hon. Mike, U.S. Senator from South Dakota................    18
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    20
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    22
Boozman, Hon. John, U.S. Senator from Arkansas...................    24
Tester, Hon. Jon, U.S. Senator from Montana......................    25
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    27
Moran, Hon. Jerry, U.S. Senator from Kansas......................    28

                               WITNESSES

Ernst, Hon. Joni, a United States Senator from the State of Iowa.     1
Coy, Curtis L., Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Maureen McCarthy, M.D., Acting 
  Assistant Deputy Under Secretary for Health for Patient Care 
  Services, Veterans Health Administration; and Meghan Flanz, 
  Deputy General Counsel, Legal Operations and Accountability....     7
    Prepared statement...........................................     8
    Response to request arising during the hearing by Hon. 
      Richard Blumenthal.........................................    32
    Response to posthearing questions submitted by Hon. 
      Richard Blumenthal.........................................    33
Hempowicz, Elizabeth, Public Policy Associate, Project On 
  Government Oversight...........................................    38
    Prepared statement...........................................    40
    Response to request arising during the hearing by Hon. 
      Richard Blumenthal.........................................    60
Hubbard, William, Vice President of Government Affairs, Student 
  Veterans of America............................................    43
    Prepared statement...........................................    44
Morosky, Aleks, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    48
    Prepared statement...........................................    50
Porter, Thomas, Legislative Director, Iraq and Afghanistan 
  Veterans of America............................................    52
    Prepared statement...........................................    54
    Response to request arising during the hearing by Hon. 
      Richard Blumenthal.........................................    66
Zumatto, Diane, National Legislative Director, AMVETS............    55
    Prepared statement...........................................    57

                                APPENDIX

Kirk, Hon. Mark, U.S. Senator from Illinois; prepared statement..    67
American Academy of Physician Assistants (AAPA); prepared 
  statement......................................................    69
Clarno, Germaine, LCSW, CADC and Local President of the American 
  Federation of Government Employees (AFGE); prepared statement..    70
Varela, Paul R., Assistant National Legislative Director, 
  Disabled American Veterans (DAV); prepared statement...........    72
Grundmann, Susan Tsui, Chairman, U.S. Merit Systems Protection 
  Board (MSPB); prepared statement...............................    76
Nee, Lisa M., MD, Interventional Cardiologist; prepared statement    83
Lerner, Carolyn N., Special Counsel, United States Office of 
  Special Counsel (OSC); prepared statement......................    85
Paralyzed Veterans of America (PVA); prepared statement..........    86
Wilkes, Christopher Shea, VA Truth Tellers; letter...............    88
Halliday, Linda A., Deputy Inspector General, U.S. Department of 
  Veterans Affairs, Office of Inspector General (OIG); letter....    94
Ochinko, Walter, Policy Director, Veterans Education Success 
  (VES); prepared statement......................................    98
 
           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Rounds, Tillis, 
Sullivan, Blumenthal, Brown, Tester, and Hirono.

           WELCOME BY HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee come to order.
    Since our distinguished Senator from the State of Iowa is 
here early, in a timely fashion, I do not want to make her wait 
any longer, and it is always our tradition to have members of 
the Senate who are not on the Committee who have bills to be 
testified about speak first, and we always honor them by not 
asking them any questions. That is not because we know they do 
not have the answers. It is because we do not want the hearing 
to go so long.
    So, Senator Ernst, we are delighted to have you here. You 
are our first witness and we will be glad to hear from you.

                 STATEMENT OF HON. JONI ERNST, 
                     U.S. SENATOR FROM IOWA

    Senator Ernst. Thank you, Mr. Chairman. I appreciate it 
very much, and thank you for your service and, of course, your 
service to our veterans, as well. Thank you, as well, Senator 
Sullivan.
    I do wish to thank all of the Members of the Committee who 
have worked so hard for our veterans. This is one of the most 
important Committees, I feel, to making sure that we honor our 
commitments to the men and women that have served in our 
Nation's military. Again, thank you for allowing me to testify 
today.
    I want to specifically thank my lead Democratic sponsor, 
Senator Hirono, for her help with this legislation, which is 
designed to improve the access and quality of care we provide 
our veterans. The bill is called the VETS Act for a reason, and 
that is because we all want to honor and help those that served 
and sacrificed for our country.
    The VA has been practicing telemedicine since 2001 and they 
are largely cited as leaders and innovators in the field. Their 
efforts in telemedicine have saved money and veterans' time by 
eliminating often an hour or more long drives to the VA and 
reducing bed days at the VA. For example, according to the VA, 
in fiscal year 2014, telehealth reduced bed days of care by 54 
percent, reduced hospital admissions by 32 percent, and saved 
$34 per consultation in travel savings.
    Our legislation is straightforward, common sense, and 
builds upon this work that the VA is already doing in 
telemedicine. It allows VA doctors to conduct telemedicine 
across State lines for patients in their homes, something they 
are already able to do within State lines. Unfortunately, 
current law allows doctors to call patients at their homes if 
they are in the same State but prevents them from doing so if 
their veteran patient lives across State lines. VA doctors 
wishing to treat patients via telehealth across State lines 
must have the patient drive to a Federal facility. This is the 
case even though there is no special licensing requirement for 
VA doctors to practice in different States.
    For example, a veteran in my small town of Red Oak, Iowa, 
who wishes to have a telemedicine appointment with a doctor at 
the VA hospital in Omaha, Nebraska, that is closest to my home 
town, an hour away, that veteran must drive to the VA center in 
Des Moines, a 2-hour drive. By contrast, if the doctor was 
based in Des Moines, the patient could remain in their home in 
Red Oak and have a telemedicine appointment.
    Back in Iowa and in many other States, rural veterans are 
often faced with the struggle of making it to a VA facility in 
the city. Increasing opportunities for telemedicine is a great 
way to tackle this challenge for services ranging from mental 
health treatment to post-surgery follow-up.
    In addition, this bill includes language we worked with the 
VA on to ensure policymakers have up to date information on the 
VA's telehealth program. This report language is designed not 
to have a cost or create any extra work as this is data that 
the Department already collects on its telehealth program.
    As you may know, this legislation has broad bipartisan 
support, with 12 cosponsors, three from this Committee, and is 
supported by the Veterans of Foreign Wars, The American Legion, 
Concerned Veterans for America, the Paralyzed Veterans 
Association, Iraq and Afghanistan Veterans of America, and the 
American Telemedicine Association, and Health IT Now.
    I hope you all are able to see the common sense behind this 
legislation and I greatly appreciate all of you taking time to 
consider this legislation and listen to my remarks today. Thank 
you very much, Mr. Chairman.
    Chairman Isakson. Senator Ernst, we appreciate your 
leadership, and Senator Hirono, your cosponsorship of the 
legislation----
    Senator Hirono. I am proud to.
    Chairman Isakson. A proud cosponsor.
    Senator Ernst. Thank you, Mazie, very much, Senator Hirono.
    Chairman Isakson. I think we have five other Committee 
Members who are also cosponsors of the bill.
    Senator Ernst. Wonderful.
    Chairman Isakson. It does address a critical need. We have 
had some input, which I will go over with you, but we want to 
move forward as soon as we can. It is a great suggestion that 
really helps us solve a problem in a most economical way, but 
it also benefits mostly our veterans, which is why we are here 
to begin with.
    So, thank you very much----
    Senator Ernst. Thank you.
    Chairman Isakson [continuing]. For submitting the 
legislation. We will be with you shortly, when we do a markup.
    Senator Ernst. Thank you, Mr. Chair.
    Chairman Isakson. Thank you.
    We will go ahead and do opening statements by the Chairman 
and Ranking Member and then we will go straight to our first 
and second panels, if that is OK. Thanks again to Senator Ernst 
for being here today and her legislation.
    Senator Ernst. Thank you.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
              CHAIRMAN, U.S. SENATOR FROM GEORGIA

    Chairman Isakson. Today's agenda touches on a variety of 
areas, including whistleblower protection, educational 
benefits, vocational rehabilitation, and improving medical 
staffing and care. I want to commend Senator Ernst and Senator 
Kirk, who are not Members of the Committee but have come 
forward with legislation we will consider today, as well as 
each Member of the Committee who has had input on the hearing 
today.
    VA has come under increasing fire recently for treatment of 
whistleblowers and this Committee wants to see to it that 
whistleblowers who truthfully come forward to testify have the 
protection and the ease necessary to accomplish what they do. 
It is a valuable service to make the Veterans Administration 
better.
    The Committee will continue to look closely at all the 
programs that support the transition from service to private 
sector employment and do everything we can to see to it we are 
fostering the type of transition that is necessary. It is 
important to evaluate new ideas to staff VA facilities 
adequately and connect veterans with health care providers. 
Most importantly, it is important that we always make sure that 
we are providing our veterans with the services they need from 
the Veterans Administration when they leave the military.
    I appreciate our members that have submitted legislation 
today. We will have five pieces that we will take up. We will 
hear from six witnesses who will testify, and I will now 
recognize the Ranking Member, Richard Blumenthal.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
         RANKING MEMBER, U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
having this hearing and for including priorities from the 
minority side on today's agenda. Also, that you for continuing 
to work with us in a bipartisan way to address the many 
important bills that have been referred to the Committee.
    I am particularly proud of the whistleblower protection 
bill that Senator Kirk and I have introduced last night. It was 
the result of many hours of painstaking and sometimes painful 
work to accommodate the interests involved and balance the 
rights on both sides to make sure that whistleblowers are 
protected against potential reprisal and retaliation. I know 
from my work as a State Attorney General as well as a Federal 
prosecutor how important whistleblowers are as a source of 
information and evidence and how vulnerable they may be when 
they speak truth to power.
    Therefore, I felt strongly and deeply about this measure, 
and I recognize there may not be unanimity and support for it. 
But I think it makes some critically important advances in 
providing the safeguards that are needed for whistleblowers to 
step forward and do what they have done throughout our history 
in protecting the public interest which sometimes includes 
putting that public interest ahead of their own personal 
welfare. At the very least, they ought to be protected from 
reprisal and retaliation, which has happened in the VA, it has 
happened in the government as a whole, and that is why we have 
the system of whistleblower protection that we do.
    In addition, I am very pleased today that the Committee is 
considering my legislation S. 2253, the Veterans Education 
Relief and Reinstatement Act. Again, I want to thank colleagues 
on both sides of the aisle, Senator Tillis of this Committee as 
well as Senator Brown, for cosponsoring this legislation.
    The catastrophic collapse of Corinthian Colleges earlier 
this year left thousands of students, literally thousands of 
young people, who had not received an education of any value, 
let alone a degree, stranded under mountains of debt. Four-
hundred-and-twenty-two of the students impacted were 
beneficiaries of the Post-9/11 G.I. Bill, which rightfully 
provides our veterans and other dependents with the opportunity 
to pursue higher education after military service.
    Not only did Corinthian's closure mean that these veterans 
had wasted a semester of Post-9/11 G.I. Bill entitlements at a 
college that closed, forgoing credit for their coursework, but 
this unexpected closure also led the VA to cutoff housing 
allowance benefits for them and their dependents. This monthly 
educational housing assistance is a crucial component of the 
Post-9/11 G.I. Bill benefit. When this benefit is abruptly 
terminated, it can leave beneficiaries stranded and without 
supplemental income for housing, food, utilities, and other 
basic necessities.
    I introduced the Veterans Education Relief and 
Reinstatement Act to give the VA Secretary authority to restore 
Post-9/11 G.I. Bill entitlements and provide housing relief to 
those who have been harmed by the permanent closure of an 
educational institution such as Corinthian. I am hopeful we can 
consider to advance this bill and other important education 
legislation, such as the Career Ready Student Veterans Act, 
through this Committee to ensure that our veterans have not 
wasted hard-earned education benefits and are given the 
opportunity to complete their degrees.
    This June, along with Senate and House colleagues, I urged 
the VA to provide more information to veterans on the G.I. Bill 
comparison tool to warn users when schools are under 
accreditation probation, facing heightened cash monitoring from 
the Federal Government, or under probation from the Department 
of Defense Military Tuition Assistance Program.
    I have more to say on a number of these bills. I am going 
to ask, with the Chairman's permission, that I enter my full 
statement in the record----
    Chairman Isakson. Without objection.
    Senator Blumenthal [continuing]. And simply again thank him 
for his consideration in permitting us to move forward on these 
critical measures.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Blumenthal follows:]
    Prepared Statement of Hon. Richard Blumenthal, Ranking Member, 
                     U.S. Senator from Connecticut
                            opening remarks
    Thank you, Mr. Chairman, for holding today's hearing on pending 
legislation before this Committee, and thank you to all of the 
witnesses providing testimony today. We appreciate your dedication to 
the veteran communities that you serve and thank you for sharing your 
insight.
    Today's hearing agenda reflects the commitment of Members on both 
sides of the aisle to do right by this Nation's veterans and their 
families. As this Congress continues, it is increasingly apparent there 
is much work to be done.
    I want to thank the Chairman for including priorities from the 
minority side on today's agenda, and for continuing to work with us in 
order to address the many important bills that have been referred to 
the Committee.
    I thank my Senate colleagues for their work to advance important 
bills through this Committee--specifically related to the vocational 
rehabilitation program, physician assistants and workforce shortages at 
VA, accountability, and education--and I am pleased that we have this 
opportunity to discuss these legislative measures today.
    Given the number of bills and legislative proposals on today's 
agenda, I will briefly highlight a few bills we'll consider today.
                           education benefits
    I am especially pleased that the Committee is considering consider 
my legislation, S. 2253, the Veterans Education Relief and 
Reinstatement Act. I thank my colleagues, particularly my distinguished 
Committee colleagues, Senator Tillis as well as Senator Brown, for 
cosponsoring this legislation.
    The catastrophic collapse of Corinthian Colleges earlier this year 
left thousands of students, who had not received an education of any 
value, stranded under a mountain of debt.
    422 of the students impacted were beneficiaries of the Post-9/11 GI 
Bill, which rightfully provides our veterans and their dependents with 
the opportunity to pursue higher education after their military 
service.
    Not only did the Corinthian closures mean that these veterans had 
wasted a semester of Post-9/11 GI Bill entitlement at a college that 
closed, forgoing credit for their coursework. But this unexpected 
closure also led VA to cutoff housing allowance benefits.
    This monthly educational housing assistance is a crucial component 
of the Post-9/11 GI Bill benefit. When this benefit is abruptly 
terminated, it can leave beneficiaries stranded and without 
supplemental income for housing, food, utilities, and other basic 
necessities.
    A recent investigation by the Department of Education and 
California Attorney General Kamala Harris determined that Corinthian 
Colleges repeatedly falsified job placement rates and preyed on 
veterans and taxpayers. These predatory practices took advantage of 
veterans using Post-9/11 GI Bill benefits to facilitate the transition 
to civilian life, and we must do more to protect the student veterans 
adversely impacted by such predatory practices and resulting school 
closures.
    I introduced the Veterans Education Relief and Reinstatement Act to 
give the VA Secretary authority to restore Post-9/11 GI Bill 
entitlement and provide housing relief to those who have been harmed by 
the permanent closure of an educational institution, such as 
Corinthian.
    No veteran should have to suffer, or lose their hard-earned 
educational benefits, due to the unsound financial practices and 
predatory actions of schools like Corinthian.
    I'm hopeful that we can continue to advance this bill and other 
important education legislation, such as the Career-Ready Student 
Veterans Act, through this Committee to ensure that our veterans have 
not wasted hard-earned education benefits and are given the opportunity 
to complete their degrees.
    This June, along with Senate and House Colleagues, I urged VA to 
provide more information to veterans on the GI Bill Comparison Tool to 
warn users when schools are under accreditation probation, facing 
heightened cash monitoring from the Federal Government, or under 
probation from the Defense Department's military tuition assistance 
program.
    VA recently updated the GI Bill Comparison Tool with yellow caution 
flags to warn users that certain schools, notably the University of 
Phoenix, are under probation. This is a good first step to ensure that 
veterans are provided with the resources they need to make informed 
education decisions to best use their Post-9/11 GI Bill benefits.
    We must do more to ensure that our Nation's heroes are using GI 
Bill education benefits to receive education training, and are not 
squandering these benefits on incapable institutions. I am pleased that 
the Veterans Education Relief and Reinstatement Act has broad support 
from VA as well as the veteran service organizations represented at our 
hearing today and in written testimony.
                       whistleblower protections
    The agenda also includes legislation to strengthen whistleblower 
protections at VA. I'd like to thank my colleague Senator Kirk for 
introducing this critically important bill.
    The Government Accountability Project has referred to the 
provisions in this legislation as ``a major breakthrough in the 
struggle for VA whistleblowers to gain credible rights when defending 
the integrity of the agency mission and disclosing quality of care 
concerns.''
    In addition, this legislation would hold supervisors accountable 
for retaliating against whistleblowers.
    I'm proud to co-sponsor this legislation, and I'd like to again 
thank Senator Kirk for working with me and introducing this bill. I'd 
like to thank the Veterans Service Organizations, the Government 
Accountability Project, and other good government organizations for 
their leadership on this issue.
                               conclusion
    In conclusion, I again would like to thank our many witnesses for 
joining us today. I look forward to our continued cooperation and 
bipartisan collaboration with Chairman Isakson to work toward better 
serving those who have served our country.

    Thank you and I look forward to hearing your testimony.

    Chairman Isakson. Thank you, Senator Blumenthal.
    If our first panel will come forward, I will introduce our 
first panel.
    First is Mr. Curtis L. Coy, Deputy Under Secretary for 
Economic Opportunity, Veterans Benefits Administration, U.S. 
Department of Veterans Affairs; Dr. Maureen McCarthy, Acting 
Assistant Deputy Under Secretary for Health for Patient Care 
Services, Veterans Health Administration, Washington, DC; and 
Meghan Flanz, Deputy General Counsel, Legal Operations and 
Accountability.
    We appreciate you all being here today. Mr. Coy, please 
limit your testimony to about 5 minutes.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
  OF VETERANS AFFAIRS; ACCOMPANIED BY MAUREEN McCARTHY, M.D., 
ACTING ASSISTANT DEPUTY UNDER SECRETARY FOR HEALTH FOR PATIENT 
   CARE SERVICES, VETERANS HEALTH ADMINISTRATION; AND MEGHAN 
      FLANZ, DEPUTY GENERAL COUNSEL, LEGAL OPERATIONS AND 
                         ACCOUNTABILITY

    Mr. Coy. Mr. Chairman, we will do just that. Good 
afternoon, Mr. Chairman and Members of the Committee. We are 
pleased to be here today to provide the views of the Department 
of Veterans Affairs on pending legislation affecting VA's 
programs. Accompanying, as you mentioned, are my colleagues Dr. 
Maureen McCarthy, Acting Assistant Deputy Under Secretary for 
Health, and Ms. Meghan Flanz, Deputy General Counsel.
    S. 2106, the Wounded Warrior Employment Improvement Act of 
2015, would require the Secretary to develop and publish an 
action plan for improving VA's vocational rehabilitation and 
employment (VRE) services. While VA appreciates the support the 
Committee has for our VRE program, we do not believe that a new 
action plan is necessary.
    VA's recent and planned efforts in this area are extensive. 
For example, we have already conducted a business process 
reengineering initiative from 2011 to 2014, resulting in 
streamlined workload and outreach strategies, new performance 
metrics, developed an automated resource center, eliminated 
redundant forms, and a staffing model; developed national 
training modules for VRE staff that include TBI, PTS, and other 
mental health issues, and have worked with VHA on these 
specialized trainings; developed partnerships with VHA, 
Department of Labor and Defense on a variety of issues, to 
include homelessness, mental health, telecounseling, disability 
and employment, and the Integrated Disability Evaluation 
System, or IDES, stationing counselors at 71 military 
installations for transitioning servicemembers.
    We agree with AMVETS' written testimony today and have 
expanded our public-private partnerships for VRE. Of note, 
public-private partnerships are of particular interest to 
Secretary McDonald. He has recently engaged with over 100 
different organizations to develop MOUs or agreements with more 
on the way. We have expanded our Vets Success on Campus Program 
to 94 campuses. As one might imagine, it has been a very busy 
and transformational few years.
    S. 2134, the Grow Our Own Directive: Physician Assistant 
Employment and Education Act of 2015, would establish a pilot 
program to provide educational assistance to former members of 
the Armed Forces for education and training as physician 
assistants within the VA. While VA supports the entire concept, 
the cost, as we laid out in our written testimony, associated 
with the legislation causes concern within our available 
resources.
    With respect to S. 2170, the Veterans eHealth and 
Telemedicine Support Act of 2015, VA supports the section of 
the bill that allows VA employed or contracted health care 
professionals to provide health care and to support the 
provision of health care to the VA patient by telemedicine. As 
outlined in more detail in our written testimony, VA supports 
certain reporting requirements but does not support other 
reporting requirements that would be overly burdensome on VA 
operations.
    S. 2253, the Department of Veterans Affairs Veterans 
Education Relief and Restoration Act of 2015, would provide 
veterans affected by school closures with certain relief and 
restoration of education benefits if the VA finds that the 
individual was forced to discontinue a course or courses as a 
result of permanent school closure. VA supports this bill and 
appreciates the leadership of Senator Blumenthal and the 
Committee in helping those veterans who deal with a school 
closure through no fault of their own.
    The draft bill regarding whistleblower complaints would 
define a whistleblower complaint to include not only a VA 
employee's disclosure of wrongdoing, but also a complaint made 
by a VA employee assisting other employees to disclose 
wrongdoing. Amongst many other requirements, we do note that it 
would establish a process for employees to file whistleblower 
complaints with their immediate supervisor and establish a 
central whistleblower office which is not part of VA's Office 
of General Counsel that would be responsible for investigating 
all whistleblower complaints.
    In recent months, the Department has taken several 
important steps to improve how we address operational 
deficiencies and to ensure that those who disclose such 
deficiencies are protected from retaliation. In the summer of 
2014, the Secretary reorganized and assigned new leadership to 
VA's Office of the Medical Inspector, which reviews 
whistleblower disclosures related to VA health care operations. 
The Secretary also established the Office of Accountability 
Review to ensure leadership accountability for whistleblower 
retaliation and other serious misconduct.
    While we appreciate the Committee's efforts to assist the 
Department in these endeavors, we believe the specific 
whistleblower disclosure and protection procedures provided by 
this bill would be unworkable and current whistleblower 
protections are effective. From a legal perspective, our 
analysis suggests that portions of the draft bill present due 
process problems and conflicts with other laws.
    Mr. Chairman, this concludes my statement. We thank you for 
the opportunity to appear before you today and we will be 
pleased to respond to any questions you or other members may 
have, sir.
    [The prepared statement of Mr. Coy follows:]
    Prepared Statement of Curtis L. Coy, Deputy Under Secretary for 
  Economic Opportunity, Veterans Benefits Administration (VBA), U.S. 
                     Department of Veterans Affairs
    Good morning, Mr. Chairman and Members of the Committee. I am 
pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on pending legislation affecting VA's programs, 
including the following: S. 2106, S. 2134, S. 2170, S. 2253, and a 
draft bill regarding whistleblower complaints. At this time, VA is 
unable to develop cost estimates for the ``Department of Veterans 
Affairs Veterans Education Relief and Restoration Act of 2015;'' 
however, we will provide these to you as soon as they are available. 
Accompanying me this morning are Maureen McCarthy, Acting Assistant 
Deputy Under Secretary for Health for Patient Care Services, Veterans 
Health Administration and Meghan Flanz, Deputy General Counsel, Legal 
Operations & Accountability.
                                s. 2106
    S. 2106, the ``Wounded Warrior Employment Improvement Act of 
2015,'' would require the Secretary to develop and publish an action 
plan for improving VA's vocational rehabilitation services and 
assistance. Section 2(b) would require the action plan to include: (1) 
a comprehensive analysis of, and recommendations for, remedying 
workload management challenges at VA's regional offices (ROs), 
including steps to reduce counselor caseloads of Veterans participating 
in a rehabilitation program, particularly for counselors who are 
assisting Veterans with Traumatic Brain Injury (TBI) and Post Traumatic 
Stress Disorder (PTSD), and for counselors with educational and 
vocational counseling caseloads; (2) a comprehensive analysis to 
address the reasons for the disproportionately low percentage of 
Veterans, with service-connected disabilities and military service 
after September 11, 2001, who opt to participate in a rehabilitation 
program under chapter 31 of title 38, United States Code (U.S.C.), 
relative to the percentage of such Veterans who use their entitlement 
to educational assistance under chapter 33, including an analysis of 
barriers to timely enrollment in rehabilitation programs under chapter 
31 and any barriers to a Veteran enrolling in the program of that 
Veteran's choice; (3) recommendations for encouraging more Veterans who 
have military service after September 11, 2001, and have service-
connected disabilities to participate in rehabilitation programs under 
chapter 31; and (4) a national staff training program for Vocational 
Rehabilitation Counselors (VRC) to include: (a) training to assist VRCs 
in understanding the profound disorientation experienced by Veterans 
with service-connected disabilities whose lives and life plans have 
been complicated due to service-connected disabilities; (b) training to 
assist VRCs in working in partnership with Veterans on individual 
rehabilitation plans; and (c) training on PTSD and other mental health 
conditions and on moderate to severe TBI that is designed to improve 
the ability of VRCs to assist Veterans with these conditions, including 
providing information on the broad spectrum of such conditions and the 
effect of such conditions on an individual's abilities and functional 
limitations.
    VA does not believe that a new action plan is necessary to improve 
vocational rehabilitation services and assistance provided under 
chapter 31 and accordingly does not support S. 2106. VA's recent and 
planned efforts in this area are already extensive.
    The Vocational Rehabilitation and Employment (VR&E) program 
conducted a business process re-engineering initiative from 2011 to 
2014 to examine workload issues, training, roles, responsibilities, and 
outreach. As a result, workload management strategies were streamlined 
and a new staffing model was developed. VA has an outreach campaign 
underway to increase awareness of and access to chapter 31 services. 
This includes the August 2015 deployment of an online application for 
chapter 31 and chapter 36 benefits through eBenefits and Enterprise 
Veterans Self-Service. VR&E places VRCs in colleges and universities 
across the Nation as part of the VetSuccess on Campus (VSOC) 
initiative. VSOC VRCs provide information on VA benefits to a variety 
of populations on campus, including Veterans, Servicemembers, and 
dependents. VR&E is an integral part of the joint Department of Defense 
and VA Transition Assistance Program and the Integrated Disability 
Evaluation System, with VRCs placed on military installations for early 
outreach and delivery of vocational rehabilitation services to 
transitioning Servicemembers. VA's national training curriculum for 
VR&E staff covers a variety of topics related to job duties, which 
includes information on working with individuals with TBI, PTSD, and 
other mental health issues. VR&E partners with the Veterans Health 
Administration (VHA) on many of these specialized trainings.
    Our VR&E program has also recently implemented two major 
initiatives to improve services to Veterans and ensure that those 
services are accurately measured. The first, TeleCounseling, fielded 
nationwide in May 2015, is an optional method of coordinating case 
management and supportive services for Veterans participating in a 
program of vocational rehabilitation. This initiative allows the VRC 
and Veteran to have more frequent face-to-face contact. The second, the 
implementation of new performance measures, fielded nationwide in 
July 2015, ensures that the daily activities and operations of 
employees who provide direct service to Veterans are linked to program 
measures that define successful outcomes for those Veterans. VR&E is 
developing a new case management system (CMS), VRE-CMS, that will 
streamline responsibilities, enable a paperless environment, and 
improve data integrity.
    The cumulative impact of these processes, trainings, outreach 
programs, and initiatives encourages more Servicemembers and Veterans 
with service-connected disabilities to participate in chapter 31 
services by ensuring that VR&E staff understands the specialized needs 
of Veterans with service-connected disabilities; provides appropriate 
and timely rehabilitation services to meet those needs; provides 
Servicemembers and Veterans information necessary to make an informed 
choice on available VA benefits to which they may be entitled; and 
removes barriers to accessing rehabilitation services.
    The chapter 33 program is an educational benefit for individuals 
who served on active duty after September 10, 2001. The chapter 31 
program is a benefit that assists individuals with service-connected 
disabilities meeting certain statutory guidelines, with a focus on 
obtaining and maintaining employment and/or achieving the maximum 
possible level of independence in daily living. Congress has mandated 
that, in addition to a service-connected disability, the Servicemember 
or Veteran must also have an employment handicap, defined as impairment 
to one's ability to prepare for, obtain, or retain employment, to 
qualify for services under chapter 31. Also, chapter 31 is required by 
law to ensure that the vocational goal for which services are provided 
is a suitable goal. The training that individuals receive for a 
specific occupation should assist them in performing the duties of that 
occupation. Not all Veterans with a service-connected disability will 
meet these criteria or have an interest in pursuing a suitable 
vocational goal. For those individuals, chapter 33 is often the program 
of choice, as it provides access to education benefits regardless of 
level of impairment or suitability of the educational or vocational 
goal.
    There are no mandatory costs associated with this legislation. To 
conduct a new analysis and develop an action plan as outlined in the 
proposed legislation, VA would need to use administrative funds to 
procure a contract. The estimated cost to procure a contract for these 
services is approximately $2 million.
                                s. 2134
    S. 2134, the ``Grow Our Own Directive: Physician Assistant 
Employment and Education Act of 2015,'' would establish a pilot program 
to provide educational assistance to certain former members of the 
Armed Forces for education and training as physician assistants within 
the VA. While VA supports the concept, the cost associated with the 
legislation would cause concern within our available resources.
    S. 2134 would require the Secretary to provide information on the 
pilot program to eligible individuals. An eligible individual would be 
defined as an individual who: (1) has medical or military health 
experience while serving as a member of the Armed Forces; (2) has 
received a certificate, associate degree, baccalaureate degree, 
master's degree, or post-baccalaureate training in a science related to 
health care; (3) has participated in the delivery of health care 
services or related medical services; and (4) does not have a degree of 
doctor of medicine, doctor of osteopathy, or doctor of dentistry.
    S. 2134 would also require the Secretary to select no less than 250 
eligible individuals to participate in the program with a minimum of 35 
scholarship participants per year. Priority would be given to: 
individuals who participated in the Intermediate Care Technician Pilot 
Program of the Department that was carried out by the Secretary between 
January 2011 and February 2015, and individuals who agree to be 
employed as a physician assistant for VHA in a community designated as 
a medically underserved population and in a State with a per capita 
Veteran population of more than 9 percent. Although VA supports the 
minimum requirement of scholarship participants, VA is concerned that 
the applicant pool of eligible individuals may be insufficient to meet 
the required number.
    S. 2134 would also require the Secretary, in carrying out the pilot 
program, to provide educational assistance to individuals participating 
in the program to cover the costs to the individuals of obtaining a 
master's degree in physician assistant studies or a similar master's 
degree. The legislation would call for the use of the Health 
Professionals Educational Assistance Program (HPEAP) and other 
educational assistance programs the Secretary considers appropriate, to 
administer a 5-year pilot program.
    S. 2134 would also require each individual participating in the 
pilot program to enter into an obligated service agreement with the 
Secretary to be employed as a physician assistant with VHA for a period 
of time that is either specified in the HPEAP or other educational 
assistance program or, if the individual is participating through a 
program where an obligated service period is not specified, a period of 
at least 3 years or such other period as the Secretary considers 
appropriate.
    The bill would also provide that where an individual who 
participates in the pilot program fails to satisfy the period of 
obligated service, he or she shall be liable to the United States, in 
lieu of the obligated service, for the amount that has been paid or is 
payable to or on behalf of the individual under the pilot program, 
reduced by the proportion that the number of days the individual served 
for completion of the period of obligated service years to the total 
number of days in the period of obligated service of such individual.
    The bill would also require the Secretary to ensure that a 
physician assistant mentor or mentors are available for individuals 
participating in the pilot program at each facility of VHA at which a 
participant in the pilot program is employed.
    The bill would require the Secretary to seek to partner with not 
less than 15 institutions of higher education that offer a master's 
degree program in physician assistant studies or a similar area of 
study accredited by the Accreditation Review Commission on Education 
for the Physician Assistant. These institutions would also agree to 
guarantee seats in such master's degree program for pilot program 
participants, and to provide pilot program participants with 
information on admissions criteria and process. VA recommends that it 
be granted flexibility with the final number of partnerships/affiliates 
as less than 15 institutions may be sufficient to meet these 
requirements.
    The bill would also require four new employees to administer the 
pilot program: a Deputy Director of Education and Career Development of 
Physician Assistants; a Deputy Director of Recruitment and Retention; a 
recruiter; and an administrative assistant. All positions would be 
aligned with VHA's Office of Physician Assistant Services.
    This pilot program would require scholarship recipients to complete 
a service obligation at a VA health care facility after graduation and 
licensure/certification. VHA has had difficulty recruiting and 
retaining physician assistants for several years. Additionally, VHA 
Workforce Succession Strategic Plan and Reports have listed physician 
assistants in the top ten critical occupations, and VA's Office of 
Inspector General's Critical Occupation Staffing Shortage Report has 
listed physician assistants in the top five most critical occupations 
shortages.
    The total cost of the Health Professional Scholarship Program for 
450 awards over 5 years would be $56,573,810.
    The total cost associated with administering the pilot program over 
5 years would be $2,764,667.
    The total cost associated with establishment of pay grades for 
physician assistants and the requirement of providing competitive pay 
would be $374,921,436 over 10 years.
                                s. 2170
    Section 2(a) of S. 2170, the ``Veterans E-Health and Telemedicine 
Support Act of 2015,'' would amend title 38, U.S.C., to add a new 
section 1730B, which would permit a covered health care professional to 
practice their health care profession at any location in any State, 
regardless of where such health care professional or the patient is 
located, if the health care professional is using telemedicine to 
provide treatment under chapter 17 of title 38. New section 1730B would 
specify that this authority would apply regardless of whether the 
covered health care professional is located in a facility owned by the 
Federal Government. In addition, new section 1730B would state that 
nothing in that section would be construed to alter any obligation of 
the covered health care professional under the Controlled Substances 
Act (21 U.S.C. 801 et seq.). New section 1730B would define ``covered 
health care professional'' to mean an individual ``authorized by the 
Secretary to provide health care under [Chapter 17 of title 38], 
including a private health care professional who provides such care 
under a contract entered into with the Secretary, including a contract 
entered into under section 1703 [of title 38]'' and ``licensed, 
registered or certified in a State to practice the health care 
profession of the health care professional.'' In addition, 
``telemedicine'' would be defined to mean ``the use of 
telecommunication technology and information technology to provide 
health care or support the provision of health care in situations in 
which the patient and health care professional are separated by 
geographic distance.''
    Section 2(b) would provide a clerical amendment to the table of 
sections at the beginning of chapter 17 of title 38.
    Section 2(c) would require the Secretary, not later than 1 year 
after the date of enactment of the Act, to submit to Congress a report 
on VA's effective use of telemedicine. The report would require 
specific elements such as the assessment of the satisfaction of 
Veterans and health care providers with VA telemedicine; the effect of 
VA-funded telemedicine on the ability of Veterans to access health 
care, the frequency of use by Veterans of telemedicine, the 
productivity of health care providers, wait times for appointments, and 
any reduction in the use of other services by Veterans; the types of 
appointments for telemedicine that were provided; the number of 
requested appointments for telemedicine disaggregated by Veterans 
Integrated Service Networks; and any VA savings, including travel 
costs.
    VA supports section 2(a) of the bill. Section 2(a) would allow VA 
employed or contracted health care professionals who are professionally 
licensed in a State and practicing within the scope of their VA 
employment or contract, to provide health care and to support the 
provision of health care to the VA patient by telemedicine, without 
regard to where the health care professional is licensed or where the 
patient and the health care professional are physically located. 
Section 2(a) would also permit VA employees and contract health care 
professionals and VA patients to be located anywhere during such 
telemedicine, including in a non-VA facility. In addition, section 2(a) 
would clarify that the title 38 licensure requirements apply to both VA 
employed or contracted telemedicine practitioners during the 
performance of their official duties, whether they are on-station or 
not. In these ways, Section 2(a) would remove the barriers that might 
be imposed by local licensure laws of the places where the patient or 
the covered health care professional are located, or the State of 
licensure of the health care professional. Further, section 2(a) would 
make clear that any telemedicine services that involve prescribing 
controlled substances would have to be provided in accordance with the 
Controlled Substances Act.
    VA supports section 2(c) of the bill in part. Specifically, VA 
supports reporting on elements identified in paragraphs (A); (C) 
subparts (i), (ii), (iii), and (v); and (D) of section 2(c)(2). 
However, VA does not support the reporting required elements in 
paragraphs (B), (C) subpart (iv), (E), and (F) of section 2(c)(2). 
Reporting on these elements would be overly burdensome on VA operations 
because VA lacks the resources to routinely measure and assess this 
type of data over the reporting period.
    VA does not have a cost estimate for section 2(a) of the bill at 
this time. VA estimates that implementation of the one-time reporting 
requirement in section 2(c) of the bill would cost $17,000.
 s. 2253--department of veterans affairs veterans education relief and 
                        restoration act of 2015
    This bill would amend title 38, U.S.C., to provide Veterans 
affected by school closures with certain relief and restoration of 
education benefits. The bill would add a new subsection (d) to section 
3312 of title 38, U.S.C., to allow for the restoration of entitlement 
to educational assistance and provide other relief for Veterans 
affected by a school closure. More specifically, no payment of 
educational assistance would be charged against an individual's 
entitlement to educational assistance under the Post-9/11 GI Bill, or 
counted against the aggregate period for which an individual may 
receive educational assistance under two or more programs, if VA finds 
that the individual was forced to discontinue a course or courses as a 
result of a permanent school closure and did not receive credit, or 
lost training time, toward completion of the program of education being 
pursued at the time the school closed.
    S. 2253 also would amend section 3680(a) of title 38, U.S.C., 
authorizing VA to prescribe regulations allowing VA to continue a 
monthly housing allowance stipend under the Post-9/11 GI Bill during a 
temporary school closure or for a limited period following a permanent 
school closure. The housing allowance would be payable until the end of 
the term, quarter, or semester during which the school closure 
occurred, or 4 months after the date of the school closure, whichever 
is sooner.
    VA supports S. 2253, as it would allow VA to restore entitlement 
and continue monthly housing allowance stipend payments to Post-9/11 GI 
Bill beneficiaries impacted by school closures. While VA currently has 
authority to continue payments to beneficiaries when schools are 
temporarily closed due to an emergency or under an established policy 
based on an Executive Order of the President, there is no similar 
statutory authority upon which to continue benefit payments in the 
event of a permanent school closure. Furthermore, regardless of whether 
a school closure is temporary or permanent, there is no statutory 
authority that allows VA to restore entitlement for a term, quarter, or 
semester for which a beneficiary fails to receive credit toward program 
completion due to such a closure. VA would interpret the bill to apply 
only to a course or courses in which an individual was enrolled in FY 
2015, and all current or future enrollments. VA would also interpret 
the bill as currently written to provide that the portion of a course 
or courses that a beneficiary has participated in through the time of 
the school's closure (e.g., the portion of an incomplete college 
semester that has already passed at the time of a school closure) is 
not charged against the beneficiary's entitlement. We note that there 
appears to be a discrepancy between the new subsection (d)(2), which 
applies to an individual who meets the criteria of both (A) and (B) of 
that subsection, and the applicability provision in section 2(a)(2) of 
the bill, which describes new subsection (d) as applying if the 
criteria of either paragraph (A) or paragraph (B) of subsection (d)(2) 
are met.
    The closure of educational institutions while GI Bill beneficiaries 
are actively pursuing approved programs of education or training 
negatively impacts Veterans and eligible dependents in a number of 
ways. First, their monthly housing benefits are suddenly and 
unexpectedly discontinued in the middle of the term. In many cases, 
these payments are the primary (or sole) source of funds for paying for 
housing, food, utilities, and other basic necessities while attending 
school. Second, while VA can pay benefits for the term, quarter, or 
semester up to the time of the school's closure, the student is still 
charged entitlement for that period, even though he/she does not earn 
any credit toward program completion. In some instances, this could 
result in a beneficiary exhausting his/her entitlement before being 
able to complete his/her program at another institution.
    We will be pleased to provide for the record an estimate of the 
cost of enactment of this bill.
             draft bill regarding whistleblower complaints
    Section 2 of the draft bill would add a new subchapter to title 38, 
U.S.C. on whistleblower complaints. Section 731 would define a 
``whistleblower complaint'' to include not only a VA employee's 
disclosure of wrongdoing, but also a complaint made by a VA employee 
assisting another employee to disclose wrongdoing.
    Section 732 would establish a process for employees to file 
whistleblower complaints with their immediate supervisors; require 
supervisors to notify employees in writing, within 4 business days of 
receiving a complaint, whether there is a reasonable likelihood the 
disclosure meets the statutory definition of whistleblowing; permit 
employees to elevate complaints if the employee determines the action 
taken was inadequate; require the Secretary to notify whistleblowing 
employees of the opportunity to transfer to another position; and 
establish a Central Whistleblower Office, which is not a part of VA's 
Office of the General Counsel, that would be responsible for 
investigating all whistleblower complaints.
    Section 733 would require the Secretary to discipline any employee 
found to have committed an offense listed in subsection 733(c), with a 
first offense punishable by at least a 12-day suspension and a second 
offense punishable by removal, and would limit the notice and reply 
period associated with such discipline to not more than 5 days. Section 
733 would also limit the appeal rights of employees who are removed so 
that they would match the limited appeal rights of VA Senior Executives 
under 38 U.S.C. Sec. 713.
    Section 734 would require the Secretary to consider protection of 
whistleblowers when evaluating supervisors' performance, prohibit 
payment of an award to a supervisor within a year after the supervisor 
is found to have committed an offense listed in subsection 733(c), and 
require the Secretary to recoup an award paid to a supervisor for a 
period in which the supervisor committed such an offense.
    Section 735 would require the Secretary to coordinate with the 
Whistleblower Protection Ombudsman to provide annual training to all VA 
employees on whistleblower rights and protections, including the right 
to petition Congress regarding a whistleblower complaint. Section 736 
would require annual reports to Congress on the number and disposition 
of whistleblower complaints filed with VA supervisors and through other 
disclosure mechanisms, and would also require the Secretary to notify 
Congress of whistleblower complaints filed with the U.S. Office of 
Special Counsel (OSC).
    Section 3 of the draft bill would amend section 312 of title 38, 
U.S.C., to require that whenever the Inspector General, in carrying out 
the duties and responsibilities established under the Inspector General 
Act of 1978, issues a work product that makes a recommendation or 
otherwise suggests corrective action, the Inspector General shall 
submit the work product to: (1) the Secretary; (2) the Committee on 
Veterans' Affairs, the Committee on Homeland Security and Governmental 
Affairs, and the Committee on Appropriations of the Senate; (3) the 
Committee on Veterans' Affairs, the Committee on Oversight and 
Government Reform, and the Committee on Appropriations of the House of 
Representatives; (4) if the work product was initiated upon request by 
an individual or entity other than the Inspector General, that 
individual or entity; and (5) any Member of Congress upon request. 
Section 3 would also require that the Inspector General post the work 
product on the Inspector General's Internet Web site no later than 3 
days after the work product is submitted in final form to the 
Secretary.
    Section 4 of the draft bill would add to subchapter I of chapter 7 
of title 38, U.S.C., a new section 715 dealing with the treatment of 
congressional testimony by VA employees as official duty. Section 
715(a) would establish that a VA employee is performing official duty 
during the period with respect to which the employee is testifying in 
an official capacity in front of either chamber of Congress, a 
committee of either chamber of Congress, or a joint or select committee 
of Congress. Section 715(b) would require the Secretary to provide 
travel expenses to any VA employee performing official duty described 
in subsection (a).
    VA is absolutely committed to correcting deficiencies in its 
processes and programs and to ensuring fair treatment for 
whistleblowers who bring those deficiencies to light. The Secretary 
frequently shares his vision of ``sustainable accountability,'' which 
he describes as a workplace culture in which VA leaders provide the 
guidance and resources employees need to successfully serve Veterans, 
and employees freely and safely inform leaders when challenges hinder 
their ability to succeed. VA needs a work environment in which all 
participants--from front-line staff through lower-level supervisors to 
senior managers and top VA officials--feel safe sharing what they know, 
whether good or bad news, for the benefit of Veterans.
    In recent months, the Department has taken several important steps 
to improve how we address operational deficiencies, and to ensure that 
those who disclose such deficiencies are protected from retaliation. In 
the summer of 2014, the Secretary reorganized and assigned new 
leadership to VA's Office of the Medical Inspector, which reviews 
whistleblower disclosures related to VA health care operations. The 
Secretary also established the Office of Accountability Review to 
ensure leadership accountability for whistleblower retaliation and 
other serious misconduct. VA has also improved its collaboration with 
OSC, which is the independent office responsible for overseeing 
whistleblower disclosures and investigating whistleblower retaliation 
across the Federal Government. VA has negotiated with OSC an expedited 
process to speed corrective action for employees who have been subject 
to retaliation. That process is working well, and we are now beginning 
a collaborative effort with OSC's Director of Training and Outreach to 
create a robust, new training program to ensure that all VA supervisors 
understand their roles and responsibilities in protecting 
whistleblowers.
    While we appreciate the Committee's efforts to assist the 
Department in these endeavors, we believe the specific whistleblower 
disclosure and protection procedures provided by this bill would be 
unworkable. We also believe they are unnecessary in light of the long-
standing system of OSC authorities, remedies, and programs specifically 
created to address claims of improper retaliation in the workplace. We 
believe the current whistleblower protections are effective, and, as 
noted above, VA is working closely with OSC to ensure that the 
Department and its employees are gaining the maximum benefits from its 
remedies and protections.
    Turning to what we see as likely unintended consequences of the 
draft bill, the draft bill's strict notification requirements, short 
timelines, and severe penalties may create an adversarial relationship 
between supervisors and subordinates that would likely hinder, rather 
than foster, sustainable accountability. The draft bill would require 
the supervisor to notify the employee within 4 days after receiving a 
disclosure to indicate whether the supervisor has determined that there 
is a reasonable likelihood the disclosure meets the statutory criteria 
for whistleblowing. Four days would be inadequate in many cases for a 
supervisor to come to an informed conclusion that ``there is a 
reasonable likelihood that the complaint discloses a violation of any 
law, rule, or regulation, or gross mismanagement, gross waste of funds, 
abuse of authority, or substantial and specific and danger to public 
health and safety,'' in the terms of the draft bill. The fact that 
there are substantial ``downstream'' effects from these 4-day 
determinations will, in our view, create unpredictable and 
destabilizing effects in a workplace where collaboration and trust is 
paramount.
    The draft bill would also impose specific penalties on supervisors 
found to have engaged in retaliation and would significantly limit the 
time those supervisors have to defend themselves against the imposition 
of those penalties. While well-intentioned and designed to protect VA 
whistleblowers, we believe the cumulative effect of these provisions, 
in combination with the 4-day notification requirement, would not only 
raise a host of constitutional and other legal issues, but would also 
leave supervisors too fearful about the possible penalties for 
retaliation to effectively manage their employees. We also believe that 
imposing onerous new requirements on VA supervisors, alone in the 
Federal Government, would significantly impede the Secretary's efforts 
to recruit and retain the talented leaders needed to improve service to 
Veterans.
    From a legal perspective, our analysis suggests that portions of 
the draft bill present due process problems and conflicts with other 
laws. VA is unable to estimate the costs for the draft bill at this 
time.

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to questions you or other members may have.

    Chairman Isakson. We will begin a round of 5-minute 
questions from the Members of the Committee, and my first one 
would be, would you repeat the second-to-the-last sentence of 
your printed testimony you just said about this whistleblower 
protection.
    Mr. Coy. From a legal perspective, our analysis suggests 
that portions of the draft bill present due process problems 
and conflicts with other laws.
    Chairman Isakson. Due process for whom?
    Mr. Coy. I will let our General Counsel answer that, if I 
may, sir.
    Ms. Flanz. Thank you very much. Our concern is with the 
version of the bill that preceded the one that we received this 
afternoon, and it particularly focused on the 5-day limitation 
on the reply period for a supervisor who is subject to 
discipline for retaliation. Our concern based on our reading of 
the case law is that that could create a problem with the pre-
decisional due process, whereby courts expect to see what they 
call a meaningful opportunity to respond to charges and 
evidence before a decision is made on discipline.
    Having a hard and fast rule that in no case could that 
individual have more than 5 days, no matter how voluminous the 
evidence might be or other circumstances making it difficult to 
respond, we felt some concern that a 5-day limitation could 
create due process problems. The version of the bill that we 
reviewed today seems to address that concern.
    Chairman Isakson. How is that addressed?
    Ms. Flanz. I believe the wording calls for a 14-day reply 
period and did not have the restrictive language that suggested 
in no circumstance could that 14 days ever be enlarged to 
provide additional time for the individual to respond.
    Chairman Isakson. OK. I wanted to be sure I understood what 
you meant by damaging due process, because it seemed like to me 
it was offering due process to somebody who felt like they had 
an incident they wanted to report. You are saying the due 
process violation was the short length of time to respond, and 
the 14 days is preferable to the five.
    Ms. Flanz. Yes, sir.
    Chairman Isakson. OK. Thank you.
    On the Ernst-Hirono-Tillis-Boozman-Rounds legislation 
regarding telemedicine, I want to make sure I understood what 
you said, Mr. Coy. You said that you were generally supportive 
of the legislation, but were concerned about the overly 
burdensome reporting, is that correct?
    Mr. Coy. Yes, sir.
    Chairman Isakson. Would you be more specific about overly 
burdensome reporting.
    Mr. Coy. I will ask my colleague, Dr. McCarthy, to address 
that particular issue, if I may, sir.
    Dr. McCarthy. Thank you, sir. Yes. I would have to say, 
first of all, we wanted to thank very much Senator Ernst for 
sponsoring this legislation and for the support that is behind 
it, as well.
    What we are concerned about are some of the reporting 
requirements which we do not report at this time. We do report 
patient satisfaction data. We do report the number of veterans. 
We do not have wait times in terms of telehealth. Typically, a 
patient gets scheduled immediately. I do not want to say never, 
but typically, they are scheduled immediately in the system for 
a telehealth appointment.
    What we do not have are things like the satisfaction data 
of the telehealth provider. There are a few things like that 
that are added to the legislation that were not part of the 
version that is in the House. Other than that, we are extremely 
grateful for this bill to be before the Committee.
    Could I clarify one thing?
    Chairman Isakson. Sure.
    Dr. McCarthy. What is different about this bill for us is 
that it would allow a VA provider in any site, geographically 
separated from a patient in any site, to be able to provide 
that kind of care, and it is important for us because there are 
VA employees that would have the ability sometimes to cross the 
State lines. It is the VA contractors that do not. This bill 
spells out particularly the VA employees and the VA contractors 
and that is a very important provision for us.
    Chairman Isakson. I would assume, Mr. Coy and Dr. McCarthy, 
you would be willing to work with Senator Hirono and Senator 
Ernst to try and deal with that issue, to make it a better 
piece of legislation?
    Dr. McCarthy. Absolutely.
    Mr. Coy. Absolutely. We would be happy to.
    Dr. McCarthy. We would be very happy to.
    Chairman Isakson. For Senator Hirono's benefit and also 
Senator Ernst's, who has left now, we have had an inquiry from 
the AMA with regard to scope of practice issues with across 
State line medical services being offered by telemedicine, and 
we want to work with them to try and find out what concerns 
might exist there so we can work out any difficulty. For people 
like Jon Tester in Montana and for others who have sparse 
populations and large geographic territories, legislation like 
this is a godsend, I would suspect. Because of that, I think it 
answers a significant--it helps us to solve a significant 
problem. So, if you would agree to work on that, that would be 
appreciated, I am sure, by all.
    Mr. Coy. Happy to do that, Senator.
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Mr. Coy, would you agree that whistleblowers have been 
victims of retaliation in the VA?
    Mr. Coy. I do not have direct evidence of that, sir, but 
Ms. Flanz may.
    Ms. Flanz. Thank you for the question. We have been 
challenged through the course of the last year and change to 
address the volume of whistleblowing that is occurring in the 
VA. I think that those who study the science of quality 
improvement in health care will tell us that it is actually a 
good thing when people raise their hands and their voices to 
point out deficiencies in any policy or practice, and across a 
system as large as ours, we have been challenged to ensure that 
all supervisors understand the whistleblower protection rules 
and do the right thing.
    We have been gratified by the help that has been offered by 
the Members of this Committee, members of your staff, and our 
other partners and stakeholders, to include the Office of 
Special Counsel, in providing additional training----
    Senator Blumenthal. I do not mean to interrupt you. I 
apologize. But, is that a yes?
    Ms. Flanz. Yes, sir.
    Senator Blumenthal. OK. You understand the reason for this 
bill, and I assume that you have no due process objections to 
it at this point.
    Ms. Flanz. The concern that we had about the short reply 
period for supervisors is definitely addressed by the longer 
reply period.
    Senator Blumenthal. Your colleague, Mr. Coy, has called 
this bill unworkable. Do you agree?
    Ms. Flanz. Let me explain exactly what our most pressing 
concern is about the bill, and that is that although certainly 
the vast majority of whistleblowers, I believe, are courageous 
and are, as you stated, putting their own interests perhaps 
behind that of the public and the veterans, we do have a 
phenomenon--I do not think it is unique to the VA, I think it 
happens across the government and in private sector, as well--
where an employee who finds himself or herself in trouble, 
either due to conduct or performance issues and looks for an 
opportunity for protection.
    Our concern with the particularly severe penalties for 
supervisors in this bill is that our supervisors, who already 
perhaps feel challenged to deal with problem employees, may be 
even less inclined to do the right things around dealing with 
problem employees if they are concerned that an employee will 
invoke the protections of this bill, become a whistleblower, 
and then be able to create difficulty for that supervisor in 
terms of his or her continued employment and even the 
possibility of having to repay a past bonus. Our concern is 
with the extent to which it is calibrated.
    Senator Blumenthal. Presumably, that would be a very small 
minority of the potential whistleblowers, correct?
    Ms. Flanz. I hope so, but in terms of----
    Senator Blumenthal. By the way, a whistleblower may on 
occasion be involved in the problem that is the subject of the 
complaint. I know as a prosecutor----
    Ms. Flanz. Sure.
    Senator Blumenthal [continuing]. Our witnesses, as we told 
juries, were not always choirboys----
    Ms. Flanz. Absolutely true.
    Senator Blumenthal [continuing]. But the challenge here is 
to get at the root of the problem to protect the public 
interest, and the whistleblower is a means to protect veterans 
and the public interest.
    I would suggest to you that before you call this bill 
unworkable, you come back to us with specific changes. I am not 
guaranteeing that we will adopt them, but the spirit of the 
bill is, I would suggest respectfully, the spirit of the 
overwhelming number of hard working, honest VA employees who 
are really diligently working every day to help veterans, and 
whistleblowers are a means to root out wrongdoing among the 
very small faction--we are not looking at the majority--of 
employees that may be committing wrongdoing.
    I believe this bill is really important in light of the 
recent record, and if you have suggestions, we would be happy 
to consider them.
    Ms. Flanz. We share that interest, sir. Thank you.
    Senator Blumenthal. Thank you, Mr. Chairman. My time has 
expired and I thank you.
    Chairman Isakson. Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    I am very happy to be a supporter of S. 2170, the Veterans 
eHealth and Telemedicine Support Act. I really do believe that 
veterans should have very easy access to telemedicine services 
no matter where they live. In South Dakota, we appreciate what 
that means in terms of being able to access professionals from 
across State lines throughout the area.
    Mr. Coy, I appreciate your testimony regarding the bill. 
Would you be willing to work with us to try to work through the 
issues and concerns that you have expressed concerning the 
reporting requirements, and if we are able to come to an 
agreement on that, would you be willing to support the bill if 
we get those reporting requirements amended?
    Mr. Coy. Senator, we are always happy to work with the 
Committee and we would be happy to see where we can make 
adjustments in the bill and make those recommendations to you 
and the Committee.
    Senator Rounds. If we are able to work through those 
specific issues, you would find the remaining portion of the 
bill as being helpful in providing or responding for services 
in those rural areas?
    Mr. Coy. I will let my colleague, Dr. McCarthy, go out on 
that note.
    Dr. McCarthy. Thank you. Sir, we would be thrilled to have 
this bill. You just need to know there are multiple versions of 
this bill we have submitted and there is a version in the 
House, as well. This bill is something we are very grateful 
that it is there. It is just the details that were added, the 
differences between the House and the Senate versions, that are 
really just the only problem for us right now. It is minor. It 
truly is minor. We are thrilled with the bill.
    Senator Rounds. I look forward to working with you along 
with the other sponsors on the bill----
    Mr. Coy. Absolutely.
    Senator Rounds [continuing]. Seeing that it be put into 
law.
    I do have a question based upon your testimony, Mr. Coy, 
with regard to the costs involved. I recognize that the prime 
sponsor and Senator Tester is here and will be wishing to 
address it, as well. I am curious. You have identified the cost 
as being one of the concerns with regard to the Grown Our Own 
Directive: Physician Assistant Employment and Education Act of 
2015. It seems to me that there were two identified items.
    First of all, you indicated in your written testimony that 
the cost was about $2.7 to $2.8 million for the pilot project 
in terms of administrative costs, I believe. Then we are 
looking at somewhere around $50-some million in terms of costs 
over a 5-year period of time for the actual cost of the 
program, $56 million over a 5-year period of time to add 450 
awards for new PAs coming into the system.
    Mr. Coy. Right.
    Senator Rounds. Do we have a shortage of PAs right now 
within the system itself?
    Mr. Coy. I do not have that specific information, but I am 
sure Dr. McCarthy does.
    Dr. McCarthy. Thank you, sir. We have identified the five 
professions that have the highest need in VA and PAs are within 
the top five--physicians, nurses, physician assistants, so 
forth. We do have a need to hire more PAs. Our PA contingent is 
a group that is one-third eligible for retirement at this 
point, and within--by 2021, about 47 percent of our PA 
workforce will be eligible to retire.
    We see PAs as being able to help us with the access 
struggles that we face. I will give you an example for how 
Houston----
    Senator Rounds. If I could, and I----
    Dr. McCarthy. I am sorry.
    Senator Rounds. My time is limited, but I think what you 
are saying is, yes, you do have a need for more PAs----
    Dr. McCarthy. Absolutely.
    Senator Rounds [continuing]. And you are going to see a 
larger need coming up.
    Dr. McCarthy. Yes.
    Senator Rounds. I do not believe that I am a sponsor but it 
looks to me like a good piece of legislation. What you are 
saying is that you have the need. You are going to end up 
paying PAs to come to work for you. Was the fact that you are 
going to be paying PAs when they come to work for you, has that 
cost been taken into account when you say that the total cost 
of this program over a 5-year period of time is $56 million?
    Dr. McCarthy. Sir, there are three parts to this bill. The 
first part is the scholarship program, the second part is the 
administration of the PA program in general, and the third part 
is the adjustment of salaries of PAs to bring them up to the 
right speed. The cost for the scholarships is separate. They 
are kind of spelled out differently.
    What we are saying is that this is of significant cost. The 
scholarships themselves are not things that would normally be 
in our budget. But, we definitely do need PAs. At this point, 
our salary scale for the starting PAs is lower and we end up 
hiring more PAs at the higher end. The third part of the bill 
adjusts the salary and we would potentially be more competitive 
to hire----
    Senator Rounds. My time has expired. Mr. Chairman, we are 
looking here basically at less than $60 million, and I know 
that in D.C., we should be talking about millions being a lot 
of money, but $56 to $60 million total over a 5-year period of 
time for 450 new applicants coming in as PAs, you take that 
over a 5-year period of time, you are talking perhaps $12 
million a year. You are all aware, you paid out bonuses to 
individuals over $140 million in 1 year.
    It seems to me that if we have a real serious issue here 
with regard to PAs and providing services at the very basic 
levels, it seems that, if nothing else, we should be able to 
find a way to work through the issue involved in this if that 
is really where our focus is at, is providing those basic 
services, which clearly Dr. McCarthy indicates is of real 
concern to the Department.
    Thank you, and Mr. Chairman, if they care to respond, my 
time is now your time, sir, so----
    Chairman Isakson. Well, I think Dr. McCarthy wants to say 
something. I will give her time to respond.
    Dr. McCarthy. Right. I basically wanted to just say, sir, 
we definitely want to support this bill. In particular, the 
part of the bill in terms of the scholarships is really 
important to us. I think it is really important to veterans. It 
is important to people that are leaving the military that have 
some medical skills. They are going to have to have a certain 
amount of training before they can even apply to go to PA 
school. We would strongly support the ability of them to 
participate in a program like this. I think the source of the 
funding is the issue.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    Mr. Coy, how does S. 2170 differ from the telehealth 
services already available in the VA?
    Mr. Coy. Dr. McCarthy, can you handle that?
    Senator Hirono. Briefly.
    Dr. McCarthy. Yes. I am a telehealth provider in the VA 
from central office. I provide telehealth care to a small 
number of patients. I can tell you firsthand, there are some 
wonderful data on the kinds of telehealth that we do right now.
    What, for me, the big difference in this bill is, this 
gives VA what DOD has in terms of authority to cross State 
lines with the telehealth care. At this point, I do want to 
clarify a little bit about what Senator Ernst said. Our Office 
of General Counsel has reviewed and re-reviewed and our 
providers are able to provide care across State lines if they 
are VA employees. The issue is contractors, and contractors are 
important as part of Choice. They are important when we have 
contractors that are able to provide telemedicine care. It is 
the contractors--for instance, if we wanted to have someone 
contracting to provide services nationally, they might have to 
be licensed in every single State. What this bill allows is the 
same privilege that a VA provider has, to be able to provide 
care but to have one license.
    Senator Hirono. Right now, the telehealth services that are 
provided generally, it is within the State, within the State 
that the provider is licensed, is that kind of how it works?
    Dr. McCarthy. That is how we started, but that is not how 
it has continued. We have teleradiology happening in Hawaii, 
Palo Alto, and Durham. We have a telemental health center up in 
Connecticut. We have various sites. We have telegenomics going 
on in Salt Lake City. In addition, we have, for instance, when 
El Paso had a need for a psychiatrist, El Paso has providers 
who are based in another State that provide that mental health 
care because they cannot recruit in El Paso.
    Senator Hirono. The providers in another State have to do 
it out of a VA facility, was that one of the----
    Dr. McCarthy. Initially, that was the thinking, that they 
had to be based at a VA facility, either the patient or the 
provider was the next round. Then General Counsel reviewed, and 
it is looking like the physician or the provider, as long as 
they are licensed and they are a full-time--or, they are a VA 
provider, VA employee, that that has changed at this point.
    Senator Hirono. OK. For the employees, they can do that, 
but this bill really allows for contractors.
    Dr. McCarthy. Yes.
    Senator Hirono. Is the VA able to implement the provisions 
of this bill upon enactment? Do you already have whatever is 
set up to implement this expansion of services?
    Dr. McCarthy. Yes, ma'am. I could give you the statistics. 
We had 677,000 veterans----
    Senator Hirono. Yes.
    Dr. McCarthy [continuing]. Receive telehealth care last 
year. We are very excited about our telehealth program.
    Senator Hirono. A veteran in Hawaii, for example, because 
this really helps the veterans in rural areas----
    Dr. McCarthy. Yes.
    Senator Hirono [continuing]. Where provider availability is 
an issue, distance would be an issue. A veteran in Hawaii wants 
to have access to a provider in Illinois or Virginia, and it 
would be made very clear how that veteran would be able to 
access that provider's services.
    Dr. McCarthy. Yes. Yes----
    Senator Hirono. You would be able to set it up very 
quickly.
    Dr. McCarthy. This would help us, also. I know there is 
testimony submitted by State licensing boards, but this would 
clarify for us. It would be helpful for VA employees and for 
contractors to have this just very blatant in a bill like this.
    Senator Hirono. Mr. Chairman, I understand that the AMA has 
some concerns about this bill, the scope of practice, et 
cetera, and I am hopeful that we can work out those kinds of 
differences, because I am very familiar with scope of practice 
issues, having dealt with so many of those when I used to chair 
the appropriate committee in the State legislature, where, as 
you know, most licensing laws are passed. I am hopeful that we 
will be able to work out whatever issues there are with the 
AMA, and I am pretty sure that we can work out whatever 
reporting requirements that you all raise as a concern.
    Dr. McCarthy. Thank you.
    Chairman Isakson. That is why I mentioned that I think they 
can work them out, and I wanted to make it part of the record 
today so we can work toward solving whatever problem AMA might 
have.
    Senator Hirono. Yes. Having worked on scope of practice 
issues, we may not be able to resolve all of the concerns that 
AMA has, but----
    Chairman Isakson. Maybe not.
    Senator Hirono [continuing]. I would say that we should 
move forward with this bill.
    Chairman Isakson. Well, I absolutely agree. Absolutely 
agree.
    Senator Hirono. Thank you.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    I want to ask a couple of questions, Mr. Coy, about 
Vocational Rehabilitation and Employment services, VR&E. We get 
reports that there has been an inconsistency of application, if 
you will, of counselors. Some counselors have even--the words 
that were used that we have heard from some students--have 
ostracized and stigmatized veterans who have used this benefit 
for education. I guess my questions are, I want you to make 
sense of that, first of all.
    My question is this. First of all, I think there is some 
inconsistency in how counselors are providing services under 
VR&E. Second, I think that, typically, we are hearing, 
particularly from Iraq and Afghanistan veterans, that their 
members are not even aware of this benefit, and it really goes 
back long before this Secretary, even long before General 
Shinseki, that there was not very good communication between 
DOD and VA. I think you can almost make the case that the DOD 
did not really care that much about what happened to these men 
and women, if I can say that, when they returned Stateside. 
They did not really plug them in well to health care and 
education benefits and reintegration into the community. In 
States like mine, where you have county veteran service 
organizations, that they did not even plug them into those 
organizations and they did not even know which soldiers had 
left the Army or Marines had left and were left in Coshocton or 
Cleveland, OH.
    If you would kind of clear up for me any inconsistencies 
you have seen that have been reported to you in the way that 
your counselors are carrying out their job, and second, maybe 
more importantly, how does the VA work more closely with DOD so 
that soon-to-become veterans, so that the men and women who are 
serving, as they leave the military, understand better that 
VR&E is available and how we increase participation.
    Mr. Coy. Absolutely. I would love to clarify that, Senator. 
On the first, the inconsistencies, we have counselors at 56 
regional offices and a whole bunch of outreach offices, as 
well, in round numbers, about a thousand counselors. As you 
know, VRE is a case management system. It is a one-on-one with 
the veteran and the counselor. We work and deal with 
inconsistencies, one counselor believing they have a 
requirement to do one thing and across the country it very well 
could be something different. It is an interpretation.
    Quite frankly, when you look at the VRE, it is both an 
eligibility and an entitlement requirement. you are eligible 
if, for example, you have a 10-percent service-connected 
disability but you have a serious employment handicap, or a 20 
percent service-connected disability and just an employment 
handicap. Making that determination is sometimes an individual 
case and we are working very hard to try and make sure that we 
lessen those inconsistencies. The employment plan from one 
veteran on one side of the country to another, they also vary, 
as well.
    One of the other things, to answer your question about DOD 
and how do we reach these veterans, as I am sure you know, we 
have got an enhanced TAP program, Transition Assistance 
Program, of which is now mandatory for every servicemember to 
go to as they get out, and we explain all of their VA benefits 
in that Transition Assistance Program. We are also putting 
those kinds of things online, as well.
    We also have VRE counselors, about 170-plus VRE counselors 
at 71 different military installations across the country, so 
they can, in fact, provide those initial services as they go 
out. We are doing that through TAP IDES. We also have 94 
campuses that participate in our VRE program--our vocational 
rehabilitation Vets Success on Campus program. We are trying to 
get out into the community, as well, particularly where those 
younger veterans are in their schools.
    Senator Brown. We have asked from MILCON what the right 
ratio--do we have enough counselors, considering the number of 
people coming home? Give us a brief assessment of sort of where 
we are in that way.
    Mr. Coy. We have seen our caseload per counselor grow from 
about 129, average, to now about 139, about an 8-percent growth 
in average caseload. We have seen a 17 percent increase in our 
actual clients, the people who are applying and have been 
admitted into the program.
    What we are seeing from that is the good news is the 
backlog is going down. As the backlog goes down, and the 
backlog is for disability compensation, as that backlog goes 
down, our volume of new applicants or potential new applicants 
grows.
    Senator Brown. What is a typical interface between a 
counselor and a veteran? How long? How many times, typically, 
do they counsel any single veteran? What are your averages or a 
scenario you could paint quickly?
    Mr. Coy. I do not know that I have an average that I am 
prepared to give you right now, but the initial consultation 
where we determine that you are not only eligible for the 
program but that you want to partake in the program, that is a 
face-to-face. Then after that, depending upon your program--so, 
for example, you could be entered into a program where you are 
going to an institution of higher learning and so you are sort 
of checking in with your counselor on a frequent basis, but not 
a lot. You are checking----
    Senator Brown. Not necessarily face-to-face.
    Mr. Coy. Not always. One of the good things is we are also 
developing a telecounseling program, which we think is going to 
be a real game changer in terms of making people come in and go 
to the parking lot and park their car and sit in and come in 
and sit down and go to those sessions. We are working through 
those things, as well, Senator.
    Senator Brown. That is a great service, Mr. Coy. Thank you.
    Chairman Isakson. Thank you, Senator Brown.
    Before I go to Senator Boozman, I am going to excuse myself 
for about 30 minutes to make a report at a conference committee 
and I am going to turn the gavel over to Senator Moran until I 
come back, and I will be back in time.
    With that said, Senator Boozman.
    Senator Moran [presiding]. Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Coy, in regard to S. 2170 that spans telemedicine, do 
you have any recommendations for the Committee on other ways we 
can measure the impact of implementing this type of legislation 
other than wait times?
    Mr. Coy. I will certainly ask Dr. McCarthy to see if she 
can provide that response.
    Dr. McCarthy. Thank you, sir. When we look at the 
effectiveness of telemedicine, we look at not just access, but 
we also look, for instance, at the impact of other kinds of 
telemedicine. We provide home-based telehealth services, how it 
decreases the bed days of care and the length of stay if the 
patients need to be readmitted, and it actually decreases 
readmission rates. It does the same when we provide care in the 
home to veterans who have been recently discharged from 
facilities with psychiatric conditions. We have a decreased 
readmission rate. We have decreased lengths of stay when they 
return. Those are very veteran-centric ways that we can measure 
that kind of impact.
    Senator Boozman. Very good.
    Mr. Coy, you mentioned that the Physician Assistant 
Employment and Education Act would require VA to partner with 
institutions accredited by the Accreditation Review Commission. 
Can you tell us how many institutions currently meet this 
requirement? Has the VA ever conducted any outreach to these 
institutions or shared the opportunity to provide health care 
services to our veterans? If so, were those efforts well 
received?
    Mr. Coy. I would again ask Dr. McCarthy if she would 
provide a good response for that.
    Dr. McCarthy. I am speaking from memory. I believe there 
are about 191 schools that train physician assistants. We have 
affiliation agreements with many of them. We train students 
right now. We actually pay stipends for some of those students 
and we have some partnerships with them for residency programs 
for physicians. We have reached out to them.
    Senator Boozman. Dr. McCarthy, then, in regards to S. 2134, 
the Grow Our Own Directive: Physician Assistant Employment and 
Education Act of 2015, you all state that the VA supports the 
concept but is concerned about the cost.
    Dr. McCarthy. Yes, sir.
    Senator Boozman. The estimated cost over 10 years, $374 
million. In this bill, VA is essentially providing scholarships 
to former servicemembers who served as medics, and again, were 
corpsmen and would like to become physician assistants. Why do 
they not just use the G.I. Bill in furtherance of that 
objective? I mean, why should the VA take money away from other 
priorities to provide scholarships to these individuals?
    Dr. McCarthy. Just so you are aware, many of the corpsmen 
are not folks who have Bachelor's degrees, and a Bachelor 
degree is a prerequisite for a physician assistant program. 
There are courses similar to pre-med type courses--chemistry, 
biochemistry, and anatomy and physiology--that are required for 
PA school. Typically, the corpsmen may need to use their G.I. 
Bill benefits in order to complete the prerequisites. Some do 
not have an Associate's degree. Typically, the Air Force corps 
medics do. What we are talking about is getting folks to their 
Bachelor's degree and this would be over and above.
    Senator Boozman. You are saying they would use up their 
G.I. Bill in order to do that----
    Dr. McCarthy. Some may. I am not the expert on the G.I. 
Bill benefits, but that is the concern, sir.
    Senator Boozman. Right. Certainly, that should be factored 
in, that there is a possibility of the G.I. Bill being used 
toward that.
    Dr. McCarthy. Right, but----
    Senator Boozman. So, that would reduce the cost.
    Dr. McCarthy [continuing]. But it would be earlier. Yes.
    Senator Boozman. OK. Very good. That is really all I have.
    Thank you, Mr. Chairman.
    Senator Moran. The Senator from Montana, Senator Tester.

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman, and thank you all 
for being here.
    I am going to focus for right now on S. 2134, and using 
some of your own testimony, which actually was pretty 
compelling, 47 percent of your PAs currently employed will be 
eligible for retirement by 2021. I was actually going to get 
into the methodology of how you came up with the figures, but I 
will not. I guess I will make it much more simple than that. I 
think we both agree you need more medical professionals and PAs 
are a big part of that. They are in, as you said, your top five 
needs. Have you got a cheaper way of doing it?
    Dr. McCarthy. I do not--I would not know, sir, what would 
be a cheaper way to do it. I have to tell you that we are very 
enthusiastic about this bill. We think it is a really wonderful 
idea for the veterans who would be receiving care. For the 
veterans who are leaving the military, it is a wonderful 
opportunity to transition and build their skills and have them 
serve veterans, and this----
    Senator Tester. OK. I agree with that and I appreciate the 
fact that you are concerned about the costs. I think that is a 
good thing. I also think that we need to make sure that if we 
do not do this, we need to make sure the costs are accurate, 
first of all, going in, so we go in with our eyes wide open. If 
we say no to this, is it going to be replaced with something 
that is more costly, and that is really the point here, other 
than all the good points you just brought up about it, about 
how it can impact our veterans in a very positive way.
    I am not going to get into the figures, because, for 
instance, in your testimony, it talks about--let me get the 
page up here--it talks about S. 2134 would require the 
Secretary to select no less than 250 eligible individuals. Can 
I ask, how did we come up with 450? Where did that come from?
    Dr. McCarthy. OK. I am sorry. This was provided by 
workforce management, physician assistant services, and so 
forth. What happens is the first year you would have--PA 
programs average--are between 24 and 36 months, but the average 
is 27 months. There was a calculation done that was based on--
--
    Senator Tester. Twenty-seven months.
    Dr. McCarthy. Yes. What you would do is, if you have 50 
people that start 1 year, the next year they would typically be 
second years and you would start 50 new.
    Senator Tester. Right.
    Dr. McCarthy. So, after 5 years, you would have 450.
    Senator Tester. The seven allows for the additional----
    Dr. McCarthy. Yes.
    Senator Tester. OK. That is fine.
    Let me talk about telemedicine. The bottom line here, I 
think, as we move forward on this Committee, and I know the 
Chairman is committed to this stuff, too, we just need to 
figure out how we give you guys the resources to be able to 
provide the benefits that veterans have earned. I do not need 
to give you that speech. You guys know it and you should know 
it every day. In the meantime, we should be doing it in the 
most cost effective way possible, and if we can help veterans 
out in the process, it is a win-win deal. OK.
    I want to talk about telemedicine for a second because the 
previous Chairman was absolutely correct. Senator Isakson was 
absolutely correct when he said telemedicine has some amazing 
impacts on rural areas. Can you tell me if the Department is 
doing anything to expand telemedicine capabilities in the homes 
of patients?
    Dr. McCarthy. Absolutely, and we are. Let me start with 
telemental health, which is one I know more. Last year, we had 
122,000 veterans that were treated with telemental health in 
the home, and this is a 13 percent increase over the prior 
year. If we looked at visits----
    Senator Tester. You said 13 percent or 30 percent?
    Dr. McCarthy. Thirteen.
    Senator Tester. OK.
    Dr. McCarthy. Yes.
    Senator Tester. That is still good.
    Dr. McCarthy. It is. We are looking at the technologies, as 
well. I am not the technology expert as far as this goes, but 
it used to be that there were just a limited number of ways of 
doing it. People talk about Jabber and other kinds. I can get 
more information about that, if you like. What we are trying to 
do is use whatever technologies are available. We have kind of 
worked with our information security people to free up some of 
those possibilities.
    Senator Tester. OK. That is good.
    I am going to close very, very quickly. I have been out 
front in getting the VA the dollars they need to be effective 
because you are getting slammed by Vietnam veterans getting 
older and a war that has been going on for 15 years in the 
Middle East. All that said, this budget is very--what do I want 
to say, the right word--it is very kind to the VA. We went over 
the President's budget by a solid sum of money. I advocated 
that to hold you and the people that you work with accountable 
for the health care that you give your veterans, and I will be 
doing that, by the way.
    Dr. McCarthy. Mm-hmm.
    Senator Boozman. The point is what Senator Rounds talked 
about. The point I want to get to is his point, and that is 
that sometimes we spend some money in some pretty goofy areas, 
OK, that really we should be paying attention to. Sometimes it 
is more than what we really--where we really need to be 
spending the money to get the health care professionals on the 
ground, whether that is MDs, nurses, PAs, nurse practitioners, 
all that stuff.
    What I would say is, as we move forward, if these figures 
are correct and if it actually costs that much, what I would 
say is we need to look at other line items within your budget 
and figure out where we can get that money.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator.
    The Senator from North Carolina, Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair.
    I want to start out by thanking Ranking Member Blumenthal 
and Senator Brown for some opportunities to work with you all 
on various policies here and appreciate you all's leadership in 
bringing this freshman along.
    I know that Senator Brown has some questions about S. 2106, 
so I am going to jump down to S. 2170 and, Mr. Coy, your 
testimony. You had indicated that you support Section 2(a). You 
do not yet know what the costs are going to be. Do you have any 
rough order of magnitude costs for what it is going to take to 
implement 2(a)?
    Mr. Coy. I believe Dr. McCarthy probably has those specific 
numbers.
    Dr. McCarthy. I am sorry, 2170?
    Senator Tillis. S. 2170.
    Dr. McCarthy. Is that the telehealth or the PA bill? I am 
sorry. S. 2170 is the telehealth bill, sir. Actually, that is 
cost neutral.
    Senator Tillis. It is cost neutral?
    Dr. McCarthy. Mm-hmm.
    Senator Tillis. OK. So there is no surprise in terms of the 
implementation of Section 2(a).
    Dr. McCarthy. 2(a)--that does not include the reporting 
requirement, correct?
    Senator Tillis. I am about to get to that one----
    Dr. McCarthy. OK.
    Senator Tillis [continuing]. Because I know you partially 
support 2(c), the $17,000 implementation.
    Dr. McCarthy. Right.
    Senator Tillis. I do not think you have estimated the other 
one. I wanted to use this as an opportunity to try and figure 
out how we begin to weave what I think are good proposals, the 
proposals that we are discussing today, into an overall 
transformation strategy to know that it may not be--I think if 
you are talking about the analytics and reporting, you are not 
really opposed to the value of the data that would be produced. 
You are concerned with the cost of it, and the systematic 
capturing and reporting without a systematic approach could be 
very costly and very distracted.
    I would be interested to know what it would cost only 
because another bill that Senator Brown and I cosponsored 
really highlighted the sort of issue that we have with the cost 
of implementing good ideas. We had this one bill where, over 10 
years, the total cost of the benefit by conveying benefits to 
surviving family members of a combat veteran--it was a miss in 
a prior bill--was $6.2 million over 10 years. But the cost to 
implement the administration to provide those benefits, the 
system changes, et cetera, was $5.1 million over the first 
year.
    I think what we need to do when your concern has less to do 
with the policy and more to do with the cost and the timing of 
it, we need to start doing a better job of putting in the 
context of other changes that may over time make those costs 
less because they are a part of a rationalized systems and 
process infrastructure where these good ideas do not have huge 
price tags which may come at the expense of other good ideas 
that have come before them and been appropriated.
    I think back to the Chair. I was going to see if we could 
actually have a Committee hearing on the transformation and 
then maybe use as a few case examples some of these good ideas 
that just right now, with the hairball of the systems and 
processes that we are dealing with, make it very, very 
difficult or not cost effective to implement. I think we need 
to start describing that you are not opposed to the policy. You 
are concerned with the costs and the distraction based on the 
current environment that you have to operate within, the 30-
year-old scheduling systems and information systems that need 
to be modernized. I would be happy for you all to respond to 
that if you disagree.
    Dr. McCarthy. I do not disagree. I do want to tell you one 
bright light. We do have a new telehealth scheduling system, 
which is actually an off-the-shelf product, which allows us to 
schedule the provider, the room, whatever equipment the 
provider needs, the patient, the room, whatever support staff 
is needed and the equipment there, with one click, which----
    Senator Tillis. That helps----
    Dr. McCarthy. Yes.
    Senator Tillis [continuing]. That is because telehealth is 
relatively new.
    Dr. McCarthy. Yes. Yes. I just want to say that that is the 
kind of thing, I hear what you are saying. Our new scheduling 
package is supposed to marry up with that very well, so we are 
excited about that. I hear what you are saying.
    Senator Tillis. I will bring this back to the Secretary in 
the ongoing discussions Senator Tester and I are having with 
them. It would be really good to take some of these things--
there are probably people in the audience that are supportive, 
too--but explain why, if all of the sudden this becomes the new 
priority, and if you heed the advice of the Senator to say, 
find the funding from within current resources, then what do we 
lose in the process, and to what extent can we accelerate it to 
get a lot more. I think a lot of that is going to be dependent 
upon doing a better job with our organizational transformation. 
Thank you.
    Dr. McCarthy. Thank you.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Coy, thank you very much for being here. 
I think I have just a few short questions. Perhaps these get 
directed to Dr. McCarthy, but how does the VA view nurse 
practitioners, in a sense, versus physician assistants? How are 
they utilized? Is there one that fills a different role than 
the other?
    Dr. McCarthy. In some situations, they fill similar roles, 
but nurse practitioners, we talk about full practice authority 
in terms of being able to themselves work in States that allow 
it without supervising practitioners. Physician assistants 
typically work with physicians, although they are functioning 
not in the same physical space necessarily with the physician. 
They are not exactly interchangeable, but they are both really 
important to our health care.
    Senator Moran. Are there different scopes of practice State 
by State regarding the two professions?
    Dr. McCarthy. So----
    Senator Moran. Let me ask it this way. In all States, does 
a physician assistant need more direct supervision than a nurse 
practitioner?
    Dr. McCarthy. It is hard to say ``all.'' Let me start with 
nurse practitioners. Some States do allow nurse practitioners 
full practice authority, no supervising practitioner, and other 
States require supervision, actually. Yet, physician assistants 
typically have a collaborating provider and often do not 
function independently. I cannot say for sure every State.
    Senator Moran. It was an unfair question when I said 
``all.''
    Dr. McCarthy. OK.
    Senator Moran. Thank you for your answer.
    One of the areas that I think we are most insufficient, 
lacking the greatest number of professionals within the VA, is 
mental health services, and how does a physician assistant, or 
does a physician assistant help fill that need?
    Dr. McCarthy. Absolutely. I can give you a personal 
experience. I was an inpatient psychiatrist for a long time and 
I worked very closely with a physician assistant. In an 
inpatient setting, a patient may have medical needs as well as 
psychiatric needs and it was very helpful for me to have a 
physician assistant who could provide medical care for the 
patient in a way that I might not have had the same ease of 
doing, if you know what I am saying.
    I can tell you, also, that physician assistants do see 
outpatients. They do run mental health clinics. They, for 
instance, work in our clozapine clinics for, in particular, our 
seriously mentally ill individuals who need to be seen quite 
frequently and have careful monitoring of their blood tests and 
so forth because of side effects. Some are seeing patients 
independently in the mental health outpatient setting. Many 
work on inpatient settings. Some also work in our emergency 
rooms.
    Senator Moran. In the recruitment effort at the VA, how do 
you determine whether you focus recruitment of a physician 
assistant or a physician, how do you prioritize what 
professional you most pursue?
    Dr. McCarthy. I think we typically would look at needs and 
who could best meet that need. In primary care, for instance, 
we would certainly want the right mix of individuals on teams. 
We would have physicians who have panel sizes of 1,200 
patients, whereas PAs and NPs might have panel sizes of 900 
patients.
    Senator Moran. Let me ask the question this way. In the 
absence of a physician, does it hinder your ability to pursue 
hiring a physician assistant? If we have a shortage of 
physicians within the VA, does that limit the number of PAs 
that you would be able to utilize in providing services to 
veterans?
    Dr. McCarthy. That is not a black-and-white kind of issue, 
because we can use telemedicine, for instance, for 
collaborating practitioners for PAs.
    Senator Moran. There is a way to make certain that the 
supervision required by State law is available, and it in some 
instances may be by telemedicine?
    Dr. McCarthy. Correct.
    Senator Moran. OK. Let me ask a question about 
telemedicine. Does telemedicine save the VA money?
    Dr. McCarthy. You know, that is an interesting question. If 
you talk about in terms of being able to provide care that 
might be more costly in another setting, yes, it saves. If you 
look at the cost for the veterans to travel where we reimburse 
travel costs, I think the average figure is about $20 per visit 
that is saved. If you look at the hospitalizations that are 
avoided because of the home telehealth, we are talking an 
average of, adding in all costs, we are talking $2,000 a year. 
There is a lot of savings that come from telemedicine.
    Senator Moran. You know, editorial comment. It has been 
surprising to me as I have visited with patients in and outside 
of the VA who utilize telemedicine how much they appreciate 
telemedicine. I always assumed that it would be considered kind 
of the secondary, the last resort, in a sense. Patients in my 
conversations do not see telemedicine as something less than 
the service they are entitled to or want. Is that accurate?
    Dr. McCarthy. Yes. I have been a psychiatrist in VA for 
over 20 years, and some of the patients I see now, and I see a 
limited number, granted, from my office, are patients I have 
seen for 16 or 17 years, many veterans who have PTSD from their 
experiences in Vietnam. They are so grateful to be able to see 
someone that they have seen over time without having to tell 
their story again.
    They also feel very much like they have your undivided 
attention. When you give satisfaction surveys, they talk about 
the fact that they have you kind of on the screen--it is kind 
of embarrassing to say that--but they have the full attention 
of the provider. It is so much like Skype and FaceTime that 
people do with relatives, you know.
    Senator Moran. I know less about that, but----
    [Laughter.]
    Dr. McCarthy. For mental health, it is a lot like that.
    Senator Moran. But----
    Dr. McCarthy. Now, the other services, I can speak to the 
others in terms of there is additional equipment. The patients 
love the fact that they do not have to travel. Typically, we 
started by doing it more in the Community-Based Outpatient 
Clinics (CBOCs) and having the kind of the specialists in the 
main clinic. There is a decreased ``no show'' rate, for 
instance, and that saves us money. The patient appreciates not 
having to travel. They still get the kind of interpersonal 
contact that they feel they need. It saves a lot of money and 
also the satisfaction is quite high.
    Senator Moran. Thank you. My experience has been that 
people develop a very personal relationship with the person 
that they see on a screen, sometimes more so than the physician 
who may change on them when they show up at the VA in person.
    Senator Blumenthal asked for the opportunity to ask another 
couple of questions, and I recognize the Senator.
    Senator Blumenthal. Thank you very much.
    Let me ask whoever wants to respond, on the Telemedicine 
Support Act, I gather you are satisfied that you can screen and 
supervise the contractors who may be involved in this program?
    Dr. McCarthy. Yes, sir. We would--when contractors are 
employed by VA, we would credential them and have the same kind 
of oversight as----
    Senator Blumenthal. Whether or not they are in Federal 
facilities?
    Dr. McCarthy. Right.
    Senator Blumenthal. You are satisfied, as well, that you 
can protect their privacy?
    Dr. McCarthy. Umm----
    Senator Blumenthal. As you do now with all your patients.
    Dr. McCarthy. Yes. Let me back up to what you said about 
whether or not they are in Federal facilities. For instance, 
so, I am in a VA hospital and I have a contract with a 
physician to provide services through Choice. The supervision 
is not necessarily at the same level as if I were to have a 
contract for someone to come into my facility and provide that 
care. There is a different kind of supervision. We do engage in 
a sort of credentialing----
    Senator Blumenthal. You can oversee and supervise their 
credentials and the quality of care? This is not meant to be a 
trick question.
    Dr. McCarthy. Right. We are in the middle of working out 
the Choice requirements as a result of the second version of 
Choice that passed, and we are developing standards for 
qualified providers. We are looking at how we will supervise. 
We have not got all the details worked out for the Choice 
providers who might be providing things that the older form of 
Choice is not able to provide, but we are getting there.
    Senator Blumenthal. Thank you. I had asked the question as 
to privacy and I am assuming that you can safeguard privacy, as 
well?
    Dr. McCarthy. Yes. Yes.
    Senator Blumenthal. Thank you. With that understanding, I 
would like to be added as a cosponsor of the bill.
    I have just a couple of other questions regarding the 
whistleblower bill. I guess I will ask you, Ms. Flanz. I 
noticed that Mr. Coy's statement says that you believe that you 
have already, in effect, dealt with this problem sufficiently.
    Ms. Flanz. It has been an ongoing challenge and it 
continues to be a challenge. We are dealing with it, as I said 
before, with considerable assistance from the Office of Special 
Counsel. As I said, the number of whistleblowers continues to 
be quite high. I am not going to sit here and tell you we have 
got it all under control, but we have made it a priority.
    Senator Blumenthal. How many supervisors have been 
disciplined or demoted because of retaliation or reprisal 
against whistleblowers?
    Ms. Flanz. We are working to collect that number 
systemwide. We do not have a centralized H.R. system that 
collects exactly that data, but we do have a couple of 
oversight requests for exactly that data. We are working to 
collect it now.
    Senator Blumenthal. Would you provide it to this Committee, 
please.
    Ms. Flanz. Yes, sir.
    Senator Blumenthal. Could you provide the specific cases of 
discipline or demotion or discharge?
    Ms. Flanz. I believe that is precisely what we have been 
asked to do, to collect, and absolutely.
    Senator Blumenthal. I am asking not just for the numbers, 
but for the specific cases.
    Ms. Flanz. I understand.
    Senator Blumenthal. OK. Thank you.
    Finally, let me just say, I am very hopeful that the VA 
will support this bill. I think the failure to do so will send 
a message unnecessarily and unfortunately about its commitment 
to protect whistleblowers. It has been carefully protected to 
preserve due process rights, the rights of supervisors as well 
as the rights of employees who may be coming forward with 
information. I understand your concern about employees 
potentially exploiting this measure, but I think, as with any 
whistleblower protection and with any law, the motives and the 
facts can be gleaned through effective investigation. I am very 
hopeful that you will take that message back to the Secretary.
    Ms. Flanz. I certainly will.
    Senator Blumenthal. Thank you.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Blumenthal. Thanks, Mr. Chairman.
    Senator Moran. Thank you, Senator Blumenthal.
    I understand Senator Tillis has no additional questions. I 
have just one other comment and question.
    Dr. McCarthy, you were very strong in your praise for 
S. 2134, which is the physician assistant issue, so thank you 
for that statement. I may quote you from time to time.
    Second, it occurred to me as you said it about the use of 
telemedicine to CBOCs, the ability to recruit a physician 
assistant is not limited by the lack of a physician because of 
the use of telemedicine. Less than half of our CBOCs in Kansas 
have a full-time physician. Those positions are filled, at 
least the needs as best can be met for our veterans, by a 
physician assistant. It occurs to me as the VA further develops 
its Choice Act, what I am hoping you will agree with me is that 
that is all the more reason we are going to need more physician 
assistants within the VA. Can you help me by repeating 
something close to that? [Laughter.]
    Dr. McCarthy. I guess----
    Senator Moran. Do you agree or disagree?
    Dr. McCarthy. I have to say, as we continue to implement 
the Choice Act, there are opportunities especially for 
coordination of care in terms of what is provided in the 
community, what is provided in the VA, ensuring that people get 
the right services outside, and those kinds of coordinations, 
there are various levels of people in VA who can do that. I 
could clearly see physician assistants having a role in the 
management of patients who have complicated conditions and may 
need to go to multiple sites or something like that. So, yes. 
That is a long answer. I am sorry.
    Senator Moran. No, it is a fine answer.
    Dr. McCarthy. OK.
    Senator Moran. Thank you very much. I thank this panel for 
appearing this afternoon and we appreciate your testimony.
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
                 to U.S. Department of Veterans Affairs
    Question 1.  VA officials testified that they generally support 
S. 2134, the ``Grow Our Own Directive: Physician Assistant Employment 
and Education Act of 2015 legislation which seeks to build on the 
success of the Intermediate Care Technician (ICT) Pilot Program as a 
means to recruit former combat veterans who served as medics and 
corpsmen to work at VA as Physician Assistants (PAs). This effort is 
laudable. Not only should we be looking for creative ways to ensure our 
returning Servicemembers have access to jobs that match their unique 
skill sets, it looks to fill a noticeable gap in the Veteran Health 
Administration's capabilities. In the IG's recent assessment of the 
largest staffing shortages at VHA, PAs were tied for 4th place and had 
one of the highest rates of regrettable losses in FY 2014 (52.2%).
    a. To date, what strategies has VA used to enhance recruitment of 
PAs? What more could VA do?
    b. Without legislation like this, how does VA intend to address the 
issue of regrettable losses within the PA profession?
    Response. The Veterans Health Administration (VHA) continues to 
implement aggressive, multi-faceted, national recruitment and marketing 
campaigns to attract qualified candidates. VHA is targeting recruitment 
incentives toward critical occupations to compete with other Government 
and private sector organizations for top talent. Physician's assistants 
were one of the top five staffing shortage occupations as identified by 
the Office of the Inspector General (OIG). In fiscal year (FY) 2015, 
VHA increased net onboard staff by 4.7 percent overall and 6.4 percent 
for physician's assistants.
    To address the issues with shortages, VHA has targeted the 
Education Debt Reduction Program (EDRP) and development programs such 
as scholarships. VHA believes that the debt reduction program is among 
VA's strongest tools available for recruitment and retention of health 
care professionals, which is central to improving health care access 
for Veterans. The passage of Public Law 113-146, The Veterans Access, 
Choice, and Accountability Act of 2014, increased the maximum EDRP loan 
amount from $60,000 to $120,000, over a 5-year period. In the FY 2015 
award cycle, 82 percent of new EDRP awards recipients were individuals 
in the top five shortage occupations.
    VHA utilizes the electronic VA Exit Survey per VA Directive 500, 
which states that the purpose of the exit survey is to provide 
voluntarily-separating employees the opportunity to communicate their 
reasons for leaving. The information provided is shared with VA 
supervisors, managers, leadership, and human resources professionals to 
assist them in identifying methods to improve employee retention and 
morale at the local and national levels. Responses to the survey 
indicate that advancement for a unique opportunity elsewhere, normal 
retirement, relocation with a spouse, and family matters, such as 
marriage and pregnancy, are the most common reasons for leaving VHA. 
Physician's assistants had a 34 percent response rate to the survey.
    The Under Secretary for Health (USH) has outlined five strategic 
priorities for VHA, one of which is Employee Engagement. VHA is working 
to create a work environment where employees are valued, supported, and 
encouraged to do their best for Veterans. This includes making VA a 
place where all employees and providers feel supported and able to 
serve our Veterans. This priority is in alignment with the Secretary's 
MyVA strategic initiative to improve the Employee Experience by 
focusing on people and culture.

              Table 1. Breakdown of Losses by OIG top five staffing shortage occupations (FY 2015)
----------------------------------------------------------------------------------------------------------------
                                       Onboard                                     All Other    Total   Turnover
             Occupation                Average    Quits    Retirements   Removals    Losses    Losses     Rate
----------------------------------------------------------------------------------------------------------------
0180 Psychology.....................     5,167      215           88         13        101         417     8.1%
0602 Medical Officer (Physician)....    23,743    1,263          641         76         93       2,073     8.7%
0603 Physician's Assistant..........     2,070       89           63         23         48         223    10.8%
0610 Nurse..........................    62,300    2,529        2,037        211        119       4,896     7.9%
0633 Physical Therapist.............     1,901       68           24          3         57         152     8.0%
All VHA Occupations.................   305,657   14,356        9,649      2,416      1,650      28,071     9.2%
----------------------------------------------------------------------------------------------------------------
Onboard staff for VHA includes all full and part-time employees in a pay status, excluding intermittent, non-
  pay, medical resident, and allied health trainees, and excluding canteen service employees.
Turnover rate is defined as losses from the organization for a given year divided by the average onboard staff
  for that year. This does not include internal transfers from one facility to another.
All other losses include deaths, expirations of appointment, and separations related to military service and
  reductions in force.


    Question 2.  VA's written testimony indicates that VA supports the 
general concept of S. 2170, the Veterans E-Health and Telemedicine 
Support (VETS) Act of 2015. This legislation seeks to expand the use of 
telemedicine through loosening current restrictions on health care 
providers practicing within their scope of care regardless of where the 
provider and patient are located. While this bill would remove barriers 
to expanding this vital model of care, there are concerns about 
potential unintended consequences of this legislation given that it 
covers both VA employees and contractors who provide care to veterans.
    a. Under this program, what process would VA use to ensure that 
contractors providing services through telemedicine were held 
accountable in the event of an adverse event that harms a patient?
    Response. VA's process for accountability of VA-contracted 
telehealth providers is identical to the VA process for VA contracted 
(in-person) providers. The only difference is that the adverse event 
reporting for VA-contracted tele-providers would not only involve the 
provider site, but it could possibly involve multiple VA telehealth 
patient sites supported by the contracted telehealth services, whereas 
event reporting for VA-contracted in-person providers would typically 
be limited to a single VA provider site.
    Care purchased from community providers using contracting 
authorities is subject to the terms and conditions within the contract. 
In the event of an adverse event that harms the patient, such event 
must be reported in accordance with the applicable terms of the 
contract.
    Additional Information: Telehealth in VA is a setting for the 
provider to perform the privileges (e.g., mental health, dermatology, 
etc.) granted at the provider's facility--the accountability reporting 
and monitoring are the same regardless of the setting (i.e., in-person 
or telehealth) and regardless of the type of VA appointment (i.e., 
full-time, part-time, contract, fee basis, volunteer, without 
compensation, etc.). If any VA provider, including a VA-contracted 
telehealth provider, is involved in an adverse event or if any clinical 
care concern is identified through VA's monitoring service (details 
below), the provider facility will conduct a thorough focused review, 
including the telehealth patient site(s), as appropriate.
    If the finding is that an adverse patient outcome resulted from the 
VA contractor's substandard care, professional misconduct, or 
professional incompetence, VA will report the provider to the National 
Practitioner Data Bank (NPDB) in accordance with VHA Handbook 1100.17, 
National Practitioner Data Bank (NPDB) Reports.
    All Licensed Independent Practitioners (LIP) being considered to 
perform care within VA facilities must be fully credentialed and 
privileged in accordance with VHA Handbook 1100.19, Credentialing and 
Privileging, and such requirements apply to any and all LIPs regardless 
of their appointment status (i.e., full-time, part-time, contract, fee 
basis, volunteer, without compensation (WOC), etc.) VA's thorough 
credentialing and privileging process must be completed before a VA 
contractor is approved to provide any care to a VA patient.
    All credentialed and privileged VA providers undergo continuous 
monitoring through the Focused Professional Practice Evaluation (FPPE) 
and Ongoing Professional Practice Evaluation (OPPE) as required by VHA 
policy and Joint Commission requirements, regardless of whether they 
are providing care via an in-person setting or a telehealth setting.
    Before a remote VA practitioner conducts either telemedicine and/or 
teleconsultation with another facility or site, the facility or site 
where the patient is physically located must enroll the VA practitioner 
in the National Practitioner Data Bank--Health Integrity and Protection 
Data Bank Continuous Query (NPDB-HIPDB CQ). NPDB-HIPDB CQ registration 
must be renewed in accordance with credentialing and re-appraisal 
requirements of VHA Handbook 1100.19. If this is not done, it must be 
clearly documented why an NPDB-HIPDB query was not completed before the 
VA practitioner engages in patient care using telemedicine and/or 
teleconsultation.

    b. Under this program, to what extent would contractors remain 
accountable to state licensing boards for the quality of care they 
provide to veterans?
    Response. VA contractors are accountable for the care provided to 
VA patients regardless of the setting (see a. above) in which they are 
providing that care--in-person or via telehealth. Current VA regulation 
and guidance impose specific reporting requirements for health care 
professionals with appointments to provide VA care as VA employees or 
VA contractors whose behavior or clinical practice substantially failed 
to meet generally-accepted standards of clinical practice as to raise 
reasonable concern for the safety of patients. Specifically, the 
regulatory state licensure board reporting requirements cover VA 
providers ``regardless of the status of the professional, such as full-
time, part-time, contract service, fee-basis, or without 
compensation.'' See 38 Code of Federal Regulations (CFR 47.1 and 47.2. 
Likewise, VHA Handbook 1100.18 provides guidance for reporting VA 
health care professionals to state licensing boards.
    Care purchased from community providers using contracting 
authorities is subject to the terms and conditions within the contract. 
In the event of an adverse event that harms the patient, such event 
must be reported in accordance with the applicable terms of the 
contract.
    Additional Information: Under current practice, as set out in VHA 
Handbook 1100.19, contracts for telemedicine and/or teleconsultation 
services must require that these services be performed by 
appropriately-licensed individuals. Unless otherwise required by the 
specific contract or Federal law (such as the Federal Controlled 
Substances Act), VA contract health care professionals must meet the 
same licensure requirements imposed on VA employees in the same 
profession whether they are on VA (Federal) property or not when 
providing telemedicine or teleconsultation services. Some states do not 
allow telemedicine and/or teleconsultation across state lines, unless 
the provider is licensed in the state where the patient is physically 
located. In these states, the clinical indemnity coverage of VA 
contract practitioners may be void, even if they are credentialed and 
privileged by VA. Prior to the commencement of services by the VA 
contract practitioners providing telemedicine and/or teleconsultation 
or remotely monitoring physiology data from Veteran patients, the state 
regulatory agency in the state in which the practitioner is physically 
located, as well as the state where the patient is physically located, 
must be consulted. When dealing with Federal entities, additional 
licenses that authorize the provision of telemedicine and/or 
teleconsultation services in the relevant states may not be required. 
State by State consultations and determinations of additional licensure 
requirements are made on a local basis with VA Office of General 
Counsel regional offices.

    c. How would VA ensure that with the expansion of telemedicine, 
patients' privacy would be rigorously protected and patient safety 
measures tightly controlled?
    Response. For more than 15 years, VA has rigorously and 
successfully protected millions of Veteran patients' privacy and 
tightly-controlled patient safety through its telehealth services. Last 
fiscal year alone, more than 677,000 Veterans safely and securely 
accessed VA care during more than 2.1 million telehealth visits. All 
clinic-based and home telehealth services employ the highest Federal 
Information Processing Standards (FIPS 140-2) for encrypting 
interactive video between VA telehealth providers and Veterans, as well 
as for image or data storing and forwarding to a VA facility from home 
or from another VA facility. All VA employees and contractors are 
required to take annual VA Privacy training.
    Before a VA telehealth service commences, a VA Telehealth Service 
Agreement (TSA) is established between the telehealth provider site and 
telehealth patient site to outline roles, responsibilities, safety 
risks, etc. and to ensure tight controls are in place. TSAs provide 
specific patient privacy and patient safety requirements. The TSA 
establishment includes a review and approval process by senior 
leadership at both the provider and patient sites. The TSA outlines all 
pertinent patient safety guidance and all pre-, intra-, and post-visit 
requirements including communication channels (routine and emergency), 
diagnostic testing and reporting, critical lab reporting, and pharmacy 
protocols and procedures.
    VA, through its Telehealth Services Quality Management program, has 
established and implemented Conditions of Participation (CoP), a 
nationally-standardized review process of all telehealth services 
provided to Veterans. This biennial review process includes a 
structured process for Veterans Integrated Service Network (VISN) and 
program-level self-assessments and a site visit that includes 
interviews with key program staff members, tracer methodology, and data 
reviews. Considerations of field experiences, broad expert input, and 
commendable practices identified in the course of the review create a 
dynamic and evolving process that continues to advance Telehealth 
across VHA. The CoP process is intended to be collaborative, 
consultative, and proactive in an effort by VA to facilitate the growth 
and maintenance of quality telehealth services that are safe, 
effective, and efficient. In addition, this focus on quality management 
has been very successful in achieving both internal standards and 
readiness for external accreditation applying to all telehealth 
services.

    Question 3.  As you may know, the U.S. Drug Enforcement Agency has 
announced that it is drafting regulations that would make it possible 
for doctors to prescribe narcotics via telemedicine as a way reach 
patients in underserved communities.
    a. In light of some of the ongoing issues with over prescription of 
?pain medications/opioids within VA, how does VA plan to monitor 
prescribing practices for community providers who are seeing VA 
patients via telemedicine if S. 2170, the Veterans E-Health and 
Telemedicine Support (VETS) Act of 2015, were enacted?
    Response. VA's process for monitoring the prescribing practices of 
contracted telehealth providers is identical to VA's process for 
contracted (in-person) providers; the only difference being that the 
adverse event reporting for contracted tele-providers would not only 
involve the provider site, but it could possibly involve multiple VA 
telehealth patient sites supported by the contracted telehealth 
services, whereas event reporting for contracted in-person providers 
would typically be limited to a single VA provider site.
    All credentialed and privileged providers in VA undergo continuous 
monitoring through the FPPE and OPPE, as required by VHA policy and 
Joint Commission requirements, regardless of whether they are providing 
care in an in-person setting or a telehealth setting. If any VA 
provider, including contracted telehealth providers, is involved in 
overprescribing or if any clinical care concern is identified through 
VA's monitoring service (details below), the provider facility will 
conduct a thorough focused review including the telehealth patient 
site(s), as appropriate.
    If the finding is that an adverse patient outcome resulted from the 
contractor's overprescribing, the VA will report the provider to the 
VHA National Practitioner Data Bank in accordance with VHA Handbook 
1100.17, VHA National Practitioner Data Bank (NPDB) Reports, and to 
their respective state licensing board(s), in accordance with VHA 
Handbook 1100.18, VHA Reporting and Responding to State Licensing 
Boards.

    b. Earlier this year, Dr. Clancy informed me that VA was reviewing 
prescribing practices at the provider level for VA-employed doctors to 
determine whether individual doctors were inappropriately prescribing 
dangerous medications. Can you please provide an update on the status 
of that review and indicate whether any adverse employment actions were 
taken as a result of any inappropriate prescribing?
    Response. The Opioid Safety Initiative (OSI) and the Opioid 
Overdose Education Naloxone Distribution (OEND) are two medication 
safety initiatives VA has used to review prescribing practices at the 
VA provider level to identify and mitigate opioid prescribing concerns. 
These reviews are based on various clinical factors, including the 
concomitant use of opioid and benzodiazepine medications and relatively 
high dosages of opioid medications. VA initiated the reviews based on 
directives communicated in March 2015 requiring each Veterans 
Integrated Service Network (VISN) to establish an academic detailing 
(AD) program to support front-line clinicians with specialty-trained 
VISN AD clinical pharmacy specialists. These AD pharmacists employ 
individualized provider benchmarking data and specialized educational 
programming. AD was implemented to ensure provider prescribing is 
consistent with evidence-based practices. AD is a service for 
clinicians, by clinicians, that provides individualized, evidence-
based, educational outreach visits. AD has been effective in changing 
prescribing practices and fostering the utilization of evidence-based 
treatment modalities in a variety of practice settings and therapeutic 
areas.
    The AD approach customizes content and barrier-resolution 
strategies to meet individual clinician needs in the context of local 
health care delivery operations. Provider education tools that address 
questions on medications (i.e., overuse, under-use, indications for 
use, titrating doses, etc.) are developed, along with patient education 
materials. AD can be used to effectively target opportunities for 
improvement as part of an overall strategy for addressing this area of 
need within VHA. The VISN academic detailing pharmacists offer one-to-
one visits with psychiatrists, primary care providers, and health care 
team members to enhance prescribing through targeted education on VA's 
OSI. VHA has implemented four primary OSI metrics: percent of patients 
dispensed opioids, percent of patients dispensed opioids and 
benzodiazepines, percent of long-term opioid patients and urine drug 
screen, and percent of patients dispensed greater than or equal to 100 
Daily Morphine Equivalents. Prescribing practices have shown consistent 
positive trends on these four metrics. In addition, VA has dispensed 
nearly 15,000 naloxone kits, provided many hours of education on 
naloxone use to Veterans and documented nearly 150 opioid overdose 
reversals.
    In an October 2015 Presidential Memorandum, President Obama 
directed that Federal agencies shall, to the extent permitted by law, 
provide training on the appropriate and effective prescribing of opioid 
medications to all employees who are health care professionals and who 
prescribe controlled substances. VHA recognizes that many providers, 
including those in VA, need more training as well as more monitoring as 
part of a successful strategy to improve pain management, including 
safer opioid prescribing. VHA's OSI program metrics enable facilities 
and VISNs to identify providers with a pattern of inappropriate opioid 
prescribing. Then facility and VISN pain management points of contact 
and clinical leadership, in collaboration with the AD program, can 
provide remedial education and training that helps these providers 
change any inappropriate prescribing patterns. In cases where re-
education and remedial training are ineffective, disciplinary action 
may be taken by the facility.

    c. What process does VA have for informing state medical boards of 
adverse events when non-VA employee providers are seeing patients? 
Please indicate how often and in what states VA has made reports to 
State Medical Boards in each of the last 3 years.
    Response. If any VA provider, including contracted telehealth 
providers, is involved in an adverse event due to prescription of 
narcotics, or if any clinical care concern is identified through VA's 
monitoring service (details below), the provider facility will conduct 
a thorough focused review including the telehealth patient site(s), as 
appropriate.
    If the finding is that an adverse patient outcome resulted from the 
contractor's prescribing of narcotics, substandard care, professional 
misconduct, or professional incompetence, the VA will report the 
provider to the NPDB, in accordance with VHA Handbook 1100.17, and to 
their respective state licensing board(s), in accordance with VHA 
Handbook 1100.18.
    With respect to statistical information over the past three years, 
the above-referenced reports are done on a facility-by-facility basis 
and are not centrally reported. Thus compilation of an answer would 
require manual review of records of facilities throughout the VHA 
system, requiring significant time and resources. VA would be glad to 
brief the Committee in more detail on its reporting regime.

    Question 4.  Deputy Under Secretary Coy's testimony stated that VA 
does not currently have the authority to restore Post-9/11 GI Bill 
entitlement for which a beneficiary fails to receive credit due to a 
permanent school closure.
    a. What actions did VA take to disseminate information to veterans 
impacted by the recent closure of Corinthian Colleges?
    Response. VA's Education Call Center employees called all affected 
GI Bill students to inform them of the impact to their benefits and to 
offer assistance. Also, an email was sent to all beneficiaries in 
Hawaii in order to ensure they were aware that Corinthian was hosting 
meetings to assist them with next steps. In addition, VA posted 
information on its GI Bill Facebook page and GI Bill Web site regarding 
the closure, resources for finding a new school, and information on the 
Department of Education's student loan discharges. Finally, VA notified 
the State Approving Agencies so that any available state aid could also 
be provided to impacted students.

    b. Was VA able to provide any support to Post-9/11 GI Bill 
beneficiaries enrolled in the Corinthian institutions?
    Response. While VA took the steps detailed above, no further 
support could be provided as VA has no statutory authority to continue 
payments to Veterans (or other enrollees) beyond the date of school 
closure or restore benefit entitlement used at Corinthian Colleges.

    c. Could you elaborate on how this legislation would enable VA to 
provide relief and assistance, specifically in regards to the interim 
housing allowances and their ability to provide stability to student 
veterans in the aftermath of a sudden school closure?
    Response. The proposed legislation would authorize VA to restore 
entitlement and continue a monthly housing allowance (MHA) until the 
end of the term, quarter, or semester during which a school closure 
occurred, or 4 months after the date of the school closure, whichever 
is earlier. In many cases, the MHA is the sole source of funds that 
students use to pay for housing, food, utilities, and other basic 
necessities while attending school. Allowing VA to provide an interim 
housing allowance following a sudden school closure would prevent any 
unnecessary disruption to students and their families during the 
closure and would provide much needed stability until the student can 
begin courses at another educational institution.

    d. I understand that the Department of Education has begun to use 
its established authority to provide comprehensive loan forgiveness to 
former Corinthian College students with Federal student loans. Has VA 
collaborated with the Department of Education to discuss support for 
veteran students impacted by permanent school closures?
    Response. VA continues to work closely with the Department of 
Education on a range of issues and has discussed the closure of the 
Corinthian schools; however, because VA lacks the authority to provide 
relief in the case of permanent school closures and has no direct 
involvement with student loans, as they fall under the jurisdiction of 
the Department of Education, the collaboration has been limited in 
scope. As noted above, part of VA's outreach to impacted students 
involved the provision of information regarding student discharges and 
directing those students to the Department of Education's Web site on 
the topic.

    Senator Moran. We will call the next panel to the table. 
That panel consists of Elizabeth Hempowicz, Public Policy 
Associate, Project on Government Oversight; William Hubbard, 
Vice President of Government Affairs, Student Veterans of 
America; Aleks Morosky, Deputy Director, National Legislative 
Service of the Veterans of Foreign Wars; Thomas Porter, 
Legislative Director, Iraq and Afghanistan Veterans of America; 
and Diane Zumatto, National Legislative Director of AMVETS. 
[Pause.]
    Welcome. I would call on Ms. Hempowicz to begin.

  STATEMENT OF ELIZABETH HEMPOWICZ, PUBLIC POLICY ASSOCIATE, 
                PROJECT ON GOVERNMENT OVERSIGHT

    Ms. Hempowicz. I want to thank the Committee for inviting 
me to testify today and thank you for your continued leadership 
on whistleblower protections at the VA. I want to say a special 
thank you to Senator Kirk, who is not here, for introducing the 
Veterans Affairs Patient Protection Act.
    My name is Liz Hempowicz and I am the Public Policy 
Associate at the Project on Government Oversight (POGO), a 
nonpartisan, independent watchdog that champions good 
government reforms.
    POGO has been investigating whistleblower retaliation at 
the VA since May 2014, and during my last year and a half at 
POGO, I have been consulted and advised on over a dozen 
legislative proposals to enhance whistleblower protections in 
the Federal Government.
    In the last year, POGO was approached by over a thousand 
current and former VA employees and veterans seeking to blow 
the whistle on problems within the agency. We received multiple 
credible submissions from 35 States and the District of 
Columbia. These complaints made it clear that VA employees 
across the country feared that they would face repercussions if 
they raised a dissenting voice within the agency. Some were 
willing to speak. Some were willing to be interviewed by POGO 
and to be quoted by name, but others said they contacted us 
anonymously because they are still employed at the VA and are 
worried about retaliation.
    The cultural shift that is required inside the VA cannot be 
accomplished without legislation that codifies accountability 
for those who retaliate against whistleblowers. This is why 
legislation such as that introduced by Senator Kirk is so 
incredibly important. The VA Patient Protection Act includes 
many necessary improvements to how whistleblower complaints are 
addressed, and perhaps more importantly, how those who 
retaliate against whistleblowers are punished.
    Managers at the VA have abused their discretionary 
authority and have chosen not to punish those who retaliate 
against whistleblowers time and time again. This bill would put 
in place a minimum 12-day unpaid suspension when a complaint 
that a supervisor has retaliated against a whistleblower is 
substantiated.
    Supervisors accused of retaliating against whistleblowers 
will have 14 days in which to submit evidence to dispute the 
accusation. This combination of due process and mandatory 
punishment for retaliators is the right way to send and enforce 
the message that retaliating against whistleblowers will not be 
tolerated.
    This bill also expands the definition of prohibited 
personnel practice to include peer reviews and retaliatory 
investigations, two common forms of retaliation that have not 
previously been prohibited.
    We are happy to see that this bill makes how supervisors 
handle whistleblower complaints a part of the criteria for 
their annual reviews, and further, that bonuses will not be 
awarded to those employees who have retaliated against 
whistleblowers.
    It is also encouraging to see that this legislation 
includes a provision that would give preference to a 
whistleblower's request to transfer to another office within 
the VA.
    It is POGO's hope that the VA Patient Protection Act will 
ensure that whistleblowers can expose wrongdoing, confident 
that coming forward will not result in retaliation. This bill 
is a great starting place for necessary reforms in the VA. 
However, there are a few changes that we would like to see 
before it becomes law in order to make sure that this bill does 
not inadvertently weaken whistleblower protections.
    First, stating that whistleblowers have the ability to 
report wrongdoing to a direct supervisor is a good 
clarification, but it should not be a required step for a 
whistleblower complaint. We are worried that the legislation 
appears to make it mandatory for whistleblowers to go to their 
supervisors, which would narrow their ability to report 
wrongdoing to less than what is currently available under the 
law. There are many scenarios where an employee would not want 
to disclose concerns to his or her direct supervisor and those 
are not limited to the three provided in this legislation. 
Therefore, we respectfully suggest that you amend provision 
(a)(2) in Section 732 to say that a whistleblower may go to his 
or her direct supervisor instead of shall go to them.
    Additionally, we are concerned about the creation of a 
central whistleblower office within the VA. While it is clear 
that more resources are necessary to address the influx of 
whistleblower complaints, we believe that this office would not 
be sufficiently independent to do so effectively. We worry that 
this lack of independence will hurt the ability to attract the 
necessary expert personnel and will divert resources from other 
offices already filling that role, like the Office of Special 
Counsel. Our concern is that a new office would create 
duplication and confusion instead of streamlining the process 
as intended.
    The OSC has done a great job of securing favorable outcomes 
for VA whistleblowers, but they still have nearly 100 pending 
VA reprisal cases. Therefore, POGO recommends that you consider 
appropriating additional funds to the OSC to help with their 
increased workload rather than create a new office to do 
largely the same thing there.
    Finally, we urge Congress to extend whistleblower 
protections to contractors and veterans who raise concerns 
about medical care provided by the VA. POGO's investigation 
found that both of these groups also fear retaliation, which 
prevent them from coming forward.
    The VA and Congress must work together to end the culture 
of fear and retaliation. Whistleblowers who report concerns 
that affect veteran health must be lauded, not shunned, and the 
law must protect them. It is POGO's hope that the VA Patient 
Protection Act will ensure that whistleblowers can step forward 
to expose wrongdoing, confident that it will not result in 
retaliation.
    Thank you.
    [The prepared statement of Ms. Hempowicz follows:]
     Prepared Statement of Liz Hempowicz, Public Policy Associate, 
                    Project on Government Oversight
    Chairman Isakson, thank you for inviting me to testify today, and 
thank you Senator Kirk for your continued leadership on whistleblower 
protections at the Department of Veterans Affairs and for introducing 
the Veterans Affairs Patient Protection Act. I am Liz Hempowicz, the 
Public Policy Associate at the Project On Government Oversight (POGO). 
Founded in 1981, POGO is a nonpartisan independent watchdog that 
champions good government reforms. POGO's investigations into 
corruption, misconduct, and conflicts of interest achieve a more 
effective, accountable, open, and ethical Federal Government.
       fear and retaliation at the department of veterans affairs
    None of us would be aware of the extent of the problems at the 
Department of Veterans Affairs if not for whistleblowers. Early last 
year, whistleblowers came forward to expose that managers at the 
Phoenix, Arizona, VA facility were falsifying records of extensive wait 
times in order to get bonuses.\1\ Quickly, news of similar wrongdoing 
at VA facilities began to pop up in other parts of the country. 
Although POGO had never investigated the operations of the VA before, 
we were deeply concerned about what we were seeing in these reports. 
Last year, POGO held a joint press conference with Iraq and Afghanistan 
Veterans of America asking whistleblowers within the VA to share with 
us their inside perspective in order to help us better understand the 
issues the Department was facing.
---------------------------------------------------------------------------
    \1\ Scott Bronstein, Drew Griffin, and Nelli Black, ``Phoenix VA 
officials put on leave after denial of secret wait list,'' CNN, May 1, 
2014. http://www.cnn.com/2014/05/01/health/veterans-dying-health-care-
delays/ (Downloaded July 27, 2015)
---------------------------------------------------------------------------
    In POGO's 34-year history, we have never received as many 
submissions from a single agency. In little over a month, nearly 800 
current and former VA employees and veterans contacted us. We received 
credible submissions from 35 states and the District of Columbia.\2\ A 
recurring and fundamental theme became clear: VA employees across the 
country feared they would face repercussions if they dared to raise a 
dissenting voice.
---------------------------------------------------------------------------
    \2\ Statement for the Record, Project On Government Oversight 
(POGO), for the House Committee on Veterans' Affairs' Subcommittee on 
Oversight and Investigations Hearing on ``Addressing Continued 
Whistleblower Retaliation Within VA,'' April 13, 2015. http://
www.pogo.org/our-work/testimony/2015/pogo-provides-statement-for-house-
hearing-on-va-whistleblowers.html
---------------------------------------------------------------------------
    Based on what POGO learned from these whistleblowers, we wrote a 
letter to Acting VA Secretary Sloan Gibson in July last year, 
highlighting three specific cases of current or former employees who 
agreed to share details about their personal experiences of retaliation 
after they had raised concerns about wrongdoing.\3\
---------------------------------------------------------------------------
    \3\ Letter from Project On Government Oversight to Sloan D. Gibson, 
then-Acting Secretary of the Department of Veterans Affairs, about Fear 
and Retaliation in the VA, July 21, 2014. http://www.pogo.org/our-work/
letters/2014/pogo-letter-to-va-secretary-about-va-employees-claims.html
---------------------------------------------------------------------------
    In California, a VA inpatient pharmacy supervisor was placed on 
administrative leave and ordered not to speak out after raising 
concerns with his supervisors about ``inordinate delays'' in delivering 
medication to patients and ``refusal to comply with VHA [Veterans 
Health Administration] regulations.'' \4\ In one case, he said, a 
veteran's epidural drip of pain control medication ran dry, and in 
another case, a veteran developed a high fever after he was 
administered a chemotherapy drug after its expiration point.
---------------------------------------------------------------------------
    \4\ Letter from Kelly Robertson, Pharmacy Service Chief at Palo 
Alto VA Health Care System, to Earl Stuart Kallio, Pharmacy Service, 
about Direct Order--Restricted Communication, June 20, 2014.
---------------------------------------------------------------------------
    In Pennsylvania, a former VA doctor was removed from clinical work 
and forced to spend his days in an office with nothing to do, he told 
POGO. This action occurred after he reported to his supervisors that, 
in medical emergencies, physicians who were supposed to be on call were 
failing or refusing to report to the hospital. The Office of Special 
Counsel (OSC) shared his concerns, writing ``[w]e have concluded that 
there is a substantial likelihood that the information that you 
provided to OSC discloses a substantial and specific danger to public 
health and safety.'' \5\
---------------------------------------------------------------------------
    \5\ Letter from Karen Gorman, Deputy Chief, Disclosure Unit Office 
of Special Counsel, to Dr. Thomas Tomasco, about Dr. Tomasco's 
allegations OSC File No. DI-13-0416, March 21, 2013.
---------------------------------------------------------------------------
    In Appalachia, a former VA nurse was intimidated by management and 
forced out of her job after she raised concerns that patients with 
serious injuries were being neglected, she told POGO. In one case she 
was reprimanded for referring a patient to the VA's patient advocate 
after weeks of being unable to arrange transportation for a medical 
test to determine if he was in danger of sudden death. ``Such an 
upsetting thing for a nurse just to see this blatant neglect occur 
almost on a daily basis. It was not only overlooked but appeared to be 
embraced,'' she said. She also pointed out that there is ``a culture of 
bullying employees * * *. It's just a culture of harassment that goes 
on if you report wrongdoing.''
    That culture clearly isn't limited to just one or two VA clinics. 
Some people, including former employees who are now beyond the reach of 
VA management, were willing to be interviewed by POGO and to be quoted 
by name, but others said they contacted us anonymously because they are 
still employed at the VA and are worried about retaliation. One put it 
this way: ``Management is extremely good at keeping things quiet and 
employees are very afraid to come forward.''
    This kind of fear and suppression of whistleblowers who report 
wrongdoing often culminates in larger problems, as the VA has been 
experiencing.
                veterans affairs patient protection act
    Current laws have failed to adequately protect whistleblowers. 
Shifting the VA's culture to identify and correct risks to veterans' 
health and well-being cannot be accomplished without legislation that 
codifies accountability for those who retaliate against whistleblowers. 
This is why legislation such as that introduced by Senator Kirk is so 
incredibly important. The Veterans Affairs Patient Protection Act 
includes many necessary improvements to how whistleblower complaints 
are addressed, and perhaps more importantly, how those who retaliate 
against whistleblowers are punished. Accountability for illegal 
retaliation has been missing in other pending VA legislation, and is 
one of the strongest aspects of Chairman Kirk's legislation.
    Managers at the VA have abused their discretionary authority and 
chosen not to punish those who retaliate. This bill would put in place 
a minimum 12-day, unpaid suspension when a complaint that a supervisor 
has retaliated against a whistleblower is substantiated. This 
combination of due process and mandatory punishment for retaliators is 
the right way to send and enforce the message that retaliating against 
whistleblowers will not be tolerated. This bill also expands the 
definition of prohibited personnel practice to include peer reviews and 
retaliatory investigations--two common forms of retaliation that have 
not previously been prohibited.
    Additionally, the misconduct committed at the VA in Phoenix has 
shown how important bonuses and evaluations are in motivating 
supervisors' behavior. We are happy to see that this bill makes how 
supervisors handle whistleblower complaints part of the criteria for 
annual reviews, and further, that bonuses will not be awarded to those 
employees who have been found to have retaliated against 
whistleblowers.
    Both POGO's investigation and the work of Congress have shown that 
working under a supervisor or alongside a colleague on whom you have 
blown the whistle often prompts future retaliation or simply a hostile 
work environment for everyone involved. This is why it is encouraging 
to see that this legislation includes a provision that would give 
preference to a whistleblower's request to transfer to another office 
within the VA. This provision could make the difference between a 
whistleblower feeling comfortable enough to come forward or being too 
worried about rocking the boat to speak up.
    We are also pleased to see that the Veterans Affairs Patient 
Protection Act requires annual training for all VA employees on 
prohibited personnel actions, which includes retaliating against 
whistleblowers as a prohibited action. Further, VA employees will 
receive an explanation of all the methods they can use to report 
wrongdoing.
                            recommendations
    It is POGO's hope that the Veterans Affairs Patient Protection Act 
will ensure that whistleblowers can expose wrongdoing, confident that 
coming forward will not result in retaliation. This bill is a great 
starting place for necessary reforms in the VA; however there are a few 
changes that we would like to see before it becomes law, in order to 
make sure the bill doesn't inadvertently weaken whistleblower 
protections.
    First, stating that whistleblowers have the ability to report 
wrongdoing to a direct supervisor is a good clarification, but it 
should not be a required step for a whistleblower complaint. We are 
worried that the legislation appears to make it mandatory for 
whistleblowers to go to their supervisors, which would narrow their 
ability to report wrongdoing to less than what is currently available 
under the law. Most whistleblowers already try to solve problems by 
directly going to their supervisors. But there are many scenarios where 
an employee would not want to disclose concerns to his or her direct 
supervisor, and those are not limited to the three provided in this 
legislation. Therefore, we respectfully suggest that you amend this 
section to allow a whistleblower to go to his or her direct supervisor 
to make a protected disclosure, but not require them to do so.
    In addition, we are concerned about the creation of a Central 
Whistleblower Office within the VA. While it is clear that more 
resources are necessary to address the influx of whistleblower 
complaints, we believe that this office would not be sufficiently 
independent to investigate whistleblower complaints. Without proper 
independence, we worry this office could become an internal 
clearinghouse that helps agency officials identify and retaliate 
against whistleblowers. Moreover, we worry that this lack of 
independence will hurt the ability to attract the necessary expert 
personnel and will divert resources from offices already filling that 
role--like the Office of Special Counsel. Our concern is that a new 
office would create duplication and confusion instead of streamlining 
the process as intended.
    OSC has been working to investigate claims of retaliation and get 
favorable actions for many of the VA whistleblowers who have come 
forward. In 2014 and 2015 alone, the OSC has achieved favorable actions 
for 116 VA whistleblowers. But the OSC still has nearly 100 pending VA 
reprisal cases for disclosing concerns about patient care or safety, 
among the highest of any government agency, according to Special 
Counsel Carolyn Lerner. Therefore, POGO recommends that you consider 
appropriating additional funds to this agency to help with the 
increased workload rather than creating a new, less independent office 
to do largely the same thing.
    Finally, we urge Congress to extend whistleblower protections to 
contractors and veterans who raise concerns about medical care provided 
by the VA. POGO's investigation found that both of these groups also 
fear retaliation, which prevents them from coming forward. Contractors 
are only currently protected under a pilot program, but need permanent 
statutory protections. In addition, a veteran who is receiving poor 
care should be able to speak to his or her patient advocate without 
fear of retaliation, including a reduction in the quality of health 
care. A veteran should not fear that they would lose access to their 
medications for blowing the whistle on problems they've experienced at 
VA hospitals or clinics. Without this reassurance, there is a 
disincentive to report poor care, allowing it to continue uncorrected.
    The VA and Congress must work together to end the culture of fear 
and retaliation. Whistleblowers who report concerns that affect veteran 
health must be lauded, not shunned. And the law must protect them. It 
is POGO's hope that the Veterans Affairs Patient Protection Act will 
ensure that whistleblowers can step forward to expose wrongdoing, 
confident that it will not result in retaliation.

    Sen. Moran [presiding]. Thank you.
    Mr. Hubbard.

  STATEMENT OF WILLIAM HUBBARD, VICE PRESIDENT OF GOVERNMENT 
              AFFAIRS, STUDENT VETERANS OF AMERICA

    Mr. Hubbard. Thank you, Mr. Chairman. Chairman Isakson, 
Ranking Member Blumenthal, and Members of this Committee, thank 
you for inviting Student Veterans of America to submit our 
testimony on health care and benefits legislation pending 
before this Committee.
    With over 1,200 chapters across the country, we are pleased 
to share the perspective of those most directly impacted by 
these subjects. We would like to discuss opportunities with the 
vocational rehabilitation and employment services, or VR&E, the 
need for increased pathways for medical professionals at VA, 
and the importance of reinstating benefits for those impacted 
by school closures.
    On S. 2106, the Wounded Warrior Employment Improvement Act 
of 2015, a meeting between Student Veterans at a New York 
university and the Secretary of VA, Bob McDonald, made one fact 
readily apparent. Not enough veterans know about the VR&E 
program. We believe that this is the fundamental challenge 
facing VR&E today. We maintain concerns about the consistency 
of information shared among counselors and are eager to work 
closely with the VA on these issues if given the opportunity. 
Overall, we strongly support the intent of S. 2106. However, we 
encourage VA to address the components of the bill without the 
requirement of legislation.
    Moving on to S. 2134, the Physician Assistant Employment 
and Education Act of 2015, we note that despite VA's commitment 
to our veterans, fundamental problems, such as inadequate 
staffing, extended wait times, and the lack of accessibility, 
have plagued the system for the last three decades. As of just 
this last year, the VA medical system was in need of more than 
28,000 medical professionals to address their staffing 
shortage. ``I am worried about our ability to recruit and 
retain talent,'' Secretary McDonald said at his first news 
conference at the Department's central office here in D.C. We 
are highly supportive of S. 2134 and believe it would establish 
a model for a broader VA hiring initiative needed to address 
the ongoing gap of medical professional talent.
    Research we published last spring indicates there will be 
an estimated 52,000 veterans trained and qualified to work in 
medical professions across the country in the next 5 years. If 
that timeframe is extended to 7 years to accommodate the track 
for medical school, the research projects a population of over 
75,000 medical professionals trained through Post-9/11 G.I. 
Bill benefits. With the thousands of veterans expected to 
pursue health-related fields, we believe VA could capitalize on 
this talent pool but are not currently positioned to do so. 
This legislation presents an opportunity which may lead to 
additional necessary hiring programs.
    In addition to physician assistant pathways, residency 
opportunities will be imperative to long-term VA employment. A 
clearly defined path from education to employment, coupled with 
previously mentioned benefits, will create a trajectory toward 
health careers and VA employment for student veterans currently 
in or separating from the military.
    VA has shown significant improvement under the leadership 
of Secretary McDonald. We continue to hear from those within 
the VA system that they have positive experiences with those VA 
employees. Indeed, Secretary McDonald's emphasis on the 
customer experience, including the rollout of the MyVA program, 
demonstrates that the Department is headed in the right 
direction. Despite these leaps in improved service, we believe 
there is more to be done, which VA has also publicly shared. 
The Senate Veterans' Affairs Committee and this legislation 
will be pivotal in that effort and we stand ready to support 
that work if we should so humbly be called upon.
    Last, we turn to the Veterans Education Relief and 
Restoration Act. In 2014, we quickly learned of the insolvency 
of the Corinthian Colleges' institutions of higher learning. As 
we reached out to Corinthian leaders to address the situation, 
we received no response, despite concerted efforts to attempt 
to meet with their representatives. For us, it was a critical 
time, as more than 8,800 student veterans were under the 
Corinthian umbrella. Since then, we have been actively seeking 
to remedy the situation and to protect the interests of those 
student veterans directly impacted by the closures.
    We are pleased to see this legislation and continue to seek 
the support of Members of the Committee for this proposal. For 
us, we believe this issue is a matter of maximizing the 
economic impact of the Post-9/11 G.I. Bill.
    Unfortunately, we have not seen the last of school 
closures. The higher education industry deserves a hard look at 
its practices and how schools deliver education to non-
traditional students, the growing education audience. As more 
schools with faulty practices and insolvent structures close, 
we should be prepared to offer them solutions. We believe this 
Committee and its House counterpart are positioned to lead the 
way on behalf of student veterans, carving a path for non-
traditional students.
    We thank this Committee for the opportunity to testify on 
these important issues and look forward to answering questions 
as the Members of this Committee may have.
    [The prepared statement of Mr. Hubbard follows:]
  Prepared Statement of William Hubbard, Vice President of Government 
                  Affairs, Student Veterans of America
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee: Thank you for inviting Student Veterans of America (SVA) to 
submit our testimony on ``pending health care and benefits 
legislation.'' With over 1,200 chapters across the country, we are 
pleased to share the perspective of those most directly impacted by 
this subject with this Committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research development 
seeking ways to improve the landscape, and advocacy throughout the 
Nation, we place the student veteran at the top of our organizational 
pyramid. As the future leaders of this country, nothing is more 
paramount than their success in school to prepare them for productive 
and impactful lives.
    We will discuss opportunities with the vocational rehabilitation 
services, the need for increased pathways for medical professionals at 
VA, and the importance of reinstating benefits for those impacted by 
school closures. Two proposals on the agenda are outside of the scope 
of SVA, though we support the intent of each: S. 2170, ``a bill to 
improve the ability of health care professionals to treat veterans 
through the uses of telemedicine, and for other purposes;'' and, the 
``Veterans Affairs Retaliation Prevention Act of 2015.''
   s. 2106, ``a bill to require the secretary of veterans affairs to 
    develop and publish an action plan for improving the vocational 
 rehabilitation services and assistance provided by the department of 
               veterans affairs, and for other purposes''
    At a meeting between student veterans at a New York university and 
the Secretary of VA, Bob McDonald, one fact was readily apparent: not 
enough veterans know about vocational rehabilitation and employment 
(VR&E) program opportunities. We believe this is the fundamental 
challenge facing the VR&E program today. We support the intent of 
S. 2106, however we encourage VA to address the components of the bill 
without the requirement of legislation. VA has openly made it clear 
that they seek to serve their customers, our Nation's veterans, to the 
fullest extent possible. As such, we believe this would be a timely 
opportunity for VA to demonstrate action on a valuable program, which 
we believe is critical to those transitioning from their time in 
service.
    The components of S. 2106 touch on several areas that we see as 
necessary in addressing the success of the VR&E program. First, in our 
testimony to the House Veterans Affairs Subcommittee on Economic 
Opportunity on October 22, 2015, we identified the need for reduced 
caseloads on VR&E counselors.\1\ Inclusion of element one would address 
an issue that is consistent with the comments from our members. As a 
minor note, we would strike ``disorder'' from line 19 in section two, 
and refer to the particular issue instead as post-traumatic stress; we 
note that inclusion of ``disorder'' is an improper characterization of 
that challenge. Element two gets to the heart of the challenge with the 
VR&E program, and we appreciate the thoughtful inclusion of this point. 
Element three is a supporting component of the previous element, and we 
similarly applaud its inclusion. Finally, element four is one issue we 
would like to see VA address as a priority of any action plan. It is 
our understanding that VA provides training opportunities for VR&E 
counselors. However, it would be important to publish the type and 
extent of that training so public comment could be shared for potential 
improvements.
---------------------------------------------------------------------------
    \1\ Congressional Testimony, House Veteran's Affairs Subcommittee 
on Economic Opportunity, October 22, 2015, https://veterans.house.gov/
witness-testimony/mr-william-hubbard-2
---------------------------------------------------------------------------
    In general, it has become increasingly clear that the consistency 
of program delivery and awareness of the VR&E opportunities are points 
for immediate consideration. We applaud VA for their commitment to 
delivering a program with high impact and strong return on investment. 
We recognize the challenge of funding in supporting the VR&E work, a 
high-touch and resource-intensive program. We look forward to working 
closely with VA and this Committee on implementing common sense 
solutions to influence the impact and delivery of this program.
 s. 2134, ``physician assistant employment and education act of 2015''
    VA is charged with providing benefits and medical care for those 
citizens who served our Nation and bore her battles. While the specific 
medical treatments and procedures have changed since its establishment, 
VA's commitment to care for our Nation's veterans has not wavered. 
Despite this commitment, fundamental problems such as inadequate 
staffing, extended wait times, and lack of accessibility have plagued 
the system over the past 30 years. The unfortunate circumstances 
leading to the investigation and resignation of senior officials at the 
Phoenix, Arizona, Veterans Health Administration facility further has 
exasperated an already exhausted and problematic system of abuse and 
neglect.
    On September 8, 2014, Sec. McDonald testified before the Senate 
Veterans' Affairs Committee that the VA medical system is in need of 
more than 28,000 medical professionals to address the staffing 
shortage. ``I am worried about our ability to recruit and retain 
talent,'' Secretary McDonald said at his first news conference at the 
department's office in Washington, DC. We are highly supportive of 
S. 2134, and believe it would establish a model for broader VA hiring 
initiatives needed to address the on-going gap of medical professional 
talent at VA.
Aligning Priorities
    VA has stated that its top three priorities for the coming months 
include the following: rebuilding trust, improving service delivery, 
and setting a course for long-term excellence. Congress appropriated 
$16.3B to address the significant challenges facing the VA; $5B is 
directly targeted to hire trained and qualified medical professionals. 
The size of this investment provides the VA with a historic opportunity 
to shape not just the present, but the future of the entire VA.
    In 2012, there were approximately one million veterans using GI 
Bill benefits through data captured by the Million Records Project. It 
is projected that slightly more than half of those Veterans (about 
520,000) will complete an undergraduate/graduate degree program over 
the next five years. Of the 520,000 graduates, roughly ten percent are 
projected to earn a degree in a health-related or social work career 
field. The result is an estimated 52,000 veterans trained and qualified 
to work in medical professions across the country in the next five 
years. If that timeframe is extended to seven years to accommodate a 
track for medical school, current research projects a population of 
over 75,000 medical professionals trained through Post-9/11 GI Bill 
benefits.\2\ As such, we know the talent exists within the system, and 
we hope VA makes the most of this opportunity.
---------------------------------------------------------------------------
    \2\ Cate, Chris. Million Records Project, March 2014, http://
studentveterans.org/images/Reingold_Materials/mrp/download-materials/
mrp_Full_report.pdf
---------------------------------------------------------------------------
The Scope of the Challenge
    Unfortunately, the current human resources model relies exclusively 
on advertisement-heavy recruitment architecture. If minimum 
credentialing standards are met, specific conditions are present for 
the applicant, the applicant provides the proper information when 
applying, and interview questions are answered to satisfaction, a 
vacancy is filled. Unfortunately, that process is inefficient and 
breeds a culture of practitioners whose narrow interest is to avoid 
being unemployed.
    VA lacks a national pipeline that identifies universities with 
high-demand professional training programs with large numbers of prior 
military enrolled in those programs, and a streamlined talent 
management system. With more than 75,000 veterans expected to pursue 
health-related fields, we believe VA could capitalize on this talent 
pool, but are not currently positioned to do so.
A Unique Solution
    This legislation presents an opportunity which may lead to 
additional hiring programs. As the first initiative, the legislation 
addresses a critical gap in physician assistants (PAs). In addition to 
the work of the VA in response to this potential proposal, we believe 
that education and veterans non-profits are in a unique position to 
deliver a long-term solution to the challenge of recruiting medical 
professionals. Advocacy on behalf of veterans affords SVA a unique 
capability to address the immediate shortages and project fills for the 
future in conjunction with VA.
    As part of this solution, program partners would be in a position 
to help recruit, screen and support no less than 250 student veterans 
who are currently pursuing their degree in one of six critical job 
fields identified by VA. These job fields include the following: M.D.'s 
(emphasis on general practitioners), R.N.'s, Psychiatrists, 
Psychologists, MSW's, Medical Technologists, and Health Administrators.
    Based on this legislation's criteria, we have identified 15 schools 
highlighted by location across the country as detailed in Figure 1 
below. When evaluating the existence of priority medical programs, 
schools were scored for their number of offerings in the following 
disciplines: medicine (general practitioner emphasis), nursing, 
psychology, psychiatry, medical technology, social work (MSW), and 
health administration. In addition to this first 15, we have researched 
an additional 15 schools we also feel would be worth considering, and 
would look forward to working with this Committee to consider the 
attributes of each school.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Figure 1. Potential Schools by Location

Additional Considerations
    In addition to the work with PAs, residency opportunities will be 
imperative to long term VA employment. A clearly defined path to 
education and employment coupled with previously mentioned benefits 
will create a trajectory toward health careers and VA employment for 
student veterans currently in or separating from the Department of 
Defense (DOD). The VA assisting in the branding and promotion of this 
program through their various public relation channels will maximize 
the audience and rates of success.
    One problem identified by current research is the lack of trust in 
the current VA health care system. We believe the system has an absence 
of much needed medical professionals who are themselves, veterans. In 
addition, this proposal leverages a significant cost-savings to 
taxpayers by harnessing the existing benefits that veterans receive 
through their military service in the form of the Post-9/11 GI Bill.
    VA has shown significant improvement under the leadership of Sec. 
McDonald. We continue to hear from those within the VA system that they 
have positive experiences and appreciate the work of VA employees. 
Indeed, Sec. McDonald's emphasis on the customer experience, including 
the rollout of MyVA, demonstrates that the department is headed in the 
right direction. Despite these leaps in improved service, we believe 
there is more to be done, which VA has also publicly shared.
    In recognizing current programs that VA operates, we would like to 
highlight the following opportunities: the Health Professional 
Scholarship Program (HPSP), Veterans Affairs Learning Opportunity 
Residency (VALOR), Graduate Healthcare Administrative Training Program 
(GHATP), Visual Impairment and Orientation and Mobility Professionals 
Scholarship Program (VIOMPSP).\3\ These are existing programs which 
would be complimentary to this legislation, and we encourage this 
Committee to explore these as additional avenues to expand this 
legislation.
---------------------------------------------------------------------------
    \3\ HPSP: http://www.va.gov/vaforms/medical/pdf/vha-10-0491f-
fill.pdf; VALOR: http://mycareeratva.va.gov/library/internships/
veterans-affairs-learning-opportunity-residency-valor; GHATP: http://
www.vacareers.va.gov/assets/common/print/GHATP-Info-Flyer.pdf; VIOMPSP: 
http://www.va.gov/vaforms/medical/pdf/vha-10-0491L-fill.pdf
---------------------------------------------------------------------------
    Ultimately, this is a gap that has to be filled; it may be costly, 
but it's both necessary and beneficial for the long-term sustainability 
of our Nation's overall health care system. The Senate Veterans' 
Affairs Committee and this legislation will be pivotal in that effort, 
and we stand ready to support that work if we should be called upon.
   s.     , ``a bill to provide veterans impacted by school closures 
         certain relief and restoration of education benefits''
    Last year, we quickly learned of the insolvency of Corinthian 
Colleges, Inc. (CCi) institutions of higher learning (IHL). As we 
reached out to CCi leaders to address the situation, we received no 
response, despite concerted attempts to meet with their 
representatives; for us, it was a critical time, as more than 8,800 
student veterans were within their system. Since then, we have been 
actively seeking to remedy the situation, and to protect the interests 
of those student veterans directly impacted in the situation. We are 
pleased to see this legislation, and continue to seek the support of 
Members of this Committee for the proposal.
    When we learned of the closures, our first reaction was to find out 
how we could support the student veterans immediately impacted by IHL 
closures, and we also considered the future to see what can be done to 
prevent such from reoccurring. We believe it's important that VA 
recovers Post-9/11 GI Bill dollars spent on reckless programs where 
students are either passively or aggressively misled. The Department of 
Education announcement regarding the closures provides precedent for 
this authority to be granted to VA.\4\ \5\ For student veterans who 
lost valuable time due to closures or misrepresentation, they should be 
able to regain the benefits they earned. In initial conversations with 
VA, it was clear that even though restoring these benefits was right, 
the VA lacked the proper authority to justify such action.
---------------------------------------------------------------------------
    \4\ Department of Education, Debt Relief for Corinthian Colleges 
Students, June 8, 2015, http://blog.ed.gov/2015/06/debt-relief-for-
corinthian-colleges-students/
    \5\ Federal Student Aid, Loan Forgiveness Programs, http://
blog.ed.gov/2015/06/debt-relief-for-corinthian-colleges-students/
---------------------------------------------------------------------------
    Most importantly, we believe it's a matter of maximizing the 
economic impact of the Post-9/11 GI Bill. For students who lose 
benefits to weak schools, the investment in those student veterans is 
squandered. Thousands of student veterans were left wondering what 
would happen to them when their schools ceased to exist last summer; we 
can't allow even one more student veteran to face such a bleak 
prospect. We also note that while this proposal addresses situations 
which have already occurred, we continue to encourage potential student 
veterans to ask the right questions so they can avoid potential traps 
in the future.
    We fully stand in support of this legislation which would restore 
entitlement for individuals who pursued a program of education with VA 
educational assistance and failed to receive credit, or lost training 
time, toward completion of the veteran's educational, professional, or 
vocational objective due to IHL closures. We are pleased to see that 
this proposal would continue monthly educational assistance payments, 
including housing allowances, through the end of the term, quarter, or 
semester in which the school closes, or up to four months from the date 
of the school closure while not charging any of the veteran's 
entitlement.
    Unfortunately, we believe that we haven't seen the last of school 
closures. The higher education industry deserves a hard look at its 
practices and how they deliver education to non-traditional students--
the growing education audience. As more schools with faulty practices 
and insolvent structures close, we should be prepared to offer them 
solutions. We believe this Committee and its House counterpart are 
positioned to lead the way on behalf of student veterans for all non-
traditional students.

    We thank the Chairman, Ranking Member, and the Committee Members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Committee, the 
Senate Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

    Sen. Moran Thank you.
    Mr. Morosky.

     STATEMENT OF ALEKS MOROSKY, DEPUTY DIRECTOR, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
                             STATES

    Mr. Morosky. Chairman Isakson, Ranking Member Blumenthal, 
and Members of the Committee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States, I would like 
to thank you for the opportunity to testify on today's pending 
legislation. These bills that we are discussing today are aimed 
at improving educational opportunities and health care quality 
for veterans and we commend this Committee's hard work in 
bringing them forward.
    The VFW supports the Wounded Warrior Employment Improvement 
Act, which would require VA to create an action plan to improve 
the vocational rehabilitation and employment program, which 
offers disabled veterans access to education and training in 
order to give them the skills and counseling necessary to 
transition to civilian life. This bill would require VA to 
conduct an analysis of and develop a plan to remedy vocational 
rehabilitation workload management challenges.
    Recent figures indicate that the workload for vocational 
rehabilitation counselors at many regional offices often 
exceeds the VA's standard of one counselor for every 125 
veterans. The VFW believes that VA must hire additional 
counselors to meet this standard and then evaluate if the 1:125 
ratio is truly effective, especially for counselors that assist 
veterans with severe cases of PTSD and TBI.
    VA would also be required to conduct an analysis on why a 
higher percentage of disabled veterans choose to use their G.I. 
Bill benefits over vocational rehabilitation and to conduct 
outreach for the vocational rehabilitation program. The VFW 
supports this provision, believing that it would be helpful in 
identifying other weaknesses in the program, such as barriers 
to entry and lack of awareness.
    The Grow Our Own Directive. This legislation would afford 
transitioning medics and corpsmen the opportunity to become 
physician assistants. With the end of the wars in Iraq and 
Afghanistan and the expected drawdown of military personnel, 
more medics and corpsmen will be leaving the military service 
and transitioning into the civilian workforce. The VFW strongly 
supports efforts to leverage their medical knowledge and 
experience to meet the health care needs of our Nation's 
veterans.
    While the VFW supports the pilot program this legislation 
would establish, we believe that new funding should be 
authorized for new programs so that existing care and services 
are not diminished.
    The VFW supports the Veterans eHealth and Telemedicine 
Support Act, which would allow qualified VA physicians to 
provide telehealth services to veterans across State lines, 
removing the requirement that both be located in a federally 
owned facility. Currently, veterans who are enrolled in out-of-
state VA medical centers may be forced to travel significant 
distances to access telehealth services. Under this bill, a 
veteran's physical location would no longer be a limiting 
factor in his or her ability to take advantage of telehealth 
services.
    The VFW strongly supports the Department of Veterans 
Affairs Education Relief and Restoration Act, which would 
authorize VA to restore G.I. Bill benefits for student veterans 
who receive no course credit or lose training due to the 
closure of their educational institutions. Veterans who lose a 
semester of benefits due to an unexpected school closure are 
put at a disadvantage, since they may no longer have enough 
time to complete their educational goals. The VFW believes it 
is reasonable that their G.I. Bill benefits be restored in 
those cases, allowing them to complete their courses of 
education at another school before their benefits are 
exhausted.
    We are pleased that this authority would be made 
retroactive for fiscal year 2015, covering veterans who were 
impacted by the recent closure of Corinthian Colleges. The VFW 
notes the Department of Education has established a debt 
forgiveness program for students who were attending Corinthian 
on Federal student loans and we believe it is equitable for 
student veterans to receive similar relief.
    Finally, the VFW strongly supports the Veterans Affairs 
Retaliation Prevention Act, which would offer significant 
protections to VA employees who step forward to identify 
wrongdoing within the Department. These employee whistleblowers 
are the first line of defense against mismanagement, abuse, and 
other actions that put veterans in danger. Although they should 
be commended for their actions, they sometimes suffer reprisal 
from supervisors who would rather cover up problems than fix 
them.
    The VFW strongly believes that whistleblower must be 
protected. This legislation sets up a framework for 
whistleblower reporting as well as training on whistleblower 
rights and protections for staff and supervisors. It also 
creates mandatory standards for discipline and removal of 
supervisors that engage in whistleblower retaliation. The VFW 
believes these provisions are necessary and appropriate.
    There has been much emphasis lately on increasing employee 
accountability at VA. The VFW supports these efforts, believing 
that VA must have the authority to swiftly discipline or 
terminate any employee whose actions endanger veterans. Still, 
enhanced firing authority could be used by managers to 
eliminate whistleblowers if proper protections are not in 
place.
    For this reason, we strongly supported the whistleblower 
protection provisions that were added to H.R. 1994, the VA 
Accountability Act, before it passed the House. This 
legislation contains similar whistleblower protections and we 
urge this Committee to consider it as a complement to the 
Senate version of the VA Accountability Act, S. 1082.
    Mr. Chairman, this concludes my testimony and I am happy to 
answer any questions you or the Committee may have.
    [The prepared statement of Mr. Morosky follows:]
    Prepared Statement of Aleks Morosky, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, On behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation.
      s. 2106, wounded warrior employment improvement act of 2015
    The VFW supports this legislation, which would require the 
Department of Veterans Affairs (VA) to create an action plan to improve 
the Vocational Rehabilitation and Employment (VR&E) program. Similar to 
education programs, such as the GI Bill, VR&E offers disabled veterans 
access to education and training in order give them the skills 
necessary to transition to civilian life. Additionally, it provides 
other support, such as counseling and assistance finding jobs that are 
suitable for their disabilities. VR&E must be viewed as a cornerstone 
of VA services. Veterans who have been wounded or injured, or have 
fallen ill want to be productive members of society. VR&E is the bridge 
to get them there. Still, there are certain improvements to the program 
that should be made.
    This bill would require VA to conduct an analysis of and develop a 
plan to remedy VR&E workload management challenges. Recent figures 
indicate that the workload for VR&E counselors at many Regional Offices 
often exceeds the VA standard of one counselor to every 125 veterans. 
The VFW believes that VA must hire additional counselors to meet this 
standard and then evaluate if 1:125 is truly an effective ratio, 
especially for counselors who assist veterans with severe cases of 
Post-traumatic Stress Disorder and Traumatic Brain Injury. VR&E must 
focus on building careers for veterans--not just placement into jobs. 
To do this, counselors must be able to invest the time necessary to 
achieve a higher standard of success. The VFW also believes that VA 
must change its current veterans' success rate tracking model from the 
current 60-day threshold to the end of the veterans' probationary 
period.
    VA would also be required to conduct an analysis on why a higher 
percentage of disabled veterans choose to use their GI Bill benefits 
over VR&E and to conduct outreach for the VR&E program. The VFW 
supports this provision, believing that it would be helpful in 
identifying other weaknesses in the program, such as barriers to entry 
and lack of awareness.
  s. 2134, grow our own directive: physician employment and education 
                              act of 2015
    This legislation would build on the success of the Intermediate 
Care Technician (ICT) Pilot Program. Launched in December 2012, the ICT 
pilot program recruited transitioning veterans who served as medics or 
corpsmen in the military to work in VA emergency departments as 
intermediate care technicians. The ICT program offered transitioning 
medics and corpsmen who have extensive combat medicine experience and 
training the opportunity to provide clinical support for VA health care 
providers, without requiring them to undergo additional academic 
preparation.
    This legislation would go a step further by affording transitioning 
medics and corpsmen the opportunity to become physician assistants. 
With the end of the wars in Iraq and Afghanistan and the expected 
drawdown of military personnel, more medics and corpsmen will be 
leaving military service and transitioning into the civilian workforce. 
The VFW strongly supports efforts to leverage their medical knowledge 
and experience to meet the health care needs of our Nation's veterans.
    While the VFW supports the pilot program this legislation would 
establish, we believe that new funding should be authorized for new 
programs, so that existing care and services are not diminished.
 s. 2170, veterans e-health and telemedicine support (vets) act of 2015
    The VFW supports this legislation, which would allow qualified VA 
physicians to provide telehealth services to veterans across state 
lines, removing the requirement that both be located in a federally 
owned facility. This would be especially helpful for veterans who do 
not live in the same state as the facility in which they are enrolled.
    With geographic distance remaining a significant barrier to care 
for many veterans, the use of telemedicine technology has emerged as a 
highly effective method of providing veterans with timely and 
convenient care. Current law, however, restricts VA health 
professionals from practicing telemedicine across state lines unless 
both the provider and the veteran are located in federally owned 
facilities. Consequently, veterans who are enrolled in out-of-state VA 
medical centers may be forced to travel significant distances to access 
telehealth services. By allowing VA health care professionals to 
practice telemedicine across state borders, a veteran's physical 
location would no longer be a limiting factor in his or her ability to 
take advantage of telehealth services.
 draft legislation, department of veterans affairs veterans education 
                   relief and restoration act of 2015
    The VFW strongly supports this legislation, which would authorize 
VA to restore GI Bill benefits for student veterans who receive no 
course credit or lose training time due to permanent closure of their 
educational institutions. We are pleased that this authority would be 
made retroactive for fiscal year 2015, covering veterans who were 
impacted by the recent closure of Corinthian Colleges. The VFW notes 
that the Department of Education has established a debt forgiveness 
program for students who were attending Corinthian on Federal student 
loans, and we believe that it is equitable for student veterans to 
receive similar relief.
    Veterans who attend schools using their GI Bill benefits are 
limited to 36 months of assistance, with the assumption that this is 
the amount of time necessary to complete a four year degree attending 
classes at the full-time rate. Veterans who lose a semester of benefits 
due to an unexpected school closure are put at a disadvantage, since 
they may no longer have enough time to complete their educational 
goals. While the VFW realizes that veterans have the responsibility to 
be informed consumers when choosing where to use their education 
benefits by using resources like the GI Bill Comparison Tool, we 
believe it is unreasonable for veterans to anticipate that the schools 
they currently attend will close mid-semester. For this reason, we 
believe it is fully justified that their GI Bill benefits be restored 
in those cases, allowing them to complete their courses of education at 
another school before their benefits are exhausted.
 draft legislation, veterans affairs retaliation prevention act of 2015
    The VFW strongly supports this legislation, which would offer 
significant protections to VA employees who step forward to identify 
wrongdoing within the Department. These employee whistleblowers are the 
first line of defense against mismanagement, abuse, and other actions 
that put veterans in danger. Although they should be commended for 
their actions, they sometimes suffer reprisal from supervisors who 
would rather cover up problems than fix them. The VFW strongly believes 
that whistleblowers must be protected.
    There has been much emphasis lately on increasing employee 
accountability at VA. The VFW supports these efforts, believing that VA 
must have the authority to swiftly discipline or terminate any employee 
whose actions endanger veterans. Still, enhanced firing authority could 
be used by managers to eliminate whistleblowers if proper protections 
are not in place. For this reason, we strongly supported the 
whistleblower protection provisions that were added to H.R. 1994, the 
VA Accountability Act, before it passed the House. This legislation 
contains similar whistleblower protections, and we urge this Committee 
to consider it as a compliment to the Senate version of the VA 
Accountability Act, S. 1082.
    This legislation defines a whistleblower complaint as ``a complaint 
by an employee of the Department disclosing, or assisting another 
employee to disclose, a potential violation of any law, rule, or 
regulation, or gross mismanagement, gross waste of funds, abuse of 
authority, or substantial and specific danger to public health and 
safety.'' It creates a reporting system that protects employees from 
retaliation by immediately involving higher level management and the 
central whistleblower office, which will be responsible for 
investigating all complaints. If a positive determination is made that 
the complaint is valid, the whistleblower will be given the option to 
transfer. VA will be required to develop a whistleblower complaint form 
and conduct training on how to file whistleblower complaints and on 
whistleblower rights. The VFW thinks these protections are necessary 
and appropriate.
    Supervisors found to have engaged in retaliation in accordance with 
section 2302 of title 5 will be suspended for at least 12 days for the 
first offense and terminated on the second offense. Whistleblower 
compliance will be added to supervisors' performance evaluation 
criteria, and bonuses will be prohibited or clawed back for any 
supervisor who engages in whistleblower retaliation. The VFW believes 
these provisions will act as an effective deterrent, allowing 
whistleblowers to come forward with confidence that they will not 
suffer reprisal.
    This legislation would also require the Inspector General to submit 
to Congress and make public any report that makes a recommendation or 
suggests corrective action. The VFW supports this provision, however, 
we suggest that any report that substantiates an allegation should also 
be made public. This will promote greater transparency in cases where 
the IG makes no recommendations because it believes that VA has already 
taken corrective action before the report is published.

    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Committee members may have.

    Chairman Isakson [presiding]. Thank you very much.
    Mr. Porter.

  STATEMENT OF THOMAS PORTER, LEGISLATIVE DIRECTOR, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Mr. Porter. Chairman Isakson, Ranking Member Blumenthal, 
Members of the Committee, on behalf of IAVA and our more than 
425,000 members, thank you for allowing me to share our views 
today.
    IAVA supports each of the bills considered today, which 
address issues we highlighted in our recently updated policy 
agenda. I would like to focus on the main areas our members 
have expressed concern, VA accountability and defense of the 
Post-9/11 G.I. Bill.
    Because a top IAVA priority is VA accountability, we 
support Senator Kirk's draft, which directs the VA to punish 
supervisors found to take retaliatory actions against 
whistleblowers. We have heard whistleblowers from within the VA 
detailing abuses of veterans and how they have experienced the 
retaliation for stepping forward. VA must ensure that 
retaliating against whistleblowers and veterans who complain 
about care does not happen.
    The common sense provisions that establish punishments for 
violators, a formal process for filing complaints within the 
VA, a central whistleblower office separate from the General 
Counsel's Office, and additional training for VA employees are 
welcome proposals to improve how veterans and well-meaning VA 
employees are treated by their government.
    Another measure that would improve services for veterans is 
the Wounded Warrior Employment Improvement Act, to require the 
VA to develop a plan for improving the vocational 
rehabilitation services and assistance provided by the VA. To 
underscore the importance of such programs, one of our Nebraska 
members, an Afghanistan veteran, recently provided inspiring 
testimony to the House Veterans' Affairs Committee on his use 
of the VETS Success on Campus Program. Through this program, he 
rebounded from numerous setbacks and is now on a path to 
success. Seeing this young man testify before Congress after 
overcoming so many challenges exemplifies the empowered veteran 
we highlight online with the social media hashtag #vetsrising.
    There is some satisfaction among our members that 
participate in the program. Our 2014 member survey showed that 
12 percent of respondents rated VA's vocational rehabilitation 
services as good, but an equal percentage rated it as neither 
good or bad or bad. Seventy-six percent of our members have not 
used it.
    Another of our priorities is the defense of veteran 
Education benefits, such as the Post-9/11 G.I. Bill, which IAVA 
fought hard to establish. Many using the G.I. Bill have been 
adversely impacted when their schools closed. According to the 
Veterans Benefits Administration, 70 VA approved schools closed 
in fiscal year 2013 and 2014, affecting 1,605 G.I. Bill 
beneficiaries. Just this April, 422 veterans receiving G.I. 
Bill benefits saw their education plans abruptly end when 
Corinthian Colleges closed 28 schools and filed for bankruptcy.
    Because the receipt of G.I. Bill benefits is conditioned 
upon enrollment, veterans education benefits are suddenly 
discontinued when a school permanently closes. While the VA can 
pay benefits up to the time of the school's closure, the 
student is charged with the entitlement for that term but does 
not earn any credit toward program completion. In addition, 
their housing benefit is terminated the day the school closes.
    IAVA's Rapid Response Team, made up of master's level case 
managers that has helped more than 6,000 veterans connect to 
resources, including with the G.I. Bill, has taken steps to get 
veterans assistance with their education funds following school 
closures. We understand that VA has the authority to continue 
payments for up to 4 weeks when schools are temporarily closed 
due to an emergency, but there is no similar authority to 
continue benefits in the event of a permanent closure.
    For this reason, IAVA supports the Veterans Education 
Relief and Reinstatement Act, to allow VA to restore any Post-
9/11 G.I. Bill entitlement for student veterans that fail to 
receive credit due to a permanent school closure. It also 
directs VA to continue paying the G.I. Bill housing allowance 
until the end of the term or the 4 months, whichever is sooner, 
during which the school closure occurred. The Post-9/11 G.I. 
Bill has sent more than one million veterans to school, 
training America's next greatest generation.
    Although wildly successful, it is clear that all of us, 
including Congress, must be vigilant to ensure the benefit 
lives up to its goals and maintains the confidence of our 
veterans who depend on the benefit to transition to civilian 
life. All veterans deserve the best our Nation can offer when 
it comes to fulfilling the promises made to them upon entry 
into the military.
    Thank you for considering our views. I am happy to answer 
any questions.
    [The prepared statement of Mr. Porter follows:]
   Prepared Statement of Tom Porter, Legislative Director, Iraq and 
                    Afghanistan Veterans of America

 
------------------------------------------------------------------------
  Bill #    Bill Name or Subject          Sponsor          IAVA Position
------------------------------------------------------------------------
  S. 2106 Wounded Warrior          Sen. Sherrod Brown        Supports
           Employment
           Improvement Act
------------------------------------------------------------------------
  S. 2134 Grow Our Own                Sen. Jon Tester        Supports
           Directive: Physician
           Assistant Employment
           and Education Act
------------------------------------------------------------------------
  S. 2170 Veterans E-Health &         Sen. Joni Ernst        Supports
           Telemedicine Support
           Act (VETS Act)
------------------------------------------------------------------------
  S. 2253 Veterans Education             Sen. Richard        Supports
           Relief and                      Blumenthal
           Reinstatement Act
------------------------------------------------------------------------
       S. Veterans Affairs             Sen. Mark Kirk        Supports
  [Draft]  Retaliation
           Prevention Act
------------------------------------------------------------------------

    Chairman Isakson, Ranking Member Blumenthal and Distinguished 
Members of the Committee, On behalf of Iraq and Afghanistan Veterans of 
America (IAVA) and our more than 425,000 members and supporters, I 
would like to extend our gratitude for the opportunity to share our 
views regarding these pieces of legislation.
    IAVA supports each of the bills before the Committee today. To 
varying levels, they address issues IAVA has highlighted in our updated 
Policy Agenda, which was recently released and distributed to each of 
your offices. I would like to focus my testimony on the main areas that 
our members have expressed concern: (1) Accountability at the 
Department of Veterans Affairs (VA) and (2) Defense of the Post-
9/11 GI Bill.
    Because one of IAVA's top priorities is accountability at the VA, 
we support Sen. Kirk's draft legislation which directs the VA to punish 
supervisors found to take retaliatory actions against whistleblowers. 
Time and again, we have heard whistleblowers from within the VA 
detailing abuses of veterans and how they have experienced retaliation 
for stepping forward. VA must ensure that retaliating against 
whistleblowers and veterans who complain about care does not happen. A 
culture of intimidation is inconsistent with accountability within the 
Department.
    The common-sense provisions that establish strong punishments for 
violators, a formal process for filing complaints within the VA, a 
central whistleblower office separate from the General Counsel's 
office, and additional training for VA employees are welcome proposals 
to improve how veterans and well-meaning VA employees are treated by 
their government.
    Another measure that would improve the services being delivered to 
our veterans is the Wounded Warrior Employment Improvement Act 
(S. 2106), which would require the VA Secretary to develop and publish 
an action plan for improving the vocational rehabilitation services and 
assistance provided by VA.
    To underscore the importance of such programs, one of our members 
from Nebraska, an Army veteran who served in Afghanistan, recently 
provided inspiring testimony across the Capitol before the House 
Veterans Committee on his use of the VetSuccess on Campus program. 
Through this valuable program, he rebounded from numerous personal and 
professional setbacks and is now on a path to success. Seeing this 
young man testify before Congress after overcoming so many challenges 
exemplifies the empowered veteran we highlight online with the social 
media hashtag ``Vets Rising.''
    There is some satisfaction among our members that participate in 
the program. Our 2014 survey of our members showed that 12% of 
respondents rated VA's Vocational Rehab services as ``good,'' but an 
equal percentage rated it as ``neither good or bad'' or ``bad.'' 76% 
have not used it.
    Another of IAVA members' top priorities is the defense of veteran 
and military education benefits, such as the Post-9/11 GI Bill, which 
IAVA fought hard to establish. Many veterans using Post-9/11 GI Bill 
benefits have been adversely impacted when the schools they attended 
closed. According to the Veteran Benefits Administration, 70 VA-
approved schools closed in FY 2013 and 2014, affecting 1,605 GI Bill 
beneficiaries. Just this past April, 422 veterans receiving Post-911 GI 
Bill benefits saw their education plans abruptly end when Corinthian 
Colleges closed 28 schools and filed for bankruptcy.
    Because the receipt of GI Bill benefits is conditioned upon 
enrollment, veterans' education benefits are suddenly discontinued when 
a school permanently closes. While the VA can pay benefits up to the 
time of the school's closure, the student is charged with the 
entitlement for that term, but does not earn any credit toward his or 
her program completion. In addition, the housing benefit--oftentimes 
their primary or sole source of paying for lodging, food, and other 
basic necessities while attending school--is terminated the day the 
school closes.
    IAVA's Rapid Response Referral Program Team, made up of masters 
level case managers that has helped more than 6,000 veterans meet their 
goals through connections to quality resources and benefits, has taken 
steps to get veterans assistance with their education funds following 
school closures.
    We understand that VA has the authority to continue payments for up 
to four weeks when schools are temporarily closed due to an emergency, 
but there is no similar statutory authority to continue benefits in the 
event of a permanent school closure.
    For this reason, IAVA supports the Veterans Education Relief and 
Reinstatement Act, which would allow the VA to restore any Post-9/11 GI 
Bill entitlement for student veterans that fail to receive credit 
toward their educational goals due to a permanent school closure. It 
also directs the VA to continue paying the Post-9/11 GI Bill housing 
allowance until the end of the term--or up to four months, whichever is 
sooner--during which the school closure occurred.
    The Post-9/11 GI Bill has sent more than one million veterans to 
school, training America's next ``greatest generation'' for success in 
business and government careers. Although wildly successful, it is 
clear that all of us, including Congress, must be vigilant to ensure 
that the benefit lives up to its goals and to maintain the confidence 
of our veterans who depend on the benefit to transition to civilian 
life.
    IAVA's members, and all veterans, deserve the very best our Nation 
can offer when it comes to fulfilling the promises made to them upon 
entry into the military. There is no doubt this Committee has the best 
interests of our veterans in mind when drafting legislation. But we do 
hope you take into consideration and implement what we, and our fellow 
veteran service organizations, have had to say on these pieces of 
legislation today.

    Thank you for your time and attention. IAVA is happy to answer any 
questions you may have.

    Chairman Isakson. Thank you very much.
    Ms. Zumatto.

  STATEMENT OF DIANE ZUMATTO, NATIONAL LEGISLATIVE DIRECTOR, 
                             AMVETS

    Ms. Zumatto. Chairman Isakson, Ranking Member Blumenthal, 
Senators Moran and Tillis, I am pleased to be here today to 
share AMVETS's position on this pending legislation.
    S. 2106, the Wounded Warrior Employment Improvement Act, 
AMVETS supports the legislation, which directs the Secretary to 
develop and publish an action plan for improving the vocational 
rehabilitation program of the VA. AMVETS believes that the VA 
needs to provide veterans with the highest level of transition 
assistance, giving special attention to disabled veterans in a 
more efficient and timely manner. AMVETS suggests improving 
currently existing VA public-private partnerships and making 
new connections with providers in order to provide veterans 
with the broadest array of services and resources available.
    It is our belief that part of the reason for the 
disproportionately low participation of post-9/11 veterans in 
the vocational rehabilitation program is that it is not well 
publicized and, therefore, not well known as it could be in the 
veteran community. The legislation's ultimate goal should be to 
better enable catastrophically injured eligible veterans to 
return to productive lives. Hopefully, the provisions outlined 
in this bill will better able the VA to do just that.
    S. 2134, the Grow Our Own Directive: Physician Assistant 
Employment and Education Act, we enthusiastically support this 
legislation which seeks to address the PA shortage within the 
VA. AMVETS actually loves this approach, which would serve a 
dual purpose of not only helping to improve timely access to 
health care, but also helping to reduce veteran unemployment. 
AMVETS also applauds the fact that the eligible participants 
must meet certain requirements, including previous military 
health care experiences, which just makes the whole program 
more cost effective.
    It seems obvious that by increasing the number of PAs 
within the VA system, the burden on physicians and other 
clinicians would be reduced. This, in turn, would make it 
easier for a veteran to get in to see a doctor when that is 
actually necessary.
    S. 2170, the eHealth and Telemedicine Support Act, AMVETS 
supports this legislation, which seeks to increase timely 
access to health care resources through the use of telemedicine 
services by licensed, registered, or State certified clinicians 
in any State, regardless of whether either or both are located 
in a VA facility. There is no denying that the practice of 
telemedicine continues to expand as one of the fastest growing 
and most viable health care options. Just as importantly, 
however, is to ensure that those services are being provided by 
properly accredited professionals.
    S. 2253, the Education Relief and Restoration Act, AMVETS 
also supports this bill, which seeks to protect education 
benefits if a veteran, due to no fault of his own, is forced to 
discontinue a course as a result of an educational 
institution's permanent closure and they did not receive credit 
or lost training time toward the completion of that program. 
That is enough for that one.
    The discussion draft to provide procedures within the VA 
for whistleblower complaints, AMVETS wholeheartedly supports 
this very important piece of legislation, which seeks to 
address the issue of retaliation by VA supervisors against 
whistleblower employees. This is an absolutely heinous practice 
which needs immediate systemwide action. If a VA employee at 
any level is violating laws or regulations, misusing or wasting 
funds, stealing or putting veterans in danger, either by their 
actions or lack thereof, then they are the ones who should be 
targeted by the Department, not the whistleblower who steps 
forward to report those illegal actions.
    Unfortunately, it seems the whistleblower gets all the 
negative attention and is the one who sometimes gets prosecuted 
while the evildoer is allowed to continue unpunished. This is 
both wrong and a travesty of justice. It should not be allowed 
to continue under any circumstances.
    This completes my testimony at this time and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Zumatto follows:]
                Prepared Statement of Diane M. Zumatto, 
                 National Legislative Director, AMVETS
    Distinguished members of the Senate Veterans' Affairs Committee, it 
is my pleasure to be here today representing AMVETS' position on the 
following pending legislation:

<diamond>  S. 2106, the Wounded Warrior Employment Improvement Act of 
2015
<diamond>  S. 2134, the Grow Our Own Directive: Physician Assistant 
Employment & Education Act of 2015
<diamond>  S. 2170, the Veterans E-Health & Telemedicine Support Act of 
2015
<diamond>  S. 2253, the Veterans Education & Restoration Act of 2015
<diamond>  S. ------, Discussion draft--to establish procedures within 
the VA for processing Whistleblower complaints.

    I would like to begin today's statement with the following 
introductory remarks prior to turning to each specific piece of 
legislation: As the United States absorbs the aftereffects of more than 
a decade of continuous war and in the face of the planned draw-down of 
military personnel, the physical and mental health of our military and 
veterans will continue to be priority issues for AMVETS, the veteran's 
community and hopefully Congress. Thanks to improvements in battlefield 
medicine, swift triage, aeromedical evacuations and trauma surgery, 
more combat-wounded than ever before are surviving horrific wounds and 
will be needing long-term rehabilitation, life-long specialized medical 
care, sophisticated prosthetics, etc. Your committee has a 
responsibility to ensure that the VA and our Nation live up to the 
obligations imposed by the sacrifices of our veterans.
    It is encouraging to acknowledge at this time that, despite the 
extraordinary sacrifices being asked of our men and women in uniform, 
the best and the brightest continue to step forward to answer the call 
of our Nation in its time of need. I know that each of you is aware of, 
and appreciates the numerous issues of importance facing our military 
members, veterans and retirees.
                          pending legislation
    S. 2106, the Wounded Warrior Employment Improvement Act of 2015--
AMVETS supports this legislation which directs the VA Secretary to 
develop & publish an action plan for improving the vocational 
rehabilitation program of the VA. AMVETS believes that the VA needs to 
provide veterans with the highest level of transition assistance, 
giving special attention to disabled veterans, in a more efficient and 
timely manner.
    AMVETS suggests improving currently existing VA public/public 
partnerships and making new connections with providers in order to 
provide veterans with the broadest array of services and resources as 
possible.
    It is our belief that part of the reason for the disproportionately 
low participation of Post-9/11 veterans in the VA's Voc-Rehab program 
is that it is not as well publicized, and therefore not as well known, 
as it could be in the veteran community.
    This legislation's ultimate goal should be to better enable 
catastrophically injured, eligible veterans to return to productive 
lives. Hopefully, the provisions outline in this bill will better able 
the VA to do just that.
    S. 2134, the Grow Our Own Directive: Physician Assistant Employment 
& Education Act of 2015--AMVETS enthusiastically supports this 
legislation which seeks to address the physician assistant shortage 
within the VA. AMVETS loves this approach which would serve the dual 
purpose of:

    <bullet> helping to improve timely access to healthcare; and
    <bullet> helping to reduce veteran unemployment

    AMVETS also applauds the fact that the eligible participants must 
meet certain requirements including: previous military healthcare 
experiences, which make this effort more cost effective.
    It seems obvious that by increasing the number of PAs within the VA 
system, the burden on Physicians and other clinicians, would be 
reduced. This in turn should make it easier for a veteran to get in to 
see their doctor.
    S. 2170, Veterans E-Health & Telemedicine Support Act of 2015--
AMVETS supports this legislation which seeks to increase timely access 
to healthcare resources through the use of telemedicine services by 
licensed, registered or state certified clinicians in any state, 
regardless of whether either or both are located in a VA facility.
    There's no denying that the practice of telemedicine continues to 
expand as one of the fastest growing and viable healthcare options. 
Just as importantly however, is to ensure that those services are being 
provided by the properly accredited professionals.
    S. 2253, Veterans Education Relief & Restoration Act of 2015--
AMVETS supports this legislation, which seeks to protect education 
benefits if a veteran, due to no fault of their own, is forced to 
discontinue a course as a result of an educational institution's 
permanent closure and did not receive credit or lost training time 
toward completion of the education program, Department of Veterans 
Affairs (VA) educational assistance payments shall not, for a specified 
period of time, be:

    <bullet> charged against the individual's entitlement to 
educational assistance, or
    <bullet> counted against the aggregate period for which such 
assistance may be provided.

    This seems pretty straight forward in its intent, though I have no 
actual data on how often this type of situation occurs. It seems only 
right and proper, however, not to penalize a veteran for something 
entirely out of his/her control, especially because whatever course 
they didn't get credit for will have to be repeated elsewhere at a 
future date.
    S.    , Discussion draft--to establish procedures within the VA for 
processing Whistleblower Complaints--AMVETS wholeheartedly supports 
this very important piece of legislation which seeks to address the 
issue of retaliation by VA supervisors against whistleblower employees. 
This is an absolutely heinous practice which needs immediate, system-
wide action.
    If a VA employee, at any level, is violating laws or regulations, 
misusing or wasting funds, stealing or putting veterans in danger, 
either by their actions or lack thereof, then they are the ones who 
should be targeted by the department, not the person (whistleblower) 
who steps forward to report the illegal actions. Unfortunately, this is 
not how the process currently works, in fact, it's just the opposite--
the whistleblower seems to get all the negative attention and is the 
one who gets prosecuted, while the evil doer is allowed to continue 
unpunished. This is both wrong and a travesty of justice and it should 
not be allowed to continue under any circumstances.

    This completes my testimony at this time and I thank you again for 
the opportunity to offer our comments on pending legislation. I will be 
happy to answer any questions the Committee may have.

    Senator Moran [presiding]. Thank you all for your 
testimony.
    The Chairman will return in just a moment, but I am going 
to use the opportunity of having the gavel to ask the first 
question. I think I only have one, and that is to you, Ms. 
Hempowicz. The consequences that whistleblowers face, has it 
changed over time? Is it better today than it was in the past? 
Do the consequences, the poor consequences to someone who 
reports bad behavior, do they change?
    Ms. Hempowicz. I do not know if I know far enough back to 
know if they have changed over time, but I think the 
consequences for blowing the whistle today are pretty severe. 
You run the risk of losing your career, your livelihood. You 
lose your good name if your reputation is dragged through the 
mud. I think the consequences are pretty high today. I would 
assume that they have always been pretty high.
    Senator Moran. I was just interested in knowing whether--in 
my view, leadership matters. Who is in charge of the VA, I 
assume, determines the culture or the nature of how the VA 
responds to these kind of circumstances and I wondered if there 
was any empirical evidence, any reporting data that would 
suggest that either today or in the past, it has been handled 
better and, therefore, there are less instances of bad behavior 
toward whistleblowers.
    Ms. Hempowicz. I am not sure if we have enough information 
to say that, empirically, it is better or worse. I mentioned in 
my testimony that we have received over a thousand complaints 
in the last year. We are still receiving complaints on a weekly 
basis.
    Senator Moran. I thank you very much.
    Ms. Hempowicz. No problem.
    Senator Moran. Mr. Chairman, thank you.
    Chairman Isakson [presiding]. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I would like to ask, first of all, Mr. Hubbard, have you 
encountered veterans who have been victimized by the Corinthian 
debacle?
    Mr. Hubbard. Thank you for the question, Senator. When that 
issue first came up, we did a quick survey to find out how many 
student veterans were under the Corinthian umbrella, under the 
Everest, Heald, and WyoTech schools. After looking at the 
database on the GEOGO [phonetic] comparison tool, we found that 
approximately 8,800 student veterans were studying at those 
institutions. We quickly reached out to and interacted with 
those students to make sure that they were taken care of, and 
our initial conversations actually with the VA, I think, were 
quite positive. There was the interest in addressing that 
situation directly and having the authorities that identified 
they did not for that situation.
    Interestingly, when we did reach out, as pointed out in our 
testimony, to the Corinthian executives, we received no 
response for several weeks. I think that was pretty telling of 
the situation. Ultimately, you know what the end result was.
    Senator Blumenthal. Thank you.
    I want to thank all of the folks who are here today for 
your support for the Whistleblower Protection Act that I have 
introduced with Senator Kirk. I want to ask you, Ms. Hempowicz, 
because I gather you have some suggestions for changing it, 
whether you think that the Office of Special Counsel is a 
sufficient enforcement vehicle for protecting whistleblowers. I 
gather you feel that a central whistleblower office would not 
have the independence and that it would detract from the 
resources available to the Office of Special Counsel.
    Ms. Hempowicz. Yes. I think that the Office of Special 
Counsel has proven itself to be well equipped to deal with 
whistleblowers from VA. Our concern is less that resources 
would be diverted from OSC, but that the resources that go into 
the central whistleblower office could do a better job, or 
could be better put to use by putting them into the Office of 
Special Counsel. Any new office, there are going to be some 
growing pains. So, creating a new office to do largely what 
another office is doing, we think is a little bit redundant.
    There is the problem of our concern that it would not be 
independent enough in the same--this office, the central 
whistleblower office, is supposed to be independent the same 
way that the Inspector General's Office is supposed to be 
independent, and especially at the VA, we have seen that is not 
really the case. So, that is where our concerns stem.
    Senator Blumenthal. I do not remember what the House bill 
does. Do you recall?
    Ms. Hempowicz. It has a very similar provision to create a 
central whistleblower office, and we are still concerned.
    Senator Blumenthal. In terms of contractors and veterans 
that you say should also be protected against retaliation, that 
would not necessarily be against retaliation by supervisors. It 
would be against retaliation by anyone, I assume.
    Ms. Hempowicz. Yes.
    Senator Blumenthal. That would be, in effect, a separate 
goal of the bill, in effect, stopping retaliation not only 
against VA employees, but also against contractors and 
veterans.
    Ms. Hempowicz. Yes.
    Senator Blumenthal. Let me ask you, are there provisions in 
the House bill that you would recommend that the Senate adopt 
that are not in the present bill?
    Ms. Hempowicz. Not off the top of my head, but I can 
certainly get back to you with an answer for that.
    Senator Blumenthal. OK. Well, I would be interested in 
that, if you think that the Senate bill could be improved by 
any provisions or any other ideas that you or others testifying 
today may have, because I agree with all of you that this is a 
centrally important measure. As much as the VA may in good 
faith think that it is addressing this problem, I think that 
stronger deterrence and prevention are absolutely necessary. 
Punishment and enforcement are really important goals.
    Thank you all for your testimony today. Thank you.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Chairman Isakson. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair, and Mr. Chair, I want 
to mention, I think you had to be out for a moment when we were 
talking with the previous panel about some of the 
recommendations in the bills that we are talking about today. I 
think that the VA may have some concern, less to do with the 
merits of the provisions and more to do with how to pay for it 
and how much it will cost. It brought up to my mind probably 
the need at some point for us to get an update on the 
transformation and say, if this is a good idea and it does not 
work right now, tell us how the transformation is going to make 
it easier to implement and something that you would support 
later on. For your consideration for a future committee 
meeting.
    Ms. Zumatto and Mr. Morosky, you more or less supported 
without qualification S. 2106. Mr. Hubbard, you support the 
direction of the legislation, but you suggest that it can be 
accomplished without a legislative fix, just a policy change. 
Would you then say that we do not move forward with this bill 
because we think the VA will act on it, or is it just a 
statement that it is within their purview to address this 
anyway?
    Mr. Hubbard. Thank you for the question, Senator. We 
believe this issue is of immediate importance, as I believe you 
do, as well.
    Senator Tillis. Do you think it is going to take us too 
long to get it done?
    Mr. Hubbard. We believe that it is important to address 
currently. We believe that they have shown the intent to 
address it, would like to give them an opportunity to show the 
results of which and fine tune from that point forward.
    Senator Tillis. Mr. Morosky or Ms. Zumatto, any additional 
comment? I mean, we all think that we can get it done, but we 
would also like to continue to move this to provide the 
pressure to make sure that it gets done.
    Mr. Morosky. Yes, Senator. I think that putting it into 
legislation, codifying it, would continue to apply the 
pressure. If they have a plan that is very similar than what is 
laid out, then they would just have to publish it. It is also 
some of the reporting requirements having to do with the 
underutilization of Chapter 31. I do not think that they have 
any plans of looking at that right now, so that would be 
helpful, as well.
    Ms. Zumatto. I would agree with Aleks. Absolutely. Thank 
you.
    Senator Tillis. All right. I just wanted to make sure there 
was not anything beyond the point that you made. The sooner the 
better, and let us hope they can get it done and render the 
need to move the bill unnecessary.
    Mr. Hubbard. We absolutely support the intent, without 
question.
    Senator Tillis. Ms. Hempowicz, you mentioned something. I 
was not going to talk about whistleblowers except to say that I 
support the legislation before us. I am one of the founding 
members of the Senate Whistleblower Caucus, so on a broad 
basis, I think there is a lot more that we need to do to 
protect whistleblowers. I think, generally speaking, there is 
broad consensus that we need to have more whistleblower 
protections, but one of the things that comes up every once in 
a while is the protections of the accused. You just said 
something that had to do with a supervisor having been accused 
of retaliation having 14 days to respond and prove that they 
did not retaliate. In your view, do we have adequate 
protections for the accused in the policies that are moving 
forward?
    Ms. Hempowicz. I think, yes, this is a provision that has 
gotten some back and forth on the House side and on the Senate 
side. The change from 14 days to 5 days happened very recently 
[sic]. I think, yes, that change does address and does kind of 
put in place enough due process for the accused supervisors. 
Yes.
    Senator Tillis. What about the discussion we had? You were 
saying that in some cases, you think it makes sense to revise 
the bill to have kind of a skip-level reporting option. Can you 
talk a little bit more about that? Do we already have proposed 
changes before us?
    Ms. Hempowicz. Well, I mentioned the one word change in----
    Senator Tillis. From ``shall'' to ``may''?
    Ms. Hempowicz. From ``shall'' to ``may,'' yes.
    Senator Tillis. But, what does that really do? One of the 
things I have seen, less so in the VA, but we were having a 
similar discussion over in the Department of Justice, and it is 
also making sure that there are more options for reporting 
potential abuses, but clarity at the same time. Am I willing to 
put my reputation or my job on the line, we need to provide 
some level of clarity and safe harbor for them. Do we have 
draft language right to do that?
    Ms. Hempowicz. I think the change from ``shall'' to ``may'' 
would do that. Whistleblowers already have the ability to go to 
their direct supervisor. I think this is an excellent 
clarification, but we believe that the ``shall'' word makes it 
a mandatory step, and this bill does give three exceptions 
where you could just jump that step. However, we do not think 
that is an inclusive list, and rather than make it a mandatory 
step with an inclusive list of exceptions, we think just that 
one word switch would clarify without making it overly 
burdensome for the whistleblower.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you very much, Senator Tillis.
    Mr. Hubbard, you are the Vice President of Government 
Affairs for the Student Veterans of America, is that correct?
    Mr. Hubbard. Yes, Mr. Chairman.
    Chairman Isakson. When I was listening to your testimony a 
moment ago, I want to make sure I heard something correctly. We 
were talking about the Corinthian issue, which is a terrible 
tragedy for veterans and their families. Did you make a generic 
statement, though, about all of the for-profit institutions, or 
did I hear that? Did you make a reference to all of them or 
just to Corinthian?
    Mr. Hubbard. We made a statement on the umbrella of the 
issue. We believe that this is a good example of what could be 
applied more broadly. We are obviously concerned about all 
student veterans everywhere, and we saw that this situation 
with Corinthian identified that school closures is not 
something that is going to be going away any time soon. We have 
seen that the insolvent practices and the questionable 
marketing techniques of many schools are of concern. I believe 
that does apply more broadly, but it was not necessarily 
intended to be a statement on the sector.
    Chairman Isakson. Good. I wanted that clarification, 
because there are some who think that, by definition, a for-
profit school is not providing quality services to their 
students. I think we have to be very careful to not throw the 
baby out with the bathwater. We probably need to look at the 
entire issue of for-profit schools that are providing services 
to our veterans and find out where there is a problem and 
address the problem rather than generically castigate a 
category of schools.
    Because for the non-traditional students, which all 
veterans really fall in the non-traditional student category, 
distance learning, the use of technology in learning, and 
things of that nature, which are more common to the for-profit 
schools than they are for the institutions of higher learning 
like universities, are a good way to deliver quality services. 
We do it with the eArmyU in the military. I mean, we have 37 
universities delivering college credit content over the 
Internet to our soldiers in the field today. That is a program 
I was very proud to start with Senator Kerry years ago.
    I wanted to make sure that was not a general statement, but 
I think it does beg the question. It is probably time for us to 
look at all of them and make sure we know where the actors are 
and what the degree of action really is, whether they are 
Academy Award winners or not so good, one way or another.
    Ms. Hempowicz, I could not help but laugh at myself last 
night, and I apologize. The only testimony I missed today was 
yours, and I apologize. I had to run out for a brief speech 
that I had to make. I was sitting there reading your testimony. 
I looked up at the acronym for your organization and it is 
POGO, and I remember that cartoon character Pogo who said, ``We 
have met the enemy and it is ourself.'' [Laughter.]
    I think in the Veterans Administration, that is an 
applicable thing for us to talk about for a second.
    You had said your organization never received more 
inquiries in your 34-year history on any investigation other 
than the one for the VA, is that correct?
    Ms. Hempowicz. Yes.
    Chairman Isakson. How comprehensive was that input, 
extremely or just tertiary?
    Ms. Hempowicz. I am sorry. I do not understand----
    Chairman Isakson. How comprehensive was the feedback? I 
mean, did you get specific cases, specific claims, specific 
grievances, things of that nature?
    Ms. Hempowicz. Yes. We got very specific claims. We were 
not able to follow up on every single one because there were a 
lot of anonymous submissions. However, the ones that we were 
able to follow up with and do some more investigation, coupled 
with the anonymous complaints that we received, painted a broad 
picture of fraud, waste, abuse, mismanagement within the VA.
    Chairman Isakson. Using the terminology ``broad picture,'' 
and I do not want to put any words in your mouth. I want you to 
answer this the way you would just answer, which I am sure you 
would, but those comments were not limited to that Phoenix area 
or were not limited to a specific area of the United States. 
They came from pretty much all over, is that correct?
    Ms. Hempowicz. Absolutely.
    Chairman Isakson. Do you think the problem in the VA in 
terms of the whistleblower problem and the problem with the 
services to the veterans that we hear the complaints about so 
often, it is more of a cultural problem within the VA than it 
is anything else attitudinally-wise?
    Ms. Hempowicz. I do. I think there is a culture of sweeping 
things under the rug at the VA that needs to be addressed, and 
this legislation like this that would hold those who retaliate 
against whistleblowers accountable does go leaps and bounds to 
addressing that culture.
    Chairman Isakson. I am going to go a little bit over my 
time, but this is an important point I want to try to make with 
Mr. Morosky and Mr. Hubbard. I want you all to listen to what I 
am about to say and then give me your comment.
    The VA appears to me to be--in the last 10 months, it 
appears to me the VA has improved its response on wait times 
and its delivery of quality services, and I am hearing there is 
improvement within the VA in delivery of those services to 
veterans. Would you agree or disagree with that?
    Mr. Hubbard. I would agree with that overall, Mr. Chairman.
    Chairman Isakson. What about you, Mr. Morosky?
    Mr. Morosky. I would, as well, Mr. Chairman.
    Chairman Isakson. Here is my point. You go ask the average 
American on the street, what do you think of the Veterans 
Administration, they will tell you, they are really screwed up. 
You know, I read about bonuses, I read about people not getting 
appointments, I read about the Choice not working, and you go 
on and on and on. The fact of the matter is that with the 
changes this Committee originated in August of last year and 
have been implemented by the VA and its new Secretary, 
Secretary McDonald, are appearing to start to change the ship 
of State. It is a big ship, the second largest agency of the 
government.
    We have to somehow find a way to do as an organization is 
root out the problems by protecting the whistleblowers and 
having a disciplined program to go after those that are causing 
the cultural problems while at the same token elevating those 
that are doing the good job, that are changing the VA 
internally. I personally think that is what is going on.
    We are at that crossroads where we are going to go from 
being what we have not been to something we always wanted to 
be, but we have got to help as a committee to do that, and your 
organizations, I think, to a certain extent, do, too. Now, I am 
kind of making a speech here. I am not making a question. Do 
you see where I am coming from, Mr. Morosky?
    Mr. Morosky. Yes, I do, Mr. Chairman.
    Chairman Isakson. Mr. Hubbard.
    Mr. Hubbard. Same here, Mr. Chairman.
    Chairman Isakson. Mr. Porter.
    Mr. Porter. Yes, sir.
    Chairman Isakson. Ms. Zumatto.
    Ms. Zumatto. There is no question about that, although I 
will say that my own personal experience with the VA has not 
been improving, unfortunately.
    Chairman Isakson. Well, that is why I asked the question. I 
am hearing good things about some that is improving. I hear 
others that it has not changed a bit. I think we have got to 
find a way to take things like this whistleblower initiative to 
satisfy the entire country and the VA that we are going to go 
after the problems in the VA and we are going to try and 
correct them. We are going to see to it somebody that has a 
constructive complaint or information can come forward without 
fear of retribution, while at the same token, those who are in 
the agency doing a good job have the opportunity to be pointed 
out and be elevated in the public view. If we can do that, I 
think we can begin to change the entire culture.
    One last thing I am going to say, then I will shut up, and 
I apologize. Mr. Morosky, I think you were the one that talked 
about firing the people who were not performing, is that 
correct? Did you make that statement, or Mr. Hubbard? Somebody 
made that statement. Mr. Porter, did you make it?
    Mr. Porter. Yes, sir.
    Chairman Isakson. You were making it in the context of 
services to the veterans, medical services to the veterans?
    Mr. Porter. Yes, Mr. Chairman.
    Chairman Isakson. Do you have any--and I do not know the 
answer to this question, so it is an open-ended question. 
Hopefully, my staff will tell me. One of the problems that we 
hear from the Veterans Administration is the difficulty under 
the law, under union contracts and other constraints, that they 
have to actually firing somebody. Have you heard any of that, 
Mr. Porter?
    Mr. Porter. We have heard that there are objections by 
unions to some of the proposals that would allow for firing or 
transferring of bad actor employees.
    Chairman Isakson. That is the part that can ultimately 
perpetuate the internal culture that does not help the 
productivity of the individual employees, correct?
    Mr. Porter. Correct, Mr. Chairman.
    Chairman Isakson. Well, I want to end by saying this, and 
Senator Blumenthal, I want you to hear what I have got to say 
so if I say anything wrong, you can correct me. You cannot 
correct me on the first part, because you do not know the 
information. But, the second part, you can correct me.
    We had a terrible problem at Robins Air Force Base in 
Georgia, which is an air logistics center (ALC) for our 
military, our Air Force, whose on-base employment base is 
mostly union workers. They are mostly civil employees. They are 
not military employees. There got to be a huge problem between 
the union, the management of the base, and the commanding 
officer, and the throughput of that base dramatically declined 
in terms of the number of F-15s and F-16s they could process 
through to the point they were not meeting their goals.
    A very highly qualified, very ingenious general came in and 
said, ``You know, we have got to stop this.'' He invited the 
union shop foreman in and said, ``What can we do to change this 
from being a problem to being an asset?'' In 2 years, they have 
gone from being the least productive ALC in terms of throughput 
to the most productive ALC in terms of throughput. Every time I 
have gone to the base the last 2 years to meet with the 
general, the union leader is in there with him and they are 
like a team.
    My point being, we need to find a way in the agency to 
foster that type of approach within the VA, as well, to where 
the employees and the leadership appear as a team to carry out 
the best interest of the veteran and not are enemies one to 
another. I will just stop talking now, because I know I am 
making a speech, but you can correct me if you think I am 
wrong.
    Senator Blumenthal. I enjoy your speeches, Mr. Chairman, 
and I appreciate them. Can I ask a question----
    Chairman Isakson. Sure. Absolutely.
    Senator Blumenthal [continuing]. I did not mean to 
interrupt if you have----
    Chairman Isakson. I am shutting up.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Mr. Hubbard, could you tell me, in terms of your statement 
that the wait times and other performance by VA health care has 
improved, what is the basis for your statement?
    Mr. Hubbard. Thank you for the question, Senator. What we 
are really focused on is the fact that based on what we have 
seen with the G.I. Bill and the research that we conducted last 
year, we understand that there is going to be an influx of 
veterans into the system. Whether they go to work for VA or for 
the health care system, in general, that is going to ultimately 
depend on what the VA determines as far as their hiring 
programs. We are hoping that over the next couple of years, if 
they shift their programs and they make it possible for 
pathways like the bill that is on the table currently, if those 
proposals come to fruition, we think that those individuals, 
who we already know have a propensity for service and want to 
serve other veterans, we think that we can direct them toward 
VA.
    Senator Blumenthal. I am sorry. Maybe I was unclear in my 
question. The Chairman asked you whether, if I understood it 
correctly, whether your dealing or perception is that the VA's 
performance has improved in terms of reducing wait times, and 
you said yes.
    Mr. Hubbard. Oh, OK. I understand what you are asking, 
Senator. Yes, we do have anecdotal evidence for that. There is 
not any data that we have reviewed on that subject. We----
    Senator Blumenthal. Your information is strictly anecdotal?
    Mr. Hubbard. It is based on the feedback we have received 
from our members, yes.
    Senator Blumenthal. OK. Mr. Morosky--I am sorry, the basis 
for your--a similar question. I know that the VA has some 
information and data out there.
    Mr. Morosky. Right. We know of a lot of veterans who have 
used the Choice program. We know Choice has helped a great deal 
in eliminating some of the wait time backlogs, particularly for 
specialty care, at a lot of health care facilities that had 
significant backlogs before. It is still not perfect. It is a 
pilot program, of course. I know that this Committee is going 
to be doing a lot of work and discussing ways to improve on 
that and roll together the various non-VA care programs into a 
comprehensive program. So far, it has shown some improvement 
there.
    Senator Blumenthal. Mr. Porter, your information is 
similarly anecdotal; in other words, stories and----
    Mr. Porter. Yes, Senator----
    Senator Blumenthal [continuing]. Contacts with veterans?
    Mr. Porter. I would have to get back with you if we have 
actually received hard data, but we have heard a lot of 
anecdotal evidence from the Secretary, senior staff, media 
reports, but I would have to circle back if we actually have 
the hard data.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Blumenthal. Finally, your feeling is somewhat 
different, Ms. Zumatto?
    Ms. Zumatto. I shared my personal experience. I do not have 
any data from our membership. Again, it is stories, and one of 
the biggest problems that we believe the VA is suffering from 
is there is no continuity in service across the system. You get 
the mixture of, everything is great here and everything is 
terrible here. My experience has been subpar.
    Senator Blumenthal. Thank you. Thank you all again for 
being here. This has been very, very helpful and informative. 
Thanks for your service, every one of you.
    Chairman Isakson. We appreciate your time that you have 
given. Your testimony is extremely helpful and we welcome you 
to submit any other testimony you want to for the record. We 
will be glad to hold it open for that purpose.
    This meeting stands adjourned.
    [Whereupon, at 4:37 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


    Prepared Statement of Hon. Mark Kirk, U.S. Senator from Illinois
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: Thank you for allowing me to submit testimony for the record 
for this legislative hearing on behalf of my bill S. 2291, VA Patient 
Protection Act. I wrote this legislation after hearing harrowing 
stories of retaliation and intimidation from VA whistleblowers from 
across the country. Sadly a consistent theme emerged from these 
accounts: the VA does not hold those who retaliate against 
whistleblowers accountable for their actions and continues to fail to 
combat the culture of corruption and intimidation within the VA.
    Dr. Lisa Nee first came to me in the spring of 2014 and shared her 
story of corruption and intimidation from her time as a cardiologist at 
the Edward Hines Jr. VA Hospital in Hines, Illinois. Upon arrival at 
Hines, Dr. Nee was given several bankers boxes full of unread echo 
cardiograms to begin reading and assessing. She was understandably 
concerned by such a backlog but was horrified to find that some of the 
tests were left unread for over a year, in which some patients had 
died. When Dr. Nee voiced her concerns she experienced retaliation from 
Hines administration. As if this was not enough, Dr. Nee observed 
another cardiologist, Dr. Robert Dieter, fraudulently inflating his 
productivity by entering service codes that he did not perform. This 
allegation was substantiated by the VA Office of Medical Inspection, 
which found that this conduct may be in violation of criminal statutes. 
I am unhappy to state that Dr. Dieter is still employed at Hines VHA 
and has not been disciplined for this egregious misconduct nor has the 
VA turned these findings over to the Justice Department to explore 
criminal allegations. Unfortunately, the VA turned its focus and 
resources on trying to discredit Dr. Nee in a response letter to my 
office, which included blatantly false explanations concerning the 
Inspector General's handling of Dr. Nee's allegations. I am fortunate 
to work closely with Ms. Germaine Clarno, a social worker and local 
President of the American Federation of Government Employees (AFGE) at 
Hines VA. Ms. Clarno first disclosed wrong doing at Hines in regards to 
waitlist and scheduling manipulation in the spring of 2014. She works 
closely with other whistleblowers to protect their rights and counsel 
them on their options. Ms. Clarno continues to work at Hines where she 
observes and experiences continued retaliation from management against 
whistleblowers.
    Dr. Nee and Ms. Clarno's stories are not isolated cases. I have 
heard from Mr. Shea Wilkes, who is an employee at the Shreveport VAMC 
and discovered secret waits lists extending for months and years. Mr. 
Wilkes filed complaints with the Investigator General (IG), who in turn 
sent criminal investigators to look into how he obtained the wait 
lists, confiscating computer equipment and asking him to submit to a 
lie detector test. I met with Dr. Kathryn Mitchell, an emergency room 
doctor at the Phoenix VAMC, who told me how she disclosed improper 
staffing in the emergency department and secret waitlists. Management 
retaliated against Dr. Mitchell by removing her as the emergency 
department director. In addition to these stories, which I am 
personally familiar, the Office of Special Counsel shared several 
additional accounts of whistleblower retaliation to President Obama in 
its letter dated September 17, 2015. These stories are just as 
disturbing as what I have encountered in Illinois and continue to occur 
across the VA system where the VA focuses on the conduct of employee 
whistleblowers rather than the reported wrongdoing of the Department, 
such as when at the Department of Veterans Affairs Medical Center 
(VAMC) in Philadelphia, Pennsylvania, a food services employee reported 
improper sanitation and safety practices and was fired after being 
accused of eating four expired sandwiches instead of throwing them 
away. At the Puerto Rico VA, the Department sought to remove an 
employee who disclosed the hospital director's misconduct. Instead of 
investigating the director's misconduct, the VA claimed the employee 
made an unauthorized disclosure of information and then tried to remove 
the privacy officer, in part because she concluded that the 
whistleblower did not make an unauthorized disclosure. A VA employee in 
Wisconsin sent an email to VA privacy and compliance officers 
disclosing concerns about improper disclosures of veterans' health 
information. Again the VA targeted the employee and fired her for 
sending an email that contained personal information about a veteran. 
At the Wilmington, Delaware VAMC, a nurse disclosed improper treatment 
of opiate addiction and was retaliated against by receiving a 14-day 
suspension for minor allegations of misconduct. Ryan Honl was an 
employee at the Tomah VAMC in Tomah, Wisconsin and filed for 
whistleblower protection after being asked to falsify attendance 
records. Two weeks later, he resigned citing harassment and further 
disclosed problems with opioid over prescription at Tomah VAMC. The VA 
fired an employee who is a disabled veteran in Baltimore, Maryland, for 
pre-textual reasons after the employee petitioned Congress for 
assistance with the employee's own veterans benefits claim. In Kansas 
City, the Department fired an employee who reported improper scheduling 
practices, claiming for the first time after her disclosures that she 
was acting ``too slowly'' in scheduling appointments for veterans.
    These stories are the reason why I crafted this bill that will 
protect our protectors. The VA Patient Protection Act seeks to set up a 
process to PROTECT whistleblowers while PUNISHING those who retaliate 
against whistleblowers to ENSURE better care for our veterans. My bill 
will 1) increase accountability within the VA by creating a formal 
process/paper trail at the VA for whistleblower complaints and 
responses; 2) allow employees to file complaints with the next level 
supervisor if the immediate supervisor fails to properly handle the 
complaint or is the focus of complaint; 3) ties supervisors' 
performance rating to how they respond to whistleblower complaints; and 
4) force the VA to strongly punish those who are found to retaliate 
against whistleblowers: for a first offense a minimum of a 12-day 
suspension and for a second offense removal.
    These measures will show VA employees that supervisors must pay 
attention to whistleblower allegations, will be held accountable for 
how they handle those allegations, and ultimately will be punished if 
found to retaliate against whistleblowers for making allegations.
    Currently, the VA has no mechanism to track whistleblower 
complaints and how they are handled; this makes it difficult for the VA 
to enact change and for Congress to understand what, if any, 
improvements the VA has made to improve its culture of retaliation 
against whistleblowers. The VA Patient Protection Act addresses this 
problem by creating the Central Whistleblower Office, an independent 
office to exclusively address whistleblower cases in the VA; requiring 
the VA to annually conduct in person training to all employees about 
whistleblower rights, Privacy Act, and HIPPA exemptions; and requiring 
that the VA annually report to Congress on whistleblower complaints.
    Stronger whistleblower protection is needed in the VA due to the 
increase in whistleblower complaints and instances of retaliation. 
According to the Office of Special Counsel (OSC), it will receive 
nearly 2,000 whistleblower disclosures from Federal employees in 2015 
and at current levels, approximately 750 or 37.5% of these disclosures 
will be filed by VA employees.\1\ In addition, Dr. Lisa Nee, Germaine 
Clarno, and Shea Wilkes provided statements for the record for this 
hearing, which further illustrates the need for enacting my bill and I 
ask that their statements be included with the record.
---------------------------------------------------------------------------
    \1\ Written Testimony of Carolyn Lerner, Special Counsel, OSC for 
US Senate Committee on Appropriations Subcommittee on Military 
Construction, Veterans Affairs, and Related Agencies ``Review of 
Whistleblower Claims at the Department of Veterans Affairs,'' July 20, 
2015.
---------------------------------------------------------------------------
    I am committed to ensuring our veterans receive the care they 
deserve from our VA hospitals and care providers, whistleblowers play 
an indispensable role in preventing fraud, waste, abuse, and gross 
misconduct at our VA facilities. I believe that the VA Patient 
Protection Act will start to change the culture at the VA by educating 
VA employees on their whistleblower protection rights and holding 
management accountable for their treatment of whistleblowers. Our 
veterans, who bravely served our country, deserve the best medical care 
and services available and at the very least deserve their leaders' 
attention to people and systems that obstruct them from receiving that 
care.

    Thank you.
                                 ______
                                 
     Prepared Statement of American Academy of Physician Assistants
    On behalf of the more than 104,000 nationally-certified physician 
assistants (PAs), the American Academy of Physician Assistants (AAPA) 
appreciates the opportunity to submit a statement for the record 
regarding S. 2134, the ``Grow Our Own Directive: Physician Assistant 
Employment and Education Act of 2015.'' AAPA is very pleased to endorse 
this critically important legislation.
    Ready access to quality patient care is among the most critical 
issues facing our Nation's veterans. AAPA believes PAs are a key part 
of the solution to increasing access to quality medical care at VA 
medical facilities. PAs provide high quality, cost-effective medical 
care in virtually all health settings and in every medical and surgical 
setting. They are educated to seamlessly work in a healthcare team, and 
they manage the full scope of patient care, often handling patients 
with complex diagnoses or multiple comorbidities, conditions which 
commonly occur within the Nation's veteran population. The private 
healthcare market has embraced and rewarded the use of PAs to alleviate 
healthcare provider shortages; it is time the VA does too.
    The PA profession has long been connected and committed to veterans 
and veterans' healthcare. The first PA students were Navy Corpsmen who 
served in the Vietnam War; and recruitment of and support for veterans 
in PA educational programs continues to this day. As of 2014, nearly 
12% of all PAs are veterans, active duty, or retired military in the 
National Guard and Reserves, and more than 2,000 PAs are currently 
employed by the U.S. Department of Veterans Affairs.
    Given all that PAs can offer to the Veterans Health Administration 
(VHA), AAPA is very concerned that PAs are one of the top five medical 
professions experiencing shortages within the VA healthcare system. 
Both the January 2015 and September 2015 VA Office of Inspector General 
(OIG) reports recognize the importance of PAs as part of VHA's 
healthcare team, and both reports identify PAs within the five 
occupations with the ``largest staffing shortages.'' S. 2134 proposes a 
two part approach to recruiting and retaining a VA PA workforce--the 
GOOD pilot program and a VHA commitment to recruiting and retaining 
PAs.
                           good pilot program
    The Good Pilot Program is designed to create a pathway for veterans 
to become educated as PAs and adds to the supply of PAs in VA medical 
facilities. We are confident this pilot program will work because:

    <bullet> Medical schools and universities have recruited veterans 
into PA educational programs since the profession began nearly 50 years 
ago. In the last several years, the Health Resources Services 
Administration (HRSA/HHS) studied best practices for recruiting and 
retaining veterans in PA educational programs and GOOD will utilize 
these best practices.
    <bullet> Data compiled by the MEDEX PA Program in Washington, which 
has a long history of recruiting veterans into its program, reports 
that veterans who are educated as PAs make particularly good PAs. And, 
veterans who become PAs are well suited to provide medical care in 
medically underserved communities.
    <bullet> It mirrors the National Health Service Corps, a model that 
has been educating PAs and other healthcare professionals for decades 
in exchange for a commitment to serve in medically underserved areas.
    <bullet> The private healthcare market values PAs who were former 
veterans. For example, Blue Cross/Blue Shield recently invested in 
instituting a PA program at the University of North Carolina, whose 
mission will be to educate veterans as PAs for service in the state's 
medically underserved areas. Recognizing the additional skill sets 
offered by healthcare professionals who are veterans, the American 
Hospital Association recently convened a series of meetings on 
recruiting PAs and other healthcare professionals who are veterans to 
hospitals.
      national vha strategy to recruit and retain pas, including 
                        competitive pay for pas
    Critical to S. 2134 is its requirement that the VHA make a 
commitment it has not previously undertaken--a plan to grow and 
maintain its PA workforce. VA compensation for PAs simply can't compete 
with the salaries offered in the private market. Additionally, PAs and 
nurse practitioners (NPs) employed by the VA perform nearly identical 
functions and are employed in the same manner, but PAs are at a 
competitive disadvantage. NPs often start at a higher grade than PAs, 
and it is not uncommon for NPs in the VA to be compensated by as much 
as $30,000 more than PAs while providing the same medical services.
    To AAPA's knowledge, the VHA has not expanded recruitment and 
retention initiatives for PAs in response to the identification of PAs 
as one of the VA's top five critical occupation shortages. The VA has 
always had the authority to include PAs in the Locality Pay for Nurses 
and other Healthcare Professionals, but has chosen not to do so. The 
addition of PAs to the VA locality pay system could assist the VA in 
recruiting PAs to replenish the ranks of approximately 40 percent of 
the VA PA workforce eligible for retirement within the next five years.
    The value of the PA profession is highly regarded and in demand by 
the private market:

    <bullet> Demand for PAs increased more than 300 percent from 2011 
to 2014, according to the national healthcare search firm Merritt 
Hawkins.
    <bullet> Upon earning their certification, 63 percent of PAs 
accepted a clinical positon and 76 percent of these received multiple 
job offers. (National Certification Commission for the Physician 
Assistant (NCCPA) 2014 Statistical Profile of Certified Physician 
Assistants).
    <bullet> Nearly half (46.7%) of PAs who have accepted a position, 
indicated that they did not face any challenges when searching for a 
job.
    <bullet> 64.7% of the recently certified PAs who accepted a 
position indicated they were offered employment incentives. (NCCPA 2014 
Statistical Profile of Certified Physician Assistants).
    <bullet> Employment of PAs is projected to increase 38.4 percent 
between 2012 to 2022, much faster than the average for all occupations, 
according to the U.S. Bureau of Labor Statistics (U.S. Department of 
Labor, Occupational Outlook Handbook, 2012-2013 Edition, Physician 
Assistants).
    <bullet> Forbes, Young Invincibles and Glassdoor.com all reported 
that the #1 most promising job of 2015 is becoming a PA.
    <bullet> U.S. News & World Report ranked the PA profession as one 
of the top 10 best jobs of 2015.

    An historic lack of attention to recruitment and retention of PAs 
by the VA, coupled with the high demand and economic reward for PAs in 
the private healthcare market, has resulted in a significant challenge 
for the VA to fill PA positions. Unless the VA invests in its PA 
workforce, AAPA believes the VA will lose its PA workforce.
    S. 2134, the ``Grow Our Own Directive: Physician Assistant 
Employment and Education Act of 2015,'' represents a significant step 
forward in building and sustaining the VA's PA workforce through 
proposals to create a five year pilot program to educate veterans as 
PAs and to require the VA to establish a national strategic plan to 
recruit and retain PAs, including the adoption of standards leading to 
competitive pay for PAs employed by the VA. AAPA would be pleased to 
serve as a resource to the Committee in making recommendations to 
support the VA's PA workforce. Thank you again for the opportunity to 
submit a statement for the record in support of S. 2134.
                                 ______
                                 
 Prepared Statement of Germaine Clarno, LCSW, CADC and Local President 
           of the American Federation of Government Employees
    Senator Kirk, Thank you for the opportunity to provide my testimony 
to discuss the culture of continued fear and retaliation at Edward 
Hines, Jr. Hospital.
    I also want to personally thank you for your unrelenting efforts in 
protecting those that nobly care for our Nation's veterans. The VA 
Patient Protection Act will include a method to protect whistleblowers 
while holding those who retaliate against whistleblowers accountable 
and as a result will provide better care for our veterans.
    I am a Social Worker and Local President of the American Federation 
of Government Employees (AFGE). I have worked at Edward Hines, Jr. 
Hospital in Illinois for 6 years, 2 years after receiving a Masters in 
Social Work. Social Work is a second career, it was important to me 
that I work with veterans so I was elated with the opportunity to work 
at the VA. It has been an honor and privilege to serve our nations 
veterans in the capacity of a mental health provider. I have worked 
alongside amazing dedicated employees that share the same passion for 
helping our veterans heal from the invisible wounds of war.
    Unfortunately, I experienced early in my career the toxic culture 
of fear. Asking a simple question or suggestion can result in career 
sabotage. I witnessed good intentioned professional employees be 
retaliated against for simply wanting to raise issues that interfered 
with quality health care for our veterans. After 3 years working in 
mental health, I had experienced and witnessed deplorable treatment of 
employees that dared to speak up against fraud, waste and abuse. My 
dedication to our veterans convinced me to explore means to improve the 
culture at Hines. The root cause was mistreatment of frontline 
employees that did not have a voice or an advocate. I then became a 
Chief Steward for Local 781 at Hines, with determination and the union 
contract, I optimistically marched onward with an honored mission to 
change the culture at Hines.
    The Master Agreement (our union contract) states in our preamble 
``The Department and the Union agree that a constructive and 
cooperative working relationship between labor and management is 
essential to achieving the Department's mission and to ensuring a 
quality work environment for all employees.''
    This agreement is not honored by the leadership at Hines. They 
spend more time finding loop holes of the contract and ways not to 
comply with this simple agreement, which is also an element of 
Secretary McDonald's ``Blue Print for Excellence.'' He states ``VA will 
become an organization where employees are comfortable raising issues 
and concerns. Only then, can we truly thrive and innovate.'' This plan 
for change was published a year ago and employees are still afraid, 
more than ever.
    During my time as a union representative I have seen firsthand the 
obstacles for employees to perform at the highest level due to an 
environment that is not conducive to enhancing employee morale and 
efficiency. In the fall of 2012, after exhausting all avenues with in 
her chain of command, Dr. Lisa Nee came to me, as other employees have 
with overwhelming evidence of wrongdoing by the leadership at Hines.
    The severe retaliation that Dr. Nee's experienced as the result of 
her disclosure is not unique. Retaliation at Hines is a systematic 
campaign of interpersonal destruction that jeopardizes employee's 
health, careers, and the jobs they once loved. These forms of 
retaliation is a nonphysical form of violence, but because it is 
violence and abusive, emotional harm often is the result.
    It's been over a year since I first disclosed wrong doing at Hines 
in regards to waitlists--scheduling manipulation and excessive wait 
time for veterans requesting individual therapy for PTSD on CBS evening 
news. The very next day of my disclosure the Hines leadership had a 
meeting without my knowledge, in the chapel, with approximately 300 of 
my coworkers from mental health. That day 300 employees were taken away 
from their work areas and were not serving veterans. The purpose of the 
meeting was to discredit my claims and turn my coworkers against me. 
That same day I received emails and voicemails from my supervisor 
ordering me to report to the criminal division of the OIG on Hines 
Campus.
    What was more outrageous is that leadership attempted to discredit 
a veteran that also was in this news story by sharing information from 
his medical chart. Blaming him for the delays by saying that he 
canceled appointments or was a no show. Veterans aren't immune to 
retaliation at Hines.
    I wish I could report that things have improved at Hines but the 
sad truth is it has not. Just in the past couple of weeks employees 
have been severely retaliated against. One of these employees is 
Jasmine Ramakrishna. Jasmine gave me permission to tell her story 
today. Jasmine is a Dental Hygienist at Hines, like most of our front 
line employees she is dedicated to serving veterans. She has reported 
wrongdoing on issues in the dental clinic to include unnecessary 
procedures (for the purpose of increasing productivity) and issues with 
assessments and coding procedures. As a result of her raising concerns, 
she is currently being retaliated against. Jasmine has always been 
rated outstanding on her performance appraisals but when she received 
her performance appraisal a few weeks ago her rating was lowered. 
Jasmine and I met with her supervisor to discuss her rating and he 
responded that she has violated the VA Code of Conduct. Jasmine has 
never been counseled or informed of any wrongdoing but in this meeting 
he referenced a folder that contained information that he ``has on 
her'' and is refusing to share with the employee. As you can imagine 
this is devastating for this employee. This is example of a supervisor 
using his power to make false allegations and violate the law to harass 
and intimidate an employee. The union has filed grievances and he is 
refusing to respond. As a result, the union has filed two separate 
Unfair Labor Practices with the Federal Labor Relations Authority 
against the agency.
    This same supervisor, the Chief of the Dental clinic is also 
harassing another employee, a dentist. This supervisor is asking co-
workers to surveillance him. After a meeting I had with this supervisor 
to notify him that asking co-workers to surveillance other employees is 
not appropriate and is illegal, he called the police and made a false a 
report that I was aggressive and threatening him. This event took place 
just this past Monday. Ironically, one of Senator Kirk's staff members 
was in my office when the police arrived and witnessed the harassment. 
That same day I notified Hines leadership of this disgraceful conduct 
and I have not received a reply. Another form of retaliation is to 
ignore the complaint or justify the supervisor's behavior.
    My concern is for our veterans. When employees are being 
intimidated and retaliated against for speaking up for quality care, 
the Nation's veterans pay the price. In order to retain the best and 
brightest healthcare providers, to service the needs of our Nation's 
heroes, we must rid our workplace of the toxic, retaliatory practices 
engaged in by management.
                                 ______
                                 
 Prepared Statement of Paul R. Varela, Assistant National Legislative 
               Director, DAV (Disabled American Veterans)
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: Thank you for inviting DAV (Disabled American Veterans) to 
submit testimony for the record of this legislative hearing, and to 
present our views on the bills under consideration. As you know, DAV is 
a non-profit veterans service organization comprised of nearly 1.3 
million wartime service-disabled veterans. DAV is dedicated to a single 
purpose: empowering veterans to lead high-quality lives with respect 
and dignity.
    s. 2106--the wounded warrior employment improvement act of 2015
    This bill would require the Secretary of the Department of Veterans 
Affairs (VA) to analyze VA's Vocational Rehabilitation and Employment 
(VR&E) services and make recommendations in a report to Congress for 
the purpose of encouraging more service-disabled veterans to use the 
benefits of Chapter 31, title 38, United States Code, versus services 
authorized in Chapter 33 of the Code. The bill also would require an 
action plan be developed to improve the vocational and employment 
services and assistance provided to veterans under chapter 31. The 
required report would include a plan to remedy certain workload 
management challenges at VA regional offices (VARO), including reducing 
counselor caseloads for veterans participating in rehabilitation, and 
in particular counselors assisting veterans with Traumatic Brain Injury 
and Post Traumatic Stress Disorder, and also counselors with dual 
educational and vocational counseling workloads.
    The bill also would require VA to analyze and assess the decisions 
and circumstances of veterans with service-connected disabilities who 
served on or after September 11, 2001 who choose not to participate in 
rehabilitation under Chapter 31 but instead use their entitlement to 
educational assistance under Chapter 33. The analysis required by this 
bill would examine barriers to timely enrollment in rehabilitation 
programs under Chapter 31 and any additional barriers to a veteran's 
enrollment.
    The bill would require VA to report within 270 days of the date of 
its enactment, and to develop and publish the action plan to improve 
the services and assistance provided under Chapter 31.
    DAV has no resolution from our membership on the particular issue 
within this bill. While we would not oppose passage, we have identified 
some concerns that we recommend be addressed prior to passage of this 
bill.
    DAV recognizes the intrinsic value of Chapter 31 vocational 
rehabilitation services for wounded, ill and injured veterans. However, 
encouraging those veterans with eligibility under Chapter 33 to instead 
use Chapter 31 authority would require additional resources in VR&E to 
meet the increase in demand.
    Today, VR&E's counselor-to-client ratio is far too high, at 1:135. 
This ratio has been historically disproportionate and contributes to 
the delays in the administration of timely and effective services. 
However, the average ratio can be misleading. For example, the 
Cleveland VARO's counselor-to-client ratio is 1:206, but in the Fargo 
VARO it is 1:64.
    Ideally, an effective counselor-to-client ratio would be 1:125, as 
has been advocated by the Independent Budget for the past several 
years. In order to achieve the 1:125 counselor-to-client ratio in FY 
2016, VR&E would require an additional 382 full-time employee 
equivalents (FTEE), of whom 277 would be dedicated as VR&E counselors 
and the remaining 105 employees would be in support services, bringing 
VR&E's total FTEE strength to 1,824. While increased staffing levels 
are required to provide efficient and timely services, it would also be 
essential that these increases be properly distributed throughout VR&E 
to ensure that counselors' caseloads are equitably balanced among 
VAROs.
    DAV calls on Congress to increase staffing levels within VA's VR&E 
program in accordance with DAV Resolution No. 135, approved by our 
membership at our most recent National Convention. As contemplated by 
this bill, if Congress intends to encourage increased use of Chapter 31 
services, versus services afforded under Chapter 33, then adequate 
resources would be essential to strengthen this critical program to 
meet the increased demands inherent in servicing more eligible service-
disabled veterans for their rehabilitation and vocational needs.
s. 2134--the grow our own directive: physician assistant employment and 
                         education act of 2015
    This bill would direct the VA to carry out a five-year pilot 
program to provide educational assistance to certain veterans for 
education and training as VA physician assistants.
    Under this bill, the pilot program would target veterans with 
experience gained in medical or military health while serving; had 
received a certificate, associate degree, baccalaureate degree, 
master's degree, or post-baccalaureate training in a science related to 
health care; had participated in the delivery of health care services 
or related medical services. The bill would exclude physicians and 
dentists from participation.
    The bill would require VA to provide educational assistance, 
including scholarships, to no fewer than 250 participants. VA would 
reimburse their costs of obtaining master's degrees in physician 
assistant studies or similar master's degrees. The bill would require 
VA to make available mentors for participants at each VA facility at 
which a veteran is participating, and would require VA to establish 
partnerships with other government programs and with a significant 
number of educational institutions that offer degrees in physician 
assistant studies.
    The bill also would require VA to establish standards to improve 
the education and hiring of VA physician assistants, and implement a 
national plan for the retention and recruitment of VA physician 
assistants.
    The bill would establish a series of new, mandatory positions in 
VA's national Office of Physician Assistant Services in VA Central 
Office, including a Deputy Director for Education and Career 
Development, a Deputy Director for Recruitment and Retention, a 
designated recruiter of physician assistants, and an administrative 
assistant to support these functions. The bill would specify their 
major duties.
    The bill would redesignate not less than $8 million in funds 
appropriated prior to the passage of this bill to carry out its 
purposes. The bill is silent on sources of any additional funding that 
might be needed to meet its mandates.
    Finally the bill would align VA physician assistant pay grades 
equivalent to the pay grades of VA registered nurses.
    DAV has not received a national resolution from our members dealing 
with VA recruitment, training or employment of physician assistants; 
therefore, DAV takes no formal position on this bill. Nevertheless, we 
observe that this bill is unusually prescriptive, is not based on any 
broadly understood need for VA to hire additional physician assistants, 
and assumes these 250 individuals who would undergo the subsidized VA 
education and training the bill would authorize, are in fact needed by 
VA. Also, the bill would divert previously appropriated funds from 
other purposes to serve this new, unanticipated purpose. These issues 
raise a number of concerns that we ask the Committee to consider as it 
deals further with this bill.
s. 2170--the veterans e-health and telemedicine support act of 2015, or 
                        the ``vets act of 2015''
    This bill would enable a health care professional of the VA, 
including a contract provider, who is authorized to provide health care 
by or through VA, and who is licensed, registered, or certified in a 
state to practice his or her profession at any location in any state, 
regardless of where the professional or veteran is located, to treat a 
veteran through telemedicine. If enacted the bill would permit 
telemedicine treatment regardless of whether the professional or the 
patient were physically located in a federally owned facility.
    The bill would require VA to report to Congress one year following 
its implementation on a variety of aspects of VA's telemedicine 
program, including patient and provider satisfaction, access, 
productivity, waiting times and other information related to 
appointments made and completed through telemedicine.
    Because health professional licensure is a state-regulated 
function, as a national system VA has experienced barriers in its 
efforts to broaden the use of telemedicine across state lines. A number 
of VA telemedicine initiatives have been frustrated because of the 
interstate restriction. Enactment of this bill would eliminate that 
barrier, and would promote much greater use of telemedicine, especially 
in facilities whose treatment populations come from multiple states 
(Martinsburg, WV--patients from VA; Washington, DC--patients from VA 
and MD; Pittsburgh, PA--patients from OH; New York City, NY--patients 
from NJ; Boston, MA--patients from NH, VT and ME; Fayetteville, AR--
patients from MO, OK, and KS, etc.). Enactment of this bill would open 
the door to VA specialists treating veterans through telemedicine 
irrespective of state jurisdiction, physical location, or the distance 
that separates patient from provider (for example, VA specialists in 
Seattle telemedically treating VA patients at the VA Outpatient Clinic 
in Anchorage, AK), and should also be highly cost-effective and more 
convenient for veterans who live at a distance from their VA medical 
centers, or who must travel long distances for access to basic VA care.
    Delegates to our most recent DAV National Convention approved 
Resolution No. 126. Among other priorities, this resolution calls on VA 
and Congress to establish and sustain effective telemedicine programs 
as an aid to veterans' access to VA health care, particularly in the 
case of rural and remote populations. Our delegates also approved 
Resolution No. 226, fully supporting the right of rural veterans to be 
served by VA. This bill is consistent with these resolutions and DAV 
policy; therefore, DAV strongly supports its enactment and appreciates 
the sponsors' intention to promote the use of telemedicine in the care 
and treatment of veterans.
 s. 2253--department of veterans affairs veterans education relief and 
                        restoration act of 2015
    This bill would address a veteran's continued entitlement to VA 
education benefits in situations in which an educational institution 
permanently closed prior to the completion of a term, quarter, or 
semester. Under current law, a veteran in this circumstance would be 
penalized by a charge against educational entitlement for failing to 
successfully complete the prescribed period of education. VA also 
reclaims living allowances and other payments as if the veteran simply 
withdrew from the educational institution. This bill would hold 
harmless a veteran in such a situation.
    Under this bill, if a veteran were forced to discontinue a course 
as a result of an educational institution's permanent closure and did 
not receive full credit for, or lost training time toward completion 
of, the VA-approved education program, VA educational assistance 
payments would not, for a specified period of time thereafter, be 
charged against the individual's entitlement to educational assistance, 
or counted against the aggregate period for which VA assistance would 
be provided in the absence of such a closure.
    The bill would require VA to continue to pay the approved monthly 
housing stipend following a permanent school closure, but only until 
the earlier of: (1) the date of the end of the term, quarter, or 
semester during which the school closure occurred; or (2) the date that 
is four months after the school closure.
    The bill also would require VA to continue to pay educational 
assistance and subsistence allowances to veterans and other eligible 
persons enrolled in specified courses for up to four weeks in any 12-
month period if their schools were closed temporarily under an 
established policy based on an executive order of the President, or due 
to an emergency situation.
    The effective date of this bill would begin retroactively with 
Fiscal Year 2015.
    DAV has received no resolution from our membership that would 
address the purposes of this bill. However, the bill seems to be a 
reasonable accommodation for a situation that has been reported, 
affecting educational entitlements of numerous veterans who are 
victimized by unexpected, permanent school closures. DAV would not 
object to passage of this legislation.
  draft bill--the veterans affairs retaliation prevention act of 2015
    If enacted this bill would sanction VA employees who take 
retaliatory steps against other employees when truthful complaints are 
made about waste, fraud, gross mismanagement, and risks to life and 
safety of veterans. The bill also would specify a number of procedures 
and actions VA would be required to take to address and document 
complaints made, while protecting the VA employee(s) who made them. The 
bill also would establish a central repository of complaints made that 
are subject to the purposes of the bill. The bill would restrict the 
payment of bonuses to VA supervisors who are found to have committed 
prohibited personnel actions in circumstances as defined in the bill.
    The bill would require VA to create a whistleblower training 
program, and would require VA to train every VA employee in 
whistleblower rights, including the right to petition Congress, and in 
the processing of complaints and related matters.
    The bill would require a series of reports to Congress related to 
its purposes, and would require the VA Office of Inspector General 
(OIG) to make public, and provide to Congress broadly and on request in 
specific cases, all OIG work products that make recommendations or call 
for corrective action in any VA matter.
    The final section of this bill would declare that official 
testimony before Congress by any VA employee to be that of official 
duty by that employee, including coverage of salary and travel support.
    Delegates to our most recent National Convention approved 
Resolution No. 214. This resolution requires that any legislation 
changing existing employment protections in VA must strike a balance 
between holding civil servants accountable for their performance, while 
maintaining VA as an employer of choice. Resolution No. 214 does not 
directly discuss the plight of VA whistleblowers, but DAV supports 
fairness for all VA employees, including those whom this bill would 
declare to be whistleblowers. Therefore, DAV would not object to the 
passage of this bill.

    Mr. Chairman and Members of the Committee, this concludes DAV's 
testimony. We thank the Committee for inviting DAV to submit this 
testimony for the record of this hearing. DAV is prepared to respond to 
any further questions by Committee Members on the positions we have 
taken with respect to the bills under consideration.
                                 ______
                                 
         Prepared Statement of Susan Tsui Grundmann, Chairman, 
                  U.S. Merit Systems Protection Board


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
   Prepared Statement of Lisa M. Nee, MD, Interventional Cardiologist
    Dear Committee members, thank you for the opportunity to provide 
written testimony for the record in support of Senator Kirk's VA 
Patient Protection Act. I wish to extend my gratitude to Senator Kirk 
and his staff for the continued attention to the alarming matter of 
whistleblower retaliation and for moving forward with this important 
legislation. Although there is significant rhetoric from various 
branches of government that this type of behavior is detrimental to the 
care of the veteran, there seems to be no end in sight for those who 
continue to face retribution for taking the courageous step of coming 
forward. A September 2015 report from the Committee on Homeland 
Security and Governmental Affairs stated the Office of Special Counsel 
has received 35% of its entire retaliation case load from VA employees. 
Despite its efforts to prioritize investigations, Special Counsel 
Carolyn Lerner testified before Congress in August of this year that 
the volume of incoming VA complaints remains overwhelming. This clearly 
demonstrates the severe, dysfunctional culture within the VA that 
encourages retaliation against the very individuals who expose harm to 
the veteran and attempt to improve the health care delivery process.
    There are many journeys we all participate in during the course of 
our lifetime. Some are arduous, many are attainable, but none has been 
more agonizing and unfulfilling than the current process of obtaining 
justice for the men and women who have fought for our freedom. I 
realize that not every complex situation in life presents itself with 
moral clarity, however this is not one of them. Caring for our veterans 
should be elementary. There should never be a single instance where a 
physician must choose between self-preservation and the life of a 
patient. Or suffer an assault to their character in order to obtain 
accountability for criminal and inhumane acts against patients and 
fraudulent behavior toward the taxpayer. The amount of bureaucratic 
gymnastics coupled with agency corruption can render the strongest 
individual forlorn and exhausted. Knowing when to lose with grace is an 
honorable skill and one that requires precise timing--this is not that 
time. Armed with voracity for equity, an insatiable appetite for the 
truth and a colossal amount of evidence, I am prepared to continue this 
battle until there is responsibility from leadership and transformative 
action which will hold those at fault accountable.
    My personal journey began over 4\1/2\ years ago with exposure to 
the corruption at Hines VAMC regarding patients who died of cardiac 
complications while awaiting their cardiac ultrasound to be read. 
Unfortunately for them the tests were hidden in bankers boxes and left 
unread for a year. The mere questioning of such an egregious act 
resulted in significant retaliation, which went unabated the entire two 
years I was employed at Hines. But hell hath no fury like a VA 
administration scorned, and the retaliation continued even after I 
resigned, with the Office of Inspector General (OIG) and its pervasive 
culture of disparaging the truth teller. Multiple allegations regarding 
deficiencies in cardiovascular care were made including, but not 
limited to: patient's having their chest sawed open for unnecessary 
procedures, disparities in care based on ethnicity, procedural 
diagnostic errors resulting in harm and pervasive billing fraud. These 
allegations have resulted in an initial deficient OIG investigation, a 
subsequent OSC investigation, a second contemptible OIG investigation, 
insistence from the OSC for an authentic and thorough investigation, 
and culminating with an ongoing Office of Medical Inspector's (OMI) 
investigation. It is a mind numbing process to not only keep track of 
the endless agency acronyms, but also calculating the amount of wasted 
taxpayer dollars consumed by these ineffectual inquiries. They are not 
true investigations for they lack experienced subject matter experts 
and have a pre-determined conclusion, which maintains the status quo.
    The path this case has taken over the last four years has been 
objectively obfuscated, and its bureaucratic oscillations can only be 
the result of stunning deficiencies at all levels of the VHA 
leadership. The task has become the exercise within itself. To engage 
in multiple investigations by varying internal agencies which have 
substantiated patient harm as well as criminal activity, and to never 
mention one, single word regarding accountability--one can only 
conclude this maladjusted behavior is designed to serve the agency 
itself, and not the veterans. It is the VHA leadership attempting to 
gain credit for oversight that the agency has failed to provide. 
Duplicitous. No other word describes it. The OMI report from July 2015 
substantiated some of my allegations regarding deficiencies in 
cardiovascular care, deficiencies in echocardiogram processing, failure 
to disclose deficiencies in care and harm to patients, inflated 
productivity measures by cardiologists and evidence that Veterans were 
inappropriately charged copayments for care they never received, 
otherwise known as billing fraud. In regards to this billing fraud, the 
report states, ``We found that these actions possibly violate 18 US 
Code 208--Acts affecting a personal financial interest.'' The OMI 
referred this criminal matter to the OIG who has declined to open a 
criminal investigation.
    Interestingly the bulk of the report is dedicated to the fraudulent 
billing practices, including in depth statistical analysis, 
diagrammatic explanations and extensive billing pattern documentation. 
This provides a glaring contrast to the lack of investigative fervor 
and expertise when dealing with patient morbidity and mortality. 
However all this effort is for naught as the end result once again 
allows the documented criminal activity to go unpunished. For the 
agency to demand an OMI investigation yet deny the credibility of 
criminal findings is administrative misconduct. The OIG must adhere to 
the Quality Standards for Investigations issued by Council of Inspector 
General on Integrity and Ethics (CIGIE) and the Attorney General 
Guidelines for OIG with Statutory Law Enforcement Authority. You don't 
get to be above the law just because you work for the VHA. Or do you? 
An equally compelling question is, if the OMI substantiated findings 
and then those are ignored, why do we need any of these investigative 
arms within the VA? They are redundant and wasteful and should be 
restructured.
    To sum up the totality of all the reports to date is to call them a 
mismatch between words and deeds. A failed promise to treat and protect 
the veterans, while instead protecting hundreds of useless report 
generators who will then retire with benefits. The investigators have 
gone so far out of their way to protect the VHA leadership that it has 
rendered every investigator impotent and every investigative finding 
ineffectual. They are highly skilled at one part of their job, 
generating a paper trail designed to justify their professional 
existence. But they have failed at their original mission statement and 
severely compromised the health care of the men and women who have 
fought for our freedom. In order for any type of transformative action 
to begin to take shape and halt systemic corruption, there must be 
protection for truth tellers, accountability for those who fail at 
their duties and transparency to illuminate both operational 
deficiencies but also properly analyze collected data. These are far 
from novel concepts and are most certainly codified in policy and 
procedure. Chairman Kirk's VA Patient Protection Act will demand 
accountability for those who retaliate against truth tellers and 
empower those who can begin to make a positive impact on the outcomes 
of patient care. Preventing retaliation in the current defective 
culture of the VA requires deterrents, which should be timely, 
formidable and indelible. This bill would properly punish VA 
supervisors who have been found to take retaliatory actions against 
whistleblowers. There can be no saving of an agency as large as the VHA 
if the employees operate from a constant position of fear, rather than 
conviction and collaboration.
    An additional step toward agency accountability, which should be 
addressed by Congress, is extending legislative authority to the OSC in 
two arenas. 1. Allow the agency to embark on a criminal investigation 
or partner with the Department of Justice if the preponderance of 
evidence suggests illegal activity and 2. Grant the OSC the necessary 
authority to determine the corrective action and punishment once the 
allegations are substantiated. They have independent authority to 
determine if conduct constitutes a violation of law, rule, gross 
mismanagement and a substantial and specific danger to public health. 
If they can determine the crime, they should be allowed to determine 
the punishment.
    Many people have asked me why I continue to fight for the veterans 
even though I have left the VA. ``What can you do?'' I want the 
American public to contemplate that question for a moment and then 
consider an alternative perspective, and perceive it as ``What should I 
do?'' With that, the only acceptable response would be to strive for 
social justice and search for the truth.
    Which brings us to the truth. A glorious, unadulterated supreme 
reality, holding the ultimate meaning and value of existence, 
corroborated by evidence. It does not change over time, as it never has 
to rely on anybody else's interpretation. As a Nation, we can achieve 
this goal for the genuine protectors of truth, our veterans.
                                 ______
                                 
Prepared Statement of Carolyn N. Lerner, Special Counsel, United States 
                       Office of Special Counsel

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views on legislation pending before 
the Committee. We appreciate the Committee focusing on these critical 
issues that will affect veterans and their families.
  s. 2106, the ``wounded warrior employment improvement act of 2015''
    PVA supports S. 2106, the ``Wounded Warrior Employment Improvement 
Act of 2015,'' which would require the Department of Veterans Affairs 
(VA) to develop and publish an action plan for improving services and 
assistance provided through VA's Vocational Rehabilitation and 
Employment (VR&E) program (Chapter 31). Returning to the workforce is a 
critical aspect of recovery for many catastrophically disabled 
veterans. This legislation would require VA to evaluate barriers to 
participation in VR&E and implement efforts to improve counselor 
training. It would also seek to improve counselor workload 
requirements.
    A client to counselor ratio of 1:125 is recognized as a full 
workload in the field of vocational rehabilitation counseling. In 
January 2014, the Government Accountability Office issued a report 
calling on VA's VR&E program to implement performance and workload 
management improvements. At that time, caseloads for VR&E counselors 
ranged up to 1:139.\1\ When counselors are required to work with more 
than 125 clients, the employment counseling process is delayed. This is 
particularly true when counselors are working with veterans who have 
significant disabilities and increased barriers to employment.
---------------------------------------------------------------------------
    \1\ Government Accountability Office, ``VA Vocational 
Rehabilitation and Employment: Future Performance and Workload 
Management Improvements Are Needed,'' GAO-14-61, January 2014.
---------------------------------------------------------------------------
    Although not part of this legislation, efforts to decrease 
counselor caseloads and encourage more veterans to participate in the 
VR&E program must be supported through increased funding. Congress must 
invest in this program to ensure that counselors have the tools and 
resources needed to return veterans with disabilities to work. 
Otherwise, veterans with significant disabilities, who with proper 
supports and services can return to employment, are in danger of 
falling out of the workforce.
 s. 2134, the ``grow our own directive: physician assistant employment 
                      and education act of 2015''
    PVA supports S. 2134, the ``Grow Our Own Directive: Physician 
Assistant Employment and Education Act of 2015.'' This bill would set 
up a five year pilot program to provide education assistance to 
veterans training as physician assistants (PAs) in the Department of 
Veterans Affairs. The goal is to train veterans with medical or 
military health experience to be readily employable physician 
assistants at VA. Section 2 of the bill explains the prioritization of 
veteran participants who are in the Intermediate Care Technician 
Program and those individuals who plan to work in medically underserved 
states with a high population of veterans. To meet these goals the bill 
provides funding and support staff to the Office of Physician 
Assistance Services. It would also require VA to establish a strategic 
plan to recruit and retain PAs and adopt the standards leading to 
competitive pay for PAs employed by VA. Currently the vacancy rate of 
PAs at VA is 25%, the third largest shortage throughout the health care 
system. Recruiting and retaining PAs at VA is critical to improving 
access to high quality care. Further, this bill will provide job 
opportunities for veterans with medical work histories that are hard to 
translate to the civilian sector.
                   s. 2170, the ``vets act of 2015''
    PVA supports S. 2170, the ``VETS Act of 2015.'' This bill would 
improve access to telemedicine services from the Department of Veterans 
Affairs. Under current law, VA may only provide at-home tele-health to 
a veteran if the physician and veteran are in the same state. This 
requirement can be a particularly troubling barrier for veterans who 
have specific medical or mental health needs, have moved, or live in 
rural communities without providers. This bill would alleviate some of 
these pressures by waiving the instate requirement, allowing VA health 
professionals to operate across state lines.
s. 2253, ``department of veterans affairs veterans education relief and 
                       restoration act of 2015''
    PVA supports this legislation as written. Veterans entitled to 
education benefits should not be robbed of those benefits due to 
external factors beyond their control. A school closure sets an 
enrolled veteran back due to the lost time and effort invested without 
ultimately earning course credit. This legislation ensures that the 
effects of this inconvenience and loss are not amplified by the 
additional loss of a semester's worth of benefits eligibility.
      the ``veterans affairs retaliation prevention act of 2015''
    PVA has no official position on the ``Veterans Affairs Retaliation 
Prevention Act of 2015'' at this time. We acknowledge that ensuring 
whistleblowers receive a level of protection adequate to encourage 
government employees to come forward and expose fraud, waste and abuse 
within the government sphere will always be an important issue. We 
appreciate and support the initiative Congress is taking to address 
these issues both within the VA and across the broader government 
sector.

    Once again, we thank you for the opportunity to submit for the 
record. We look forward to working with the Committee to see these 
proposals through to final passage. We would be happy to take any 
questions you have for the record.
                                 ______
                                 
                VA Truth Tellers, United States of America,
                                 Shreveport, LA, November 18, 2015.
Hon. Johnny Isakson,
Chairman,
U.S. Senate Veterans' Affairs Committee
Washington, DC.

    My personal story begins when I returned to the Mental Health 
Department at the Overton Brooks Veterans Administration Medical Center 
in December 2011 as the Local Recovery Coordinator (LRC). As the LRC, 
my job was to consult directly with the Chief of Mental Health to 
convert all existing programs to and to assure all new programs were 
operating under the Recovery Model of Care. Thus, my position was 
considered part of the Mental Health Leadership team.
    It was early in my time as LRC that I started to notice 
questionable practices within Mental Health. The first were hiring 
practices, treatment of employees and issues with group therapy. It was 
obvious that certain persons were given special privileges over other 
employees and that certain employees were targeted by members of 
leadership. As I began to learn the processes of the VA in more detail, 
my role expanded. I took on a performance measure responsibility for 
the service (OEF/OIF Performance Measure), attended director staff 
meetings, and worked on special projects.
    I saw leadership use cronyism in the hiring of a Mental Health 
Service Chief that had absolutely no experience and was totally 
incompetent. There were several other applicants with 20+ years of 
experience, but instead they picked a good ole' boy over the most 
qualified. I again watched cronyism rear its head as the hiring process 
for the Assistant Chief of Mental Health was manipulated. This time I 
decided to report the situation to Human Resources (HR). After speaking 
to H.R. and bringing to their attention possible faulty hiring 
practices, I was approached by Mental Health leaders and asked to be 
the acting PTSD Clinic Coordinator.
    A day later I was contacted by telephone by a Mental Health leader 
(Operations Manager) who explained that the permanent PTSD coordinator 
position would be coming open and it would be a highly competitive 
position. My response was ``really that's cool.'' The individual 
continued asking if I wanted the position. My response was ``I'd have 
to discuss a decision like this one with my wife.'' The Operations 
Manager quickly responded ``no don't tell anyone about this.'' Mental 
Health leadership made it very clear that if I would back off the 
hiring practices of the Assistant Chief of Mental Health, I would be 
awarded the PTSD Clinic Coordinator position. I was offended by such an 
offer as I had just turned the service in for faulty hiring practices 
and now they had the audacity to ask me to do such an unethical act.
    Once the leaders of Mental Health learned that I was not going to 
accept their offer, the first attempt of reprisal came. The Mental 
Health Chief and Operations Manager went to the Administrative Officer 
to the Chief of Staff and the Chief of Human Resources and complained 
that I had lied on a Learning Development Institute application. 
Luckily, I was able to fight this retaliation attempt off. I had kept 
cell phone text of conversations between myself and Mental Health 
leaders that proved that I had not lied on my application. This 
reprisal attempt quietly went away.
    Eventually the incompetent Chief of Mental Health stepped down and 
the service went without permanent leadership for an extended period of 
time. During this time I took on many hats and at one point served as 
Acting Assistant Chief of Mental Health. I completed projects for the 
Director, Chief of Staff, and developed key ideas that are still being 
used in Mental Health today. It was during this time that I started to 
learn of number manipulation, scheduling manipulation, and other 
unethical acts. I addressed these acts in Mental Health leadership 
meetings, with the Chief of Staff, and others, but very little was done 
to correct the issues.
    Early in 2013 a VA Office of Inspector General (OIG) report was 
released concerning unethical acts at the Atlanta VAMC. At this point I 
had become totally frustrated with trying to address the corruption 
through the internal channels of the Overton Brooks VA system. However, 
I decided to give the Chief of Staff one last chance to address the 
issues of manipulation of scheduling and numbers.
    I reported my concerns one last time to the Deputy Chief of Staff 
(COS) (acting COS at the time) about hiring practices, manipulation of 
scheduling, and manipulation of numbers. I was blown off by the Deputy 
Chief of Staff. It should be noted that later became the permanent COS. 
After waiting a month, I decided it was time to report the wrongdoings 
to the VA Office of Inspector General. In June 2013, I made an official 
VA OIG report related to issues concerning faulty hiring practices 
(Chief of Mental Health), manipulation of numbers related to 
performance measures, and scheduling manipulation within Mental Health 
Service. I never heard one word of response from the VA OIG.
    It has now become apparent that the fact that I reported 
information to the VA OIG June 2013, was relayed back to the facility. 
Looking back it was from that point forward things began to change for 
me, not only in Mental Health, but throughout the hospital.
    It turned out that the individual that was selected for the 
position of Chief of Mental Health was a friend of the Deputy COS. 
Again, cronyism was evident--the same manipulation of hiring practice 
that I had reported to the VA OIG. By the fall of 2013 I was being 
billed as the problem child, trouble maker, and unstable employee. This 
was for nothing more than telling the truth. I was approached by 
leaders and told to let unethical acts, such as illegal access to my 
medical and employment records, go and that I should move forward.
    It was apparent that new leadership was not going to address the 
unethical activity, but rather it would be allowed to continue and 
those unethical persons would be allowed to continue to hold leadership 
positions. I would not back down from unethical leaders and I continued 
to bring up issues and fight to block unethical acts. This infuriated 
those above me and I became a target.
    I was called by the Chief of Mental Health to meet with him in his 
office. In the meeting, he asked me if I had ever been seen by a 
particular Mental Health provider in Mental Health Service. I explained 
I had seen the doctor after returning from Afghanistan. The Chief of 
Mental Health continued by saying that a colleague had told him I was 
unstable and unfit to lead. I explained to him that was interesting 
because I was currently the HHD Commander for a USAR Multi-functional 
Medical Battalion. I continued by saying that it was obvious that 
someone had been in my records. The Chief of Mental Health quickly 
stated that he could not remember who told him about my seeing the 
particular doctor. I went to the privacy officer after the meeting and 
obtained a copy of who had been in my record. I found numerous persons 
that had illegally accessed my personal information. The hospital 
conducted an investigation but claimed that they had found nothing.
    My fate was sealed in the Mental Health Service when I started 
questioning compensation time/overtime issues. Around the end of 2013, 
I began to suspect fraud related to comp time/overtime. The operations 
manager, that offered me the PTSD Coordinator Position to shut up about 
the hiring practices, was constantly disapproving everyone's request 
for comp time and overtime except for a select few. I started to pay 
closer attention to this area of discussion in meetings. The issue hit 
a boiling point when the Operations Manager denied my assistant 
legitimately earned 3 hours of comp time. The Operations Manager denied 
the comp time due to her not being there to approve it before it was 
earned. When I inquired as to why there was no other person that could 
approve comp time, I was warned by the Chief of Mental Health to let 
the issue go. I explained that we would take the issue to higher levels 
if need be to obtain the three hours comp time.
    At this point there were too many red flags surrounding the issue 
for me not to investigate the possible issue more. I later put in a 
FOIA request (after leaving Mental Health early 2014) for all Mental 
Health leadership's comp time and overtime earned. I discovered the 
Operations manager had an extreme number of earned comp time hours and 
other certain individuals in the service had extremely high hours of 
paid overtime.
    I reported my findings through the VA OIG Hotline and had to argue 
with the person on the hotline about taking my compliant. At first, I 
was told by the hotline that this was a facility problem. I insisted 
that it was possible comp time and overtime fraud and my compliant was 
ultimately taken by the hotline.
    I later learned that the OIG referred my compliant to the Faculty 
Director for a response. My understanding is that the issue was passed 
on to Chief of Staff, who in turn had Mental Health Leaders provide a 
report. In other words, nothing happened.
    When speaking with Office of Special Counsel months later, I 
explained the comp time/overtime issues. The following week I was 
contacted by VA OIG and told the issues were under investigation. I 
understand at some point VA OIG was at the facility investigating the 
issue but I never spoke to them in person. I later sent a FOIA request 
to the VA OIG for information related to the case but was told the case 
was still open.
    I was systematically removed from Mental Health leadership through 
a well-organized manipulated hiring process. The Local Recovery 
Coordinator (LRC) position I held was eliminated and a Recovery 
Supervisor position was created. The position was an upgrade from GS-12 
to GS-13. I had received outstanding and excellent performance 
evaluations during my time in the LRC Position. Since the position was 
upgraded, I had to reapply. Once again, I was offered the ``hook-up'' 
but, once again, I declined and insisted that the job needed to be 
announced and the hiring process should be completed properly.
    The hiring process was completed and I was by far the most 
qualified for the position, but was not selected. It was easy to see 
that the hiring practices had been manipulated through screening tools. 
At this time I knew that I had to get out of Mental Health as the only 
positions I was offered were frontline positions under the very people 
that I had turned in for unethical acts. I knew that, if I stayed, I 
would face the same horrible retaliation from leaders, that I had 
witnessed other employees face.
    At this point I went through my NFFE Union President to ask the 
Director for a transfer out of Mental Health as soon as possible. There 
was arguing back and forth about the FTE, but the Director stepped in 
prior to her retirement and ordered Mental Health to give up the FTE to 
Primary Care so that I could be moved out. In my request, I mentioned 
that I would like to move to the OEF/OIF Team, but that I had 
experience in numerous areas.
    I was moved to the OEF/OIF Care Team which was located on the 10th 
floor. My office was located at the opposite end of the 10th floor away 
from the OEF/OIF Care Team. My office was a large storage room type 
office with no windows. The hospital air conditioning unit was above 
the office and made a constant sound of metal grinding. I placed a work 
order with engineering which informed me there was no real way to stop 
the grinding sound. When I originally moved into this office I was 
informed I would only be in office for a month and not to unpack my 
boxes. That month turned into several months and I sat in the office 
away from my new team members, packed boxes sitting in the corner. The 
position created in OEF/OIF was developed to see Veterans but as an 
extra staff member with no case management load and few referrals, it 
was difficult to meet the expected numbers.
    In April 2014 the story of the wait-list at the Phoenix VAMC 
surfaced in the media. I had sat in meetings where wait-lists were 
discussed and had seen wait-lists during my time in Mental Health 
Department. As mentioned, I had already reported wait-time issues and 
knew that the scheduling practices were manipulated so that it would 
make wait-times look better. Bottom line is I knew from my time in 
leadership that several methods were being used to make the 14 day 
measure numbers look tremendously better than they were.
    After watching the Phoenix VAMC story develop, I decided that I 
could not wait any longer for VA OIG to take action on my June 2013 
complaints. I contemplated what to do next and felt I had exhausted all 
internal options to report the wrongdoings, so I hesitantly decided to 
take my story to the media.
    I went to the Shreveport Times in May 2014 and worked with a Times 
Reporter for 2-3 weeks on the story. As the story develop and it was 
close to being released I was told that TV was probably going to 
contact me as well as other media sources. I explained that I was not 
really wanting to speak with a lot of media, but I would be happy to 
speak with one TV media source as long as the story was focused on 
Veterans Care issues and not me.
    As the time drew closer I feared that once the story was published 
that the lists in Mental Health would disappear. I also knew once the 
article ran in the media, my life would change forever, especially my 
career with the VA. I had seen firsthand how persons who brought issues 
forward were treated, but I also knew I could no longer look away as 
Veteran received substandard care.
    I decided at this time that I needed to secure a copy of any and 
every wait-list in Mental Health I could get my hands on. I enquired 
from Mental Health colleagues I had worked with previously and learned 
that the numerous list had been joined to form one list. Despite fear 
of retaliation, with the help of other employees, I was able to obtain 
a copy of the lists and other evidence of the lists existence.
    The Shreveport Times story on the issues at the OBVAMC ran on 
Sunday June 1, 2014. I met for a TV interview on Tuesday, June 3, 2014. 
Around the same time I, yet again, filed a report with VA OIG that I 
now had a wait-list in my possession and that I knew the hospital was 
manipulating numbers and scheduling throughout the hospital. When the 
story hit the news, as I anticipated, the list was removed from the 
share drive and replaced with a different list that was posted and 
password protected.
    I sat patiently and waited for VA OIG response, but received 
nothing. I watched as the good ole' boy leaders of our facility circled 
the wagons and started developing their cover-up stories. I was told by 
my frontline supervisor that her boss, the Chief of Primary Care, had 
made a visit to her office and was not happy. She explained that he 
told her that what I did was wrong and that when things were all said 
and done I would be standing here like the officer in the movie 
``Bridge Over the River Kwai'' stating ``What have I done, what have I 
done.'' Emails were sent out by the Mental Health Service Chief calling 
the allegations lies and stating that I was trying to destroy Mental 
Health.
    He began circulating the story that the list was not a secret wait-
list but a list to help find Veterans that may have slipped through the 
cracks. Numerous persons working in Mental Health approached me. They 
complained that it was as if Mental Health leaders were trying to 
brainwash them into believing their concocted story. But everyone knew 
the truth, they knew that the lists were lists of patients who needed 
appointments.
    For over a month the VA was allowed to develop its story and 
propaganda. The hospital even brought in public relations personal from 
other facilities and prepared a dog and pony show in which they denied 
everything. Several Veterans heard the VA's story of what was going on 
and called the TV station and backed up what I was saying. One Veteran 
did an interview and explained the exact procedures that were 
occurring. He even revealed that he had indeed personally seen the 
wait-list.
    After patiently waiting for VA OIG to come in and investigate I 
decided I could wait no more because the corrupt good ole' boys 
continued to cover their tracks. I knew the longer it took 
investigators to get to the facility the less they would find. I 
contacted Senator Mary Landrieu who sent a letter to Acting Secretary 
Sloan Gibson. I also contacted Senator David Vitter's office in an 
effort to get OIG to OBVAMC. Senator Vitter office sent a letter to the 
VA OIG Director Richard Griffin demanding that the list be 
investigated. The next day after the letter was sent I received a call 
from a VA OIG Special Agent. The agent explained that he and another 
agent were headed to Shreveport from New Orleans and that they wanted 
to meet with me. I was excited that finally VA OIG was coming to 
investigate.
    Due to the timing, I originally believed that the OIG's call was in 
response to the request from Senator Vitter. It appeared that after a 
year of trying to get the VA OIG's attention, that the existence of the 
wait-list and other methods of scheduling manipulation were finally 
going to be investigated.
    A few hours after I received the first call from the OIG Special 
Agents, I received another call from them explaining they had arrived 
in Shreveport. They explained that they needed the list and asked if I 
wanted to meet them somewhere off station.
    I explained that I did not feel comfortable taking the wait-list 
off hospital grounds and that one copy of the wait-list was on the 
computer's hard drive. The OIG Special Agents agreed to meet me in my 
office on the 10th floor.
    When the OIG Special Agents arrived at my office we sat down and I 
signed a release and we began discussing the issues related to the 
wait-list and other scheduling practices used to manipulate performance 
measure numbers. I showed the agents the wait-list on the hard drive 
and explained how I got to the list on the share drive. The OIG Special 
Agents asked about copies of the list and I provided them the two hard 
copies I had. The agents then took the hard drive from my computer. The 
agents left telling me they were headed to Mental Health to speak with 
other employees. I took the rest of the day off to settle my nerves.
    The next day the OIG Special Agents came back to speak with me. I 
signed another waiver and we began to discuss the list again. At this 
point I realized that their questions were related more toward how I 
obtained the wait-list and not about why the wait-list existed. I also 
realized that they were unaware of the request by Senator Vitter or of 
the recent news article and television interviews.
    Later that evening I spoke to a person whose name I had given to 
the OIG, who explained that OIG Special Agents had explained to her 
that if she had provided me access to the list that she could be an 
accomplice to a crime. She explained to my attorney and I that she was 
trying to get find a lawyer. At this time she also explained to my 
attorney and I how the list was created and how it was used because 
there were not enough providers to see everyone. My attorney made some 
telephone calls and obtained her legal counsel.
    My attorney contacted the OIG Special Agents and asked them if I 
was under criminal investigation. The OIG Special Agents explained to 
my attorney that they were criminal investigators and that they were 
investigating the issue of how I obtained the list. My attorney at this 
time told the OIG Special Agents that all communication should go 
through him. The damage had already been done.
    The OIG had come to Shreveport not to investigate the wait list and 
other scheduling issues. The OIG had come to perform damage control, 
intimidate other potential whistleblowers, and to investigate me, the 
whistleblower. The investigation they conduct was shoddy at best and 
they only interviewed Mental Health persons that would stand to face 
discipline if there was a list. They intimidated the other employee 
whose name I had given them. Her story totally changed from what she 
had explained to my attorney and I for fear that she would be charged 
with a crime.
    A few weeks later the OIG Special Agents contacted my attorney. 
They explained they were headed to Shreveport and asked if they could 
speak to me. My attorney explained to the inspectors that he would let 
the investigators talk to me about everything except how I obtained the 
list. The OIG Special Agents met with my attorney at his office. The 
two agents were accompanied by a polygraph tester. My attorney again 
reiterated to the OIG Special Agents that he would allow them to speak 
to me about anything except how I obtained the list. The agents said 
that they didn't need to talk to me about anything else.
    They also told my attorney that there was nothing to the list. My 
attorney questioned why they had only talked to select persons in 
Mental Health and not others that wished to talk. The agents then 
turned to the fact that I had brought up that other scheduling 
procedures were being used to manipulate the performance measures. The 
agents asked my attorney for names and I provided my attorney with 
names of schedulers in other areas of hospitals that had explained to 
me they were instructed to schedule in such a way that numbers would 
look better on performance measures.
    It was at this point that I became totally discouraged and had to 
shift focus into a mode of protecting myself against possible criminal 
charges instead of advocating for Veterans' care. Over the next several 
months I experienced the weight of an investigative agency of the 
Federal Government. The pressure from having the burden of a criminal 
investigation hanging over me was tremendous. I was also experiencing 
pressure from OBVAMC leadership. I became extremely frustrated that 
neither the OIG nor the VA leaders cared enough about the Veterans' 
care to do a complete investigation into reported wrongdoings. It was 
literally heartbreaking for me as an individual who has only wanted to 
do two things in my life: to be a soldier and to help Veterans. Despite 
my whistleblowing I continued to witness poor care being provided to 
Veterans. I had put my career and livelihood on the line and all I 
gained by doing so was being purposely isolated by the VA and hung out 
to dry by the OIG.
    There is no doubt in my mind the OIG's sole purpose of coming to 
Shreveport was to intimidate myself and other potential whistleblowers 
for coming forward. Their main purpose was intimidation and damage 
control. The investigation was half-assed and shoddy at best. The OIG 
showed no interest investigating the wrongdoings in the hospital. 
Rather they interviewed select persons with the intention of 
intimidating them and others not to come forward with information about 
how and why the wait-lists existed. I had given the OIG Special Agents 
the names of numerous witnesses who could substantiate my claims of 
wrong doing. They did not take the time to interview most of them.
    For coming forward and telling the truth I was now in a job way 
below my ability level. I was asked to complete a training that I 
explained to my leaders I was ethically unable to complete. I was told 
I needed to do the training because the COS wanted 100% compliance. I 
explained I was not going to complete the training because it placed my 
integrity in jeopardy. I was given a letter of admonishment for not 
completing the training. I filed a grievance concerning the letter of 
admonishment which turned out to be a joke due to the fact that Step 1 
went to the Service Chief that was ordered by the COS to discipline me 
and Step 2 of the process was assigned to the COS who ordered the Chief 
of Primary care to discipline me. I complained that this was a conflict 
of interest to no avail. Thus, I withdrew my grievance in order to file 
with the Office of Special Counsel. After filing a retaliation claim 
for the letter of admonishment against my supervisor, Chief of Primary 
Care, and COS things became more tense for me in the OEF/OIF team. My 
supervisor and I were not getting along so I distanced myself. My 
supervisor took a position at another facility. Prior to leaving she 
gave me an unacceptable performance appraisal for not following 
directions concerning the training and left the next day.
    As I languished for a year under investigation for obtaining a list 
that wasn't supposed to exist I began to contact other whistleblowers. 
My anger started to increase as it became apparent the OIG had used the 
same scare tactics all over the country to intimidate other 
whistleblowers. To make matters worse the OIG began time and time again 
whitewashing reports and attacking whistleblowers in these same 
reports. This solidified my belief that the OIG was not going to help 
solve the problem, but that it in fact was part of the overall problem 
with the VA System. After living a VA nightmare the last year it has 
become very apparent and saddens me to say that I see no real change in 
how VA operates. I believe that the problems with the VA are endemic to 
its structure. There will be no real reform until there is an 
independent agency that is willing to conduct thorough investigations 
and the system starts hold individuals at every level accountable.
    The VA has become a bloated bureaucratic system in which its 
leadership is more interested in perpetuating their own careers rather 
than caring for our veterans. When given a performance measure, leaders 
don't look at how they can adapt their programs to meet the measure, 
rather they look at the performance measure and try to figure out a way 
to manipulate it to make it look like they have met the expected goal. 
The system needs true reform and its leadership needs to be held 
accountable for its failures.
    It is my belief that until we are able to protect whistleblowers 
and potential whistleblowers the true depth of the corruption within 
the VA will not be known. The years of cronyism and lack of 
accountability have allowed least two generations of poor incompetent 
leaders to plant themselves within the system. These poor leaders have 
trained other poor leaders and they have isolated the VA from the real 
world of efficient and effective medical treatment. The VA's continued 
inability to tell the truth has caused generations of Veterans to lose 
trust in their services. It is apparent that until the VA is absolutely 
with no exception forced to change, it will not do so.
            Very Respectfully,
                                   Christopher Shea Wilkes.
                                 ______
                                 
Prepared Statement of Linda A. Halliday, Deputy Inspector General, U.S. 
      Department of Veterans Affairs, Office of Inspector General


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Prepared Statement of Walter Ochinko, Policy Director, Veterans 
                           Education Success


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

                                  [all]
</pre></body></html>
